<html>
<title> - IMPORTATION OF EXOTIC SPECIES</title>
<body><pre>[Senate Hearing 108-358]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-358

                     IMPORTATION OF EXOTIC SPECIES

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION


 TO EXAMINE THE IMPORTATION OF EXOTIC SPECIES AND THE IMPACT ON PUBLIC 
                           HEALTH AND SAFETY

                               __________

                             JULY 17, 2003

                               __________

 Printed for the use of the Senate Committee on Environment and Public 
                                 Works


                    U.S. GOVERNMENT PRINTING OFFICE
92-380                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                      one hundred eighth congress
                             first session

                  JAMES M. INHOFE, Oklahoma, Chairman
JOHN W. WARNER, Virginia             JAMES M. JEFFORDS, Vermont
CHRISTOPHER S. BOND, Missouri        MAX BAUCUS, Montana
GEORGE V. VOINOVICH, Ohio            HARRY REID, Nevada
MICHAEL D. CRAPO, Idaho              BOB GRAHAM, Florida
LINCOLN CHAFEE, Rhode Island         JOSEPH I. LIEBERMAN, Connecticut
JOHN CORNYN, Texas                   BARBARA BOXER, California
LISA MURKOWSKI, Alaska               RON WYDEN, Oregon
CRAIG THOMAS, Wyoming                THOMAS R. CARPER, Delaware
WAYNE ALLARD, Colorado               HILLARY RODHAM CLINTON, New York

                Andrew Wheeler, Majority Staff Director
                 Ken Connolly, Minority Staff Director

                                  (ii)

  
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             JULY 17, 2003
                           OPENING STATEMENTS

Allard, Hon. Wayne, U.S. Senator from the State of Colorado......     4
Baucus, Hon. Max, U.S. Senator from the State of Montana.........    38
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     1
Jeffords, Hon. James M., U.S. Senator from the State of Vermont..     2

                               WITNESSES

Chavarria, Gabriela, Policy Director, Wildlife Conservation, 
  National Wildlife Federation, on behalf of the National 
  Environmental Coalition on Invasive Species....................    29
    Prepared statement...........................................    75
Clifford, John, Deputy Administrator for Veterinary Sciences, 
  Animal and Plant Health Inspection Service, United States 
  Department of Agriculture......................................     8
    Prepared statement...........................................    40
Cook, Robert A., Adjunct Professor of Environmental Affairs, 
  School of International and Public Affairs, Columbia University    30
    Prepared statement...........................................    77
Crawford, Lester M., D.V.M, Ph.D., Deputy Director, United States 
  Food and Drug Administration, Department of Health and Human 
  Services.......................................................    10
    Prepared statement...........................................    41
Ensign, Hon. John, U.S. Senator from the State of Nevada.........     6
    Prepared statement...........................................    39
Jones, Marshall P., Jr., Deputy Director, United States Fish and 
  Wildlife Service, Department of the Interior...................    12
    Prepared statement...........................................    45
    Responses to additional questions from:
        Senator Allard...........................................    51
        Senator Crapo............................................    50
        Senator Voinovich........................................    51
Meyers, N. Marshall, Executive Vice President and Counsel, Pet 
  Industry Joint Advisory Council................................    33
    Prepared statement...........................................    80
Ostroff, Stephen M., MD, Deputy Director, National Center for 
  Infectious Diseases, Centers for Disease Control, Department of 
  Health and Human Services......................................    14
    Prepared statement...........................................    52

                          ADDITIONAL MATERIAL

Statements:
    Animal Protection Institute..................................    88
    Humane Society of the United States..........................    90

 
                     IMPORTATION OF EXOTIC SPECIES

                              ----------                              


                        THURSDAY, JULY 17, 2003

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:30 a.m. in room 
406, Senate Dirksen Building, the Hon. Wayne Allard [chairman 
of the committee] presiding.
    Present: Senators Inhofe, Warner, Allard, and Jeffords.

 OPENING STATEMENT OF HON. JAMES M. INHOFE, U.S. SENATOR FROM 
                     THE STATE OF OKLAHOMA

    Senator Inhofe. The hearing will come to order.
    Today we will explore current regulations governing the 
importation of exotic species and the impact on human health 
and safety as well.
    I will be unable to attend the entire hearing because we 
have the Defense appropriation bill on the floor, and I am on 
that committee. However, I can assure you that Senator Allard 
is far better equipped to chair this committee than I am with 
his background. We look forward to that.
    In June of this year the first cases of monkeypox in the 
Western hemisphere were discovered in the United States. We 
were extremely fortunate that the Agencies testifying today, 
along with their State counterparts in the Pet Industry Joint 
Advisory Council acted in a coordinated effort to efficiently 
contain the monkeypox outbreak. Unfortunately, it is almost 
inevitable that the United States will face similar threats in 
the future.
    As a result of globalization and the increase in human 
populations, man is coming into contact with foreign animals at 
an increasing rate. In addition, the number of individuals 
owning exotic pets, as well as a variety of species, has 
increased dramatically.
    Diseases transmitted from animals to humans, zoonotic 
diseases, account for 61 percent of the infectious diseases and 
75 percent of the emerging diseases. In 1989, the United States 
was awakened to the weight of the threat when monkeys were 
imported from the Philippines to Reston, Virginia, right across 
the river, and were diagnosed with a new species of Ebola 
virus.
    Apparently it is not as deadly or serious as it is in some 
of the African countries. I have witnessed some of the problems 
over there. But it is something that has to be dealt with.
    During the course of today's hearings, I am hopeful that 
the witnesses will also provide insight into whether additional 
measures need to be taken to minimize the risk of introduction 
of zoonotic diseases by imported exotic species.
    Additionally, I feel that it is important that we 
thoroughly explore whether additional legislative authority is 
necessary, or if any shortcomings would be best addressed at 
the Agency level.
    It is critical that we proceed with caution as a complete 
ban on some exotic species may simply drive the distribution 
underground where it cannot be regulated.
    I am going to ask unanimous consent that my entire 
statement, as well as any other member who will be here today, 
be made a part of the record.
    Without objection, so ordered.
    [The statement of Senator Inhofe follows:]

   Statement of Hon. James M. Inhofe, U.S. Senator from the State of 
                                Oklahoma

    Good morning. The Environment and Public Works Committee will come 
to order.
    We are here today to explore current regulations governing the 
importation of exotic species and the impact on human health and 
safety. As I will be unable to attend the entire hearing, I would like 
to thank my colleague Sen. Allard for generously offering to preside 
today.
    In June of this year, the first cases of monkeypox in the Western 
Hemisphere were discovered in the United States. We were extremely 
fortunate that the agencies testifying today, along with their State 
counterparts and the Pet Industry Joint Advisory Council, acted in a 
coordinated effort to efficiently contain the monkeypox outbreak. 
Unfortunately, it is almost inevitable that the United States will face 
similar threats in the future.
    As a result of globalization and the increase in human populations, 
man is coming into contact with foreign animals at an increasing rate. 
In addition, the number of individuals owning exotic pets, as well as 
the variety of species, have increased dramatically.
    Diseases transmitted from animals to humans, zoonotic diseases, 
account for 61 percent of infectious diseases and 75 percent of 
emerging diseases. In 1989, the United States was awakened to the 
weight of the threat when monkeys imported from the Phillippines to 
Reston,
    Virginia were diagnosed with a new species of Ebola virus. 
Fortunately, the virus was not as virulent as other deadly strains of 
Ebola found in Africa.
    Currently, the Animal and Plant Health Inspection Service (APHIS) 
regulates the importation of exotic species detrimental to livestock 
and agriculture, FWS regulates the importation of exotic species 
detrimental to wildlife, but it is not clear who is responsible for 
proactively regulating the importation of exotic species with regard to 
human health. CDC has done a very good job at reacting to and 
containing the outbreak of monkeypox. However, I am looking forward to 
hearing from the witnesses as to whether the existing authorities 
should be clarified.
    During the course of today's hearing, I am hopeful the witnesses 
will also provide insight into whether additional measures need to be 
taken to minimize the risk of introduction of zoonotic diseases by 
imported exotic species. It is imperative that we determine the threat 
of zoonosis outbreaks from imported exotic species, as opposed to other 
avenues of introduction, and whether the threat warrants additional 
restrictions.
    Additionally, I feel it is important that we thoroughly explore 
whether additional legislative authority is necessary or if any 
shortcomings would be best addressed at the agency level. It is 
critical that we proceed with caution as a complete ban on some exotic 
species may simply drive the distribution network underground where it 
cannot be regulated.
    Senator Inhofe. I see that our other veterinarian has 
arrived. I would ask Senator Jeffords if he has an opening 
statement.

OPENING STATEMENT OF HON. JAMES M. JEFFORDS, U.S. SENATOR FROM 
                      THE STATE OF VERMONT

    Senator Jeffords. Yes, I do, Mr. Chairman.
    Good morning. Welcome to all of you. I would begin by 
thanking Senator Inhofe for holding this very important 
hearing.
    We are all fortunate to have in the Senate two members who 
can give us their insights and expertise on this issue. These 
two members practiced veterinarian medicine before being 
elected to the Senator. Senator Allard, who is with us, will 
chair this hearing. Our first witness this morning is Senator 
Ensign.
    Senator Ensign and I have introduced legislation, which 
Senator Allard has cosponsored, S. 269, the Captive Wildlife 
Safety Act of 2003, to address public safety threats posed by 
private ownership of dangerous exotic cats. It is my hope that 
we can act on that legislation this season as well as what we 
are doing now.
    However, today's hearing takes a broader look at the 
problems posed by importing exotic species and their impact on 
public health. We have all been alarmed by the recent outbreaks 
of diseases that have reached this country. Many of us have 
never heard of or thought of these diseases.
    What is most alarming is that many of these diseases are 
being introduced into this country by animals, legally imported 
for the purposes of being sold as pets. Some of these pets, 
known among enthusiasts as pocket pets due to their small size, 
have been found to have served as vectors for monkeypox, which 
has never been found before in the U.S. Spreading diseases is 
an unintended result of importing exotic species, but a serious 
one.
    As the monkeypox episode demonstrated, our Nation may be 
more vulnerable from an unintended outbreak transmitted by an 
exotic species and from a foreign nation. We must address our 
vulnerability from exotic species with the same fervor as we 
defend our Nation against other foreign threats. I believe we 
have dodged the bullet so far, but we have a responsibility to 
act before it is too late.
    All of the Agencies testifying here today did an 
outstanding job identifying the monkeypox outbreak, and 
preventing it from becoming more serious and widespread. Do the 
Agencies have the tools that they need to prevent future 
outbreaks? That is the question we ask. The fact that we have 
four Agencies here today raises another question. Should the 
importation of exotic species be streamlined, or placed under 
the control of one Agency?
    In the 1970s the Food and Drug Administration banned the 
importation and sale of turtles less than four inches in length 
because of the threat of salmonella infection. In 1975, the 
Centers for Disease Control banned the importation of species 
for the pet trade because of herpes and hepatitis concerns. In 
2000, the Department of Agriculture banned the import of three 
types of African tortoises because of the tick-borne heartwater 
disease.
    It has long been known that monkeypox can infect rodents 
and the importation of certain rodents were banned. Could this 
outbreak have been avoided? Should we have known?
    Hindsight is 20/20 but we are here today to look forward to 
the future to see how these risks to public health and safety 
can be eliminated. I doubt that Congressman John Fletcher 
Lacey, an Iowa Republican, the author of the original Lacey Act 
in 1900, would have ever imagined the problem we face here 
today.
    Representative Lacey had the foresight to propose the ban 
of the bustling interstate commerce of birds because milliners 
were using the feathers to decorate hats. But this was 1900 
before the invention of the airplane, and before the invention 
of the nonstop flight between two cities thousands of miles 
apart.
    Today we import birds and animals, many of which have been 
proven to be carriers of diseases, as exotic pets. What would 
Congressman Lacey be thinking today?
    It is my hope that as a result of today's hearing we will 
begin to address the problem together and prevent the spread of 
diseases through unintended carriers. Some of these critters 
are cute and cuddly, but are they worth putting the public 
health in serious jeopardy?
    Again, I would like to thank Senator Inhofe for calling 
this hearing. I look forward to the testimony we have today. We 
have excellent witnesses set up. I look forward to hearing from 
them.
    Senator Inhofe. Thank you, Senator Jeffords.
    Senator Allard, I will go ahead and turn the gavel over to 
you. You can go ahead with your opening statement. Then we will 
hear from Senator Ensign.

 OPENING STATEMENT OF HON. WAYNE ALLARD, U.S. SENATOR FROM THE 
                       STATE OF COLORADO

    Senator Allard [assuming the chair]. Thank you, Senator 
Inhofe. I think I will just put my opening statement in the 
record.
    Senator Inhofe. Without objection, so ordered.
    [The statement of Senator Allard follows:]
Statement of Hon. Wayne Allard, U.S. Senator from the State of Colorado
    Thank you, Mr. Chairman, for convening this timely hearing. I 
appreciate your interest and leadership, as well as Senator Jeffords' 
and Senator Ensign's leadership on this issue. You may not know this, 
but both Senator Ensign and I received our Doctors of Veterinary 
Medicine degree from Colorado State University. Although we were not in 
the same class, I do try to apply the seniority system. Mr. Chairman, I 
appreciate the opportunity to address this issue and thank the 
witnesses for their participation. I would also like to commend those 
agencies present for the work they did to contain the disease and the 
strong focus they continue to place on protecting the American people. 
This hearing is not about beating people up - it is about making sure 
you have the right tools to do your job effectively.
    The danger posed by the importation of exotic species and the 
introduction - either intentionally or unintentionally - of animal 
borne diseases is not new. What is new is the time it takes to transfer 
animals from country to country, as well as the variety of animals now 
imported. What once took three months to voyage across the ocean now 
only takes a matter of hours to land on US soil. The mosquito infecting 
Asian villages in the morning can reach the Los Angeles metropolitan 
area that same afternoon. We are living in a fast paced world in which 
the importation of exotic species poses a dynamic challenge to human 
health, and it is a challenge that must be handled through the 
application of sound science, reasonable regulations and responsible 
oversight.
    Perhaps nothing illustrates this modern phenomena as well as the 
recent outbreak of West Nile Virus, and its subsequent spread across 
the continent. West Nile serves as a prime example of the nexus between 
an animal disease and human health. The disease is a threat to human 
health as well as animal health. In fact, the coordination and 
communication between animal health experts and human health experts 
has never been more important than it is today as highlighted by West 
Nile and now monkeypox.
    Over the past several years I have attempted to elevate the level 
of concern about the risk we face from zoonotic diseases and, in 
particular, the impact animal to human diseases have on public policy. 
During the farm bill, I worked with members of the Agriculture 
Committee to include report language that directed the Office of 
Science and Technology Policy to consult experts in animal health 
should a bio-terrorism event occur.
    Last year, I had the opportunity to address a conference on 
biosecurity hosted by the American Veterinary Medical Association. 
Among those attending were scientists and medical researchers, 
university professors and students, along with a host of practicing 
veterinarians, who presented a series of papers on the risks associated 
with bio-terrorism. At this time, I would like to share with you some 
of the findings I presented to the conference.
    According to a pre-September 11th GAO report, nearly three out of 
every four emerging diseases reach humans through animals - of the 156 
emerging diseases documented in the report, 73 percent are zoonotic. 
Furthermore, the report went on to note that of 1700 known pathogens, 
49 percent are zoonotic.
    Some may think the possibilities of a major disease outbreak caused 
by something as common as a prairie dog is far too remote to worry 
about. Yet recount the details of the monkeypox outbreak. Illinois 
State officials determined that the source of the infected prairie dogs 
was an exotic pet dealer in Villa Park, Illinois. The prairie dogs 
appear to have been exposed to the virus through contact with Gambian 
rats imported from Africa that were intended to be sold as pets. A 
Texas distributor imported the rats together with rope squirrels, 
dormice, and other small mammals. Once arriving in Illinois, the 
exposed prairie dogs were held in close proximity with other animals of 
numerous species, some of which might be susceptible to infection with 
orthopoxviruses. The following animals were on the Illinois premises: 
hamsters, gerbils, chinchillas, squirrels, mice, pygmy hedgehogs, 
jerboas, mole rats, degus, and Brazilian possums. In addition, the 
dealer had recently sold wallabies, armadillos, short-tailed opossums, 
raccoons, sugar gliders, and possibly nonhuman primates. While 
wallabies and pygmy hedgehogs may not be common household pets, 
hamsters, gerbils and mice are common inhabitants of children's rooms 
and school houses.
    But we must also avoid the temptation to create a zoonotic 
hysteria. We are not looking at ``The Hotzone,'' nor are we looking at 
the movie ``28 Days Later.'' And I really don't expect the four 
horseman of the apocalypse to come trotting through the room any time 
soon. For those of us in this room, it is our duty to do everything we 
can to protect human health and prevent these types of things from 
happening.
    While the main focus of this hearing is certainly the impacts that 
these animals have on the health of humans, as a veterinarian I am also 
concerned with the impacts that importation of exotic species have on 
the animals themselves. There is a high rate of mortality in exotic 
species.
    This occurs both during shipment and after the animal is purchased 
and taken home. Another problem that I see is that few people are 
qualified to properly care for an exotic animal. The animals often end 
up neglected or cared for in an inappropriate manner. I do not think 
that this is acceptable. Pets are a huge responsibility and the 
decision to adopt one should not be taken lightly.
    I look forward to hearing from the witnesses, particularly as they 
share their views on regulations, both existing and lacking, trace-
backs and dangers posed by importation. I would be particularly 
interested in your thoughts regarding a quarantine period. I believe 
that one easy safeguard is to make sure a quarantine period is applied 
to imported species of animals, but I would like to know your thoughts 
on the matter.
    Again, Mr. Chairman, thank you.
    Senator Allard. I would like to make a few general 
comments.
    The veterinarian, through the health certificates that he 
issues, is an agent of the State in which he practices. He is 
mainly concerned about infectious diseases. The health 
certificate says: ``Does the animal show any signs of 
infectious disease?'' It is very broad. It is a vital link in 
the State management of infectious diseases and in protecting 
the agricultural industry or, in some cases, might even be 
extended to public health departments as they promulgate rules 
and regulations as it applies to pet shops. This is done pretty 
much at the State level.
    I think we need to look closely at how we have allocated 
this responsibility among the Federal agencies. We have Fish 
and Wildlife. We have APHIS, which is in Department of 
Agriculture, and we have the CDC lab that gets involved through 
the Public Health Services that the States administer. You also 
have the Customs agents.
    There is no doubt, Mr. Chairman, this is a smaller world.
    In the past, animals could move in perhaps not as quickly 
as they do now. By the time they left their origin to the time 
they arrive in the United States, enough time has progressed 
where the animal would begin to show signs of symptoms. Now, we 
have rapid transportation. It is a matter of hours before an 
animal moves from one country into here, the incubation period 
makes it difficult for us to recognize these diseases. Perhaps 
one of the things we ought to look at is the appropriate 
quarantine periods that we might have available and might help 
us solve a lot of our problems.
    I just want to thank you, Mr. Chairman, for taking the 
interest in this particular topic. It is close to my heart and 
I am sure it is to Senator Ensign's, as well, in the fact that 
we are concerned about animal health. On the Armed Services 
Committee, we have had this discussion about various diseases 
and how they may be used by terrorists. I think we also need to 
look at the Homeland Security Department and moving 
responsibilities from Agriculture and CDC into Homeland 
Security. Perhaps we need to look at where the proper role of 
some of these programs ought to be.
    Thank you very much, Mr. Chairman, for your interest.
    Senator Inhofe. Thank you.
    Senator Allard. Let me go ahead and recognize Senator 
Ensign.
    He does not hesitate to point out to everybody that we are 
both veterinarians. We are both CSU graduates. He graduated ten 
years after I did. He has had the practical experience of being 
a practicing veterinarian, as I have.
    It is a great deal of pleasure for me to be able to welcome 
Senator Ensign.

OPENING STATEMENT OF HON. JOHN ENSIGN, A UNITED STATES SENATOR 
                    FROM THE STATE OF NEVADA

    Senator Ensign. Thank you, Senator Allard, Mr. Chairman, 
and ranking member. I appreciate your holding this hearing 
today. I think these are topics that many people do not think 
of most of the time. Certainly the recent issue with monkeypox 
brought it out and started to cause concern for many people, 
and rightly so.
    I appreciate Senator Jeffords cosponsoring with me the 
Wildlife Safety Act. It relates to the same way people get 
animals that should not be pets into their homes to become 
pets.
    They watch movies. Much of these comes from people's 
fantasies about animals that look cute and cuddly in the wild, 
or maybe they see it in magic acts such as Siegfried and Roy. 
They glamorize what looks like a very easy thing to do, to own 
some of these exotic species.
    But in the average person's hands, these animals become 
dangerous to the person that owns them. They end up not being 
able to handle those animals. Then they end up with some very 
bad options--putting those animals down, turning them over to a 
sanctuary, or just turning them loose--all of which obviously 
have bad results.
    A big focus of today's hearing, though, results in the same 
kinds of things. Now we are talking about not just animals that 
are physical threats from the damage that they can do, but also 
because of the diseases that they can carry, the zoonotic 
diseases, the transmission of animal diseases to humans is a 
very real threat.
    Domesticated animals that have been around human beings for 
a long time--companion animals, as we call them in veterinary 
medicine--those are the animals that we know you are not going 
to harbor diseases, other than rabies. We have wiped out 
rabies. You are not going to get any other diseases from dogs 
and cats. But these other exotic animals that are coming in and 
being made pets, there are a lot of diseases around the world 
that are transmissible to human beings. Monkeypox is just one 
example.
    Senator Jeffords mentioned another one, salmonella. 
Parrots, and some of the psittacine-type birds, certainly carry 
a respiratory disease, psittacosis. There are many of these 
types of diseases that are transmissible that have real serious 
human health effects.
    I guess the purpose of this hearing is to hear from some 
experts. But the reason that I wanted to testify is that in our 
private practices, we saw the real life results of people 
bringing those animals to us because they were having problems.
    Sometimes they were having behavioral problems. Sometimes 
they were showing signs of disease.
    We are trained more than physicians are in zoonoses, the 
disease transmission from animals to people. We are taught to 
recognize those and what to watch for. Those diseases are 
rapidly coming to where the average veterinarian does not know 
about many of these exotic diseases. When we are in school and 
in the literature, we learn about the common ones. But there 
are so many new animals coming in, there are many diseases we 
are not even familiar with.
    I think it is a very serious issue. We have to educate the 
American people that companion animals are the ones that are 
appropriate for pets. All of these cute little cuddly creatures 
that look cute in the wild, belong in the wild. If they are 
captured or injured, or if they are in zoo or other facility, 
that is where they belong with experts that understand the 
diseases. They understand how to quarantine them. They 
understand the behavioral aspects. They also understand the 
needs of the animal.
    I will use a very good example. When I was just starting in 
veterinary medicine, just before I went to vet school, one of 
the kennel attendants with me owned a raccoon. Raccoons are 
really cute little cuddly pets before they reach puberty. Once 
they reach puberty, they are violent, and I mean they are nasty 
animals. They are not appropriate as pets. They are a common 
carrier of rabies as well.
    What happens is that they see them in a pet store or 
whatever. They buy them. They capture them in the wild. They 
bring them in. They have a wonderful pet. Now they see the 
inappropriate behavior. Somebody else has to deal with them.
    The veterinarian has to put them to sleep. Somebody has to 
try to rehabilitate them or whatever. Whenever they are put in 
a home, they are not good in the wild anymore.
    It has to be an educational process. We have to empower the 
Agencies to do a much better job on exotic animals coming in 
and being used as pets. We must educate the public about the 
dangers of the physical threats of what the animal can do, as 
well as the diseases that they can carry.
    I appreciate the chance to testify, Mr. Chairman. We are 
doing research now as to whether we need to do legislation or 
can some of this just be done by increasing regulatory 
authority. I agree with Senator Allard that most of this has 
been done at the State level. The world is changing so rapidly 
that we have to look at the best way to attack this problem. I 
appreciate your holding this hearing.
    I would ask that my complete testimony be included in the 
record in its entirety.
    Senator Allard. Without objection, so ordered. Thank you 
very much for your testimony, Senator Ensign.
    Do we have any questions from members of the committee?
    [No response.]
    Senator Allard. Let us move forward to the next panel.
    I would like to call the second panel. We have Dr. John 
Clifford, Deputy Administrator for Veterinary Sciences, Animal 
and Plant Health Inspection Service, United States Department 
of Agriculture; Lester M. Crawford, D.V.M., Ph.D., Deputy 
Director, United States Food and Drug Administration, 
Department of Health and Human Services; Marshall P. Jones, 
Jr., Deputy Director, United States Fish and Wildlife Service, 
Department of the Interior; and Dr. Stephen M. Ostroff, Deputy 
Director, National Center for Infectious Diseases, Centers for 
Disease Control, Department of Health and Human Services.
    Gentlemen, thank you. I look forward to hearing your 
testimony and what you have to say about this very important 
subject that we are dealing with today, which is the 
examination of the importation of exotic species and the impact 
on public health and safety in this country.
    Let us start with Dr. Clifford. Then we will hear from Dr. 
Crawford, Mr. Jones, and Dr. Ostroff.

STATEMENT OF JOHN CLIFFORD, DEPUTY ADMINISTRATOR FOR VETERINARY 
 SCIENCES, ANIMAL AND PLANT HEALTH INSPECTION SERVICE, UNITED 
                STATES DEPARTMENT OF AGRICULTURE

    Dr. Clifford. Thank you, Mr. Chairman, and members of the 
committee. Thank you for this opportunity to speak with you on 
behalf of the U.S. Department of Agriculture about the 
importation of exotic animals. My name is Dr. John Clifford. I 
am the Associate Deputy Administrator for Veterinary Services 
with the Animal and Plant Health Inspection Service. As we all 
know, the recent incidence of monkeypox in the United States 
has highlighted how Federal, State, and local agencies must 
work together to prevent and respond to the outbreaks of 
zoonotic diseases.
    APHIS' mission is to safeguard American agriculture. One of 
the ways we accomplish this mission is to regulate the 
importation of certain animals and animal products under the 
Animal Health Protection Act, AHPA. USDA has the authority to 
take action in order to prevent diseases of livestock from 
entering into or spreading within the United States.
    In carrying out this authority, USDA regulates the 
importation and interstate movement of animals used for 
agricultural purposes such as cattle, sheep, goats, swine, and 
poultry. We also regulate the importation and interstate 
movement of certain products made from these animals.
    In general, animals not used for agricultural purposes, 
such as prairie dogs, rats, mice, squirrels, and other rodents, 
are not subject to our regulations because they do not usually 
carry diseases that threaten agricultural health. There are two 
exceptions to this. If the animal has been inoculated with a 
disease of agricultural concern for a scientific study, or if 
the animal is a vector of a disease of agricultural concern.
    For example, USDA prohibits the importation of tenrecs, an 
exotic animal sold as a pet, from Madagascar, because these 
animals are vectors for foot and mouth disease, a very serious 
disease of livestock.
    In the case of monkeypox, there is no clear scientific 
evidence that this disease affects livestock. Therefore, our 
authorities and regulations do not apply to the import of 
animals that may be vectors of this disease. Instead, USDA 
supported the actions of the Department of Health and Human 
Services, Food and Drug Administration, the Centers for Disease 
Control and Prevention, and the Department of the Interior's 
Fish and Wildlife Service in their effort to shut down imports 
of animals that could carry the disease.
    Our supporting role varied. For example, USDA is also 
charged with enforcing the provisions of the Animal Welfare 
Act, AWA. The AWA requires that certain individuals be licensed 
or registered with the USDA and provide their animals with care 
that meet certain minimum standards. The licensees must also 
maintain records regarding the veterinary care, and the 
purchases and sales of exotic animals. Under the AWA all 
wholesale animal dealers and retail pet stores selling exotic 
or wild animals and individuals, including owners, selling 
exotic animals, are required to be licensed with the USDA.
    The USDA conducts periodic inspections of licensed 
facilities to ensure compliance with the AWA. Because of our 
relationship with these licensed facilities, the USDA was able 
to assist the FDA by locating licensed dealers of exotic 
animals and assisting in the trace-back of these animals. USDA 
also worked with the FDA to distribute information about the 
ban on the importation, movement, and sale of animals, and to 
conduct a survey on the health of animals in these locations.
    Our personnel also assisted the CDC in the confiscation of 
animals that were possibly infected. We fielded hundreds of 
calls from licensees, answering their questions about 
monkeypox, and ensuring that the licensees were in touch with 
the CDC and FDA about issues related to the ban.
    The USDA also offered to provide follow-up surveillance 
support to the States. Under the Animal Damage Control Act, 
USDA is authorized to conduct activities to control wild 
mammals and bird species that are reservoirs for zoonotic 
diseases. Under this authority, USDA provides assistance to 
State and local governments, private individuals, and other 
organizations in managing wildlife and human conflict.
    Our experience in this area has enabled us to offer to 
assist the State of Illinois by collecting samples from rodent 
and mammal populations around several sites, including 
landfills and garbage transfer stations. These animals can be 
tested to see if monkeypox has spread into wild populations. A 
similar service has been offered to the State of Wisconsin.
    So, as you can see, USDA has been able to lend valuable 
assistance to the effort. We are committed to working with 
other State and Federal agencies to prevent similar situations 
in the future.
    Thank you again for the opportunity to speak with you 
today. I will be happy to answer any of your questions. I would 
ask that my complete testimony be included in the record in its 
entirety.
    Senator Allard. Without objection, so ordered. Thank you,
    Mr. Clifford.
    Dr. Clifford, are you a veterinarian?
    Mr. Clifford. Yes, sir, I am.
    Dr. Crawford?

STATEMENT OF LESTER M. CRAWFORD, D.V.M, Ph.D., DEPUTY DIRECTOR, 
   UNITED STATES FOOD AND DRUG ADMINISTRATION, DEPARTMENT OF 
                   HEALTH AND HUMAN SERVICES

    Dr. Crawford. Thank you, very much.
    Mr. Chairman, and members of the Subcommittee, I am Dr. 
Lester Crawford, Deputy Commissioner of Food and Drugs. I am 
only a partial D.V.M. because I did not get to go to Colorado 
State. But I am working on it.
    [Laughter.]
    Dr. Crawford. As we have learned all too well, non- native 
animal species can create serious public health problems when 
they introduce a new disease to native animal or human 
populations, or both. Monkeypox, a rare zoonotic viral disease 
that occurs primarily in the rain forest countries in Central 
and West Africa, is the most recent emerging infectious disease 
threat to public health in the United States.
    Since the beginning of the monkeypox outbreak, FDA has been 
engaged in close coordination with many Federal, State, and 
local partners in working to prevent the spread of this 
disease. FDA's mission is to protect and promote the public 
health. One of our goals is to work closely with public and 
private partners to protect the U.S. population from public 
health risks associated with infectious diseases, and to 
facilitate the development of products in which American 
practitioners can have confidence to help those afflicted with 
infectious disease.
    The Commissioner of FDA and the Director of the CDC have 
the authority under regulations promulgated under Section 361 
of the Public Health Service Act to take actions they believe 
are reasonably necessary to prevent the spread of communicable 
diseases. HHS agencies determined that the current monkeypox 
outbreak, which is not confined by State borders, and which may 
affect multiple species, is a problem that requires the use of 
this Federal authority.
    It was imperative that the Department act quickly to help 
prevent the monkeypox virus from spreading and becoming 
established in the United States. Under their respective 
authorities on June 11th, the Director of CDC and the 
Commissioner of FDA issued a joint order, prohibiting until 
further notice, the transportation, or offering for 
transportation and interstate commerce, or the sale, offering 
for sale, or offering for any other type of commercial or 
public distribution, including release into the environment of 
prairie dogs and six species of African rodents.
    In addition, CDC implemented an immediate embargo on the 
importation of all rodents from Africa. I will note that it is 
not the first time FDA has exercised its authority under 
Section 361 of the Public Health Service Act, as Senator 
Jeffords explained a short time ago. Existing regulations cover 
various measures, shellfish, turtles, and certain birds.
    I would like to tell you about some of the specific actions 
taken by the FDA and others in responding to the outbreak of 
monkeypox. FDA took many steps to quickly implement the CDC/FDA 
joint order, closely coordinating activities as appropriate, 
with CDC, APHIS, the U.S. Fish and Wildlife Service, the 
Department of Homeland Security's Bureau of Customs and Border 
Protection, and State and local government counterparts.
    The day the order was issued, Federal Agencies conferred to 
discuss responsibilities and strategies to discuss roles and 
responsibilities regarding the joint order. Strategies needed 
to be developed relating to the control of monkeypox, relating 
to imports, intra- and interstate movements, inspection of 
dealers, breeders, pet stores and zoos, quarantine authority, 
euthanasia and disposition, surveillance of wild animals, and 
exports. FDA sent the joint order to all State agriculture and 
health agencies, including State and public health 
veterinarians and State fish and wildlife officials, as well as 
to the Department of Transportation for distribution to rail, 
airline, and trucking establishments. We held a conference call 
with all 50 States and other Federal Agencies to discuss the 
outbreak and the status of the implementation and the 
enforcement of the joint order.
    In addition, all exotic animal dealers should be licensed. 
APHIS provided FDA with a list of all the licensed dealers. FDA 
then designated a coordinator in each district office across 
the country and issued a priority assignment to the district 
offices to work with State counterparts. APHIS and the U.S. 
Fish and Wildlife Service agreed to contact and inspect the 
exotic animal dealers. FDA coordinators were given a quick 
deadline to meet and coordinate with local officials.
    Follow up activities were conducted by a combination of 
FDA, APHIS, and State personnel. Over 600 exotic animal dealers 
have been identified for follow up. Visits were also conducted 
with other types of entities where exotic animals were likely 
to be featured, such as swap meets and exhibitions. In total, 
over 2,500 facilities were visited by the FDA, APHIS, and State 
officials. Contacts with pet dealers unlikely to have exotic 
animals, were made by phone and letter.
    When dealers were contacted, they were provided extensive 
information and documentation. Dealers with sick animals have 
been identified and referred to State authorities and CDC to 
determine what further actions need to be taken.
    In closing, Mr. Chairman, I would agree with you that State 
authorities through their regulations and also their 
experience, are very important to this. Our efforts were no 
more successful than our liaison with those individuals.
    Thank you very much. I would ask that my complete testimony 
be included in the record in its entirety.
    Senator Allard. Without objection, so ordered. Thank you,
    Dr. Crawford.
    Mr. Jones, we are anxious to hear what you have to say. I 
am interested in knowing what your formal education is. It is 
not listed in here.

 STATEMENT OF MARSHALL P. JONES, JR., DEPUTY DIRECTOR, UNITED 
  STATES FISH AND WILDLIFE SERVICE, DEPARTMENT OF THE INTERIOR

    Mr. Jones. Thank you, Mr. Chairman, for this opportunity to 
testify.
    Unfortunately, I am not a veterinarian, but I have a huge 
respect for veterinarians, especially those who went to CSU.
    [Laughter.]
    Senator Allard. Your degree is in Fish and Wildlife?
    Mr. Jones. That is correct. I am a wildlife biologist, Mr. 
Chairman I have 28 years with the Fish and Wildlife Service, 
working with endangered species, international, and other 
programs.
    Senator Allard. Thank you.
    Mr. Jones. Mr. Chairman, the Fish and Wildlife Service has 
been involved in regulating the import of exotic species for 
many years. We viewed these imports in the past, primarily in 
the context of possible threats to U.S. wildlife resources, as 
well as in the context of the conservation of those species 
themselves.
    However, today it is clear that there is a new factor which 
all of us must take into account and that is the threat to 
human health from exotic wildlife. The Fish and Wildlife 
Service has the responsibility to inspect all wildlife imports 
and also to regulate wildlife exports.
    Through this and other authorities, we are working actively 
to assist our Federal partners who are represented here today, 
as well as States that have expertise and/or authority to 
identify and address human health risks that are associated 
with the wildlife trade. We are committed to using that 
authority to help protect the American people from exotic 
diseases transmitted through wildlife imports.
    Mr. Chairman, as you noted in your opening remarks, the 
ease of travel, transportation, and transactions, especially 
electronic transactions, has removed barriers to the wildlife 
trade which existed in the past. Wildlife importers are growing 
in number. They have access to financing and they have ready 
markets among people who travel around the world and have the 
opportunity to see exotic wildlife, and to desire that wildlife 
as pets or for other reasons.
    From 1992 through 2002, the U.S. trade in wildlife and 
wildlife products, grew 62 percent in just that one decade. 
Declared shipments of wildlife coming into the United States 
increased from 74,000 to more than 120,000 during that period. 
The number of different species in trade increased 75 percent, 
jumping from 200,000 in 1992 to more than 350,000 a decade 
later. The total number of individual animals imported into the 
United States in 2002 alone was more than 250 million 
individual animals.
    Senator Allard. What was that number again?
    Mr. Jones. 250 million.
    Senator Allard. That is what I thought you said.
    Mr. Jones. Over 200 million of those were live tropical 
fish. The next largest category was amphibians, more than 50 
million individual frogs, toads, or salamanders. The total is 
approaching 300 million individual live animals per year.
    The Fish and Wildlife Service regulates this trade through 
several authorities. The Lacey Act and the Endangered Species 
Act give the Fish and Wildlife Service broad authority to 
detain and inspect any shipment, mail parcel, vehicle, or 
passenger baggage, and all accompanying documents, whether or 
not the wildlife has been formally declared.
    In addition, the Endangered Species Act and regulations 
adopted pursuant to the ESA require that all wildlife--not just 
endangered species, but all wildlife--be imported and exported 
through specific ports to facilitate enforcement of wildlife 
laws and clearance of shipments. Commercial importers and 
exporters of wildlife must be licensed by the Fish and Wildlife 
Service, and they must file declarations detailing the contents 
of their shipments. The Fish and Wildlife Service must then 
clear those shipments before they can be released by the Bureau 
of Customs and Border Protection.
    We also regulate trade under the Lacey Act, provisions of 
which make it unlawful to import, export, transport, sell, 
receive, acquire, or purchase any fish or wildlife which was 
already taken, possessed, or transported in violation of some 
other law. In other words, the Lacey Act takes the State law, 
another Federal law administered by another agency, or even 
another country's law, and federalizes that and makes that also 
a wildlife law, and gives us the authority to enforce it.
    In addition, another provision, also called the Lacey Act, 
restricts the injurious and interstate transportation of 
wildlife which has been determined to be injurious or 
potentially injurious to human beings, or the interest of 
agriculture, horticulture, forestry, wildlife, or wildlife 
resources.
    To fulfill these responsibilities, Mr. Chairman, the Fish 
and Wildlife Service operates through our Office of Law 
Enforcement. I am accompanied here today by Kevin Adams, who is 
the Chief of our Law Enforcement Division. The photograph that 
you see here, Mr. Chairman, is of Fish and Wildlife Service 
wildlife inspectors at the port of Seattle, inspecting a 
shipment of live primates. The crate that you see behind them 
housed five live monkeys. Because these animals may carry ebola 
or other diseases, we provide protective equipment to our 
inspectors-- disposable Tyvek suits and disposable respirators, 
which are used only one time. After the inspection of the 
shipment, they go into the burn bag as hazardous waste.
    We take our responsibilities seriously. Mr. Chairman, we 
only have 92 wildlife inspectors currently who staff 32 ports 
around the United States. The President's budget for 2004 does 
include a 10 percent increase in our funding. With that 
increase, we hope that we can increase the number of inspectors 
to about 100. Obviously they are still stretched very thin, 
particularly in view of the wide range of responsibilities that 
they have.
    Nevertheless, Mr. Chairman, we are determined to do 
everything that we can to work with the Department of Homeland 
Security, as well as with the USDA, with the FDA, and with the 
CDC, to help enforce necessary controls at our borders to 
prevent the illegal import of wildlife, including, for example, 
the species that could carry monkeypox.
    When the Health and Human Services first began to consider 
the possibility of this import prohibition, we worked closely 
with them. We provided data from our declarations and our 
databases about the number of African rodents coming into the 
country. Once that ban was announced, we used our system of 
registered importers and exporters as our first notification 
system to put the word out to all licensed dealers. We also 
notified our inspectors and all of the Customs brokers and 
others involved in wildlife trade.
    I am happy to report that since that ban went into effect, 
we have had no live shipments of rodents from Africa which had 
to be detained at our ports. However, Mr. Chairman, just to 
give you some idea of how pervasive this issue is, we have 
discovered rodents in other places that you might not expect. 
For example, in inspecting a shipment of what we thought was 
caviar in a refrigerated warehouse in New York City, we 
discovered bushmeat, that is, dried smoked meat. We believe it 
included very likely meat from rodents from Africa.
    Similarly, in inspecting shipments of trophies which 
legitimately can come back into the United States if declared, 
we discovered that there were trophies of rodents, porcupines, 
and other species that had been taken by hunters and were going 
to be mounted and displayed. We are finding that African 
rodents could be in places that one might never expect.
    We are using all of our authorities under the Lacey Act and 
other laws to do everything that we can to help back up the 
protections for the American people which CDC, FDA, and the 
USDA are also all involved with. We look forward to working 
with this committee in any way that we can to help in this 
important effort.
    Thank you, Mr. Chairman. I would ask that my complete 
testimony be included in the record in its entirety.
    Senator Allard. Without objection, so ordered. Thank you,
    Mr. Jones.
    Dr. Ostroff, would you share with us what your degree is?

   STATEMENT OF DR. STEPHEN M. OSTROFF, MD, DEPUTY DIRECTOR, 
 NATIONAL CENTER FOR INFECTIOUS DISEASES, CENTERS FOR DISEASE 
        CONTROL, DEPARTMENT OF HEALTH AND HUMAN SERVICES

    Dr. Ostroff. Thank you, Senator Allard.
    I will start off by saying while the posters are being put 
up that I am not a veterinarian. I am a physician. I do not 
have any affiliation with CSU, but I did do my medical 
residency training at the University of Colorado Health 
Sciences Center.
    Senator Allard. We are getting a host of conflicts here, by 
the way.
    [Laughter.]
    Dr. Ostroff. As you know, one of our divisions is located 
in Fort Collins, Colorado.
    Senator Allard. I worked with them as a practicing 
veterinarian.
    Dr. Ostroff. Thank you for providing us the opportunity to 
take part in this timely and important hearing regarding exotic 
animal importation and distribution in the United States, and 
its implications for human and animal health and welfare.
    I will make a brief statement concerning the monkeypox 
outbreak. While this hearing was prompted by our recent 
experience with monkeypox disease linked to exotic animals 
imported from Africa, infectious agents jumping the species 
barrier from animals to humans is a long-standing phenomenon.
    Many of the major emerging disease threats of recent years 
are known or suspected zoonoses, including the ebola virus, 
avian influenza, HIV, hantavirus, variant CJD, and SARS. Some 
are related to domestic animals and wildlife, others transit 
national borders. The latter have increased in importance as a 
result of the dramatically expanding global commerce in animals 
and animal products. Whether we have kept pace with these 
trends is an open question.
    Veterinarian human health have traditionally operated in 
separate domains. If there is one lesson to be gleaned from 
outbreaks like West Nile virus and monkeypox, it is that we 
must overcome the barriers between these disciplines in order 
to optimize human and animal health and best serve the American 
public.
    In early June, CDC learned of an outbreak of fever and rash 
illness among persons recently in contact with ill prairie 
dogs. Extensive investigations, many of which are still 
ongoing, determine that the causative agent was monkeypox, a 
close cousin of the smallpox virus. This virus is known to be 
primarily acquired through contact with infected rodents in its 
natural host range in Africa.
    To date, 72 persons in six Midwestern States have developed 
known or suspected disease. Many were hospitalized, and two 
children were severely ill. Fortunately, there have been no 
human deaths. Most ill persons were known to have recently 
purchased, distributed, handled, or cared for ill prairie dogs. 
Labor-intensive trace-back efforts, which are summarized in the 
graphic that you have before you, determined that all of the 
confirmed cases could be linked back to a single registered 
animal distributor in suburban Chicago where the prairie dogs 
were apparently cohoused with imported Gambian giant rats, 
along with many other species. The Gambian rats were legally 
imported into Texas in early April, transported to Iowa, and 
sold to the Illinois distributor, who then sold the infected 
prairie dogs to other distributors and at animal swap meets in 
the Midwest.
    As noted in the next graphic, the Gambian giant rats were 
part of a larger shipment from Ghana of more than 800 mammals 
destined for the exotic pet trade. Most of these were rodent 
species capable of harboring the monkeypox virus. These animals 
were dispersed throughout the country, and some were 
reexported.
    Not all of these animals could be successfully traced and 
many of them had died. Testing at the CDC has identified 
monkeypox in three of the rodent species from this shipment.
    A variety of aggressive actions were taken to minimize the 
impact of this introduction to human and animal public health. 
These included patient and animal handling guidance and 
recommendations regarding prophylactic use of the smallpox 
vaccine. Most importantly, as was noted by Dr. Crawford, on 
June 11th, the FDA and CDC issued a joint order under existing 
authorities emanating from the Public Health Service Act to ban 
the importation of African rodents, and the movement, 
distribution, sale, or offering of prairie dogs, or the six 
implicated African rodent species. We subsequently issued 
guidance regarding euthanasia of implicated animals and the 
quarantine of other species in contact with these animals.
    These activities appeared to have achieved the desired 
result. The importation ban was issued on June 11th, and the 
last human case had an onset of June 20th, which is consistent 
with the known incubation period for monkeypox.
    This outbreak has raised a number of questions about 
current practices regarding domestic and international trade in 
exotic animals, as has already been mentioned. These issues 
have been laid out in numerous editorials, commentaries, and 
physician statements. As a human public health agency, CDC's 
primary mission is to develop science- based approaches to 
protect human public health.
    We know that wild animals harvested for the commercial pet 
trade have been associated with previous outbreaks of human 
infectious diseases. These include prairie dogs, which are 
known to harbor plague and tularemia and were the primary 
vectors of monkeypox to humans in this particular outbreak.
    In this episode, the rapid and widespread distribution of 
newly captured and imported wild animals to distributors and to 
potential buyers in numerous settings enabled the spread of 
this virus through multiple States before the problem was even 
recognized. It is very important that we carefully weigh the 
options available to reduce the potential for this to happen 
again, as well as the consequences of any actions that might be 
taken.
    We look forward to working with Congress and our Federal, 
State, local, public and private partners to address not only 
this problem but the emerging infectious disease threats of the 
present, and certainly of the future.
    Thank you for your attention. I will be happy to answer any 
of your questions. I would ask that my complete testimony be 
included in the record in its entirety.
    Senator Allard. Without objection, so ordered. Thank you,
    Dr. Ostroff.
    Thank you all for your testimony. I appreciate all that you 
had to say. I have a better feel of where all of your 
responsibilities are.
    Just to give you some background as to my experience, not 
only was I a veterinarian, but I was a public health officer 
for a city. I have been involved on the practical side of 
managing these things and had been involved with encephalitis 
outbreaks, as well as the bubonic plague issues.
    I would like to take this step-by-step. I assume that a pet 
shop, or some distributor here in the United States, determined 
that a Gambian rat, for some reason or another, could be of 
commercial value and could be sold in the United States to make 
a profit. When they make that decision, do they approach a 
distributor in a foreign country and then the distributor in 
the foreign country decides to send that to the United States?
    I would like to have from the panel what happens next once 
that decision has been made to bring it into the United States.
    Maybe that animal is destined for a particular State. I am 
not sure how that happens. If this animal is of domestic 
origin, there is almost invariably a health certificate that 
gets involved in many of these pets, depending on what the 
rules and regulations are of the State. The veterinarian 
writing the health certificate becomes an agent of that State, 
or we become an agent of a foreign country. For example, if it 
has gone to India, before we write our health certificate, we 
work with the State department, we write a health certificate 
which basically says there is no sign of infectious diseases.
    What I am interested to know is what happens when it is 
coming back into the United States. Is there an initial 
inspection as to a healthy animal in the country of origin? Is 
that variable? Could somebody answer that question?
    Dr. Crawford?
    Dr. Crawford. At the present time the order that Dr. 
Ostroff and I mentioned makes it unlawful for them to bring 
those kinds of animals in, basically African rodents from the 
rain forest area, including Gambian rats and a series of other 
similar animals.
    Senator Allard. But that animal came in here illegally?
    Dr. Crawford. No. After we had the monkeypox, then we 
passed this regulation.
    Senator Allard. What I am talking about is the regular 
process before we even get to identification of a disease.
    Dr. Crawford. I think we might have a Catch-22 here. I 
think probably no one covers those kinds of animals. The FDA 
does not do it until something has happened. Then the Secretary 
of Health and Human Services, such as with the turtles and also 
with psittacosis ornithosis in birds in the 1940s, the HHS or 
its predecessor agencies might say, ``This is a threat to human 
health. Therefore, we are going to do the following things.''
    So to predict in a way that would prevent these kinds of 
things from happening, I think that might be a little loophole 
we have. In the last Administration, they did create the 
National Invasive Species Council. It was entitled to deal with 
this sort of thing and to coordinate it.
    Senator Allard. Including plants, I think. I do not think 
it was strictly the animals. It was all sorts of species.
    Dr. Crawford. Absolutely. I believe it is still in place, 
and I believe it is still staffed.
    Senator Allard. Then when the animal arrives we have no 
system of knowing what happened before the animal arrived to 
the border of this country. Is there an automatic quarantine? 
What happens when it hits the entry point into the United 
States?
    Dr. Clifford?
    Dr. Clifford. Senator Allard, I can address that relative 
to animals that we would control. In this case we did not with 
this particular animal.
    Animals that normally would come into the U.S. under our 
rules and authority, they would apply for an import permit from 
APHIS. We would issue the conditions for importation. That 
would be listed on that import permit.
    Senator Allard. That condition would vary on the known 
disease status of the country that the animal is coming from, 
as well as maybe some other factors?
    Dr. Clifford. That is correct. A number of those animals, 
and part of those mitigations may be that they have to go to a 
quarantine facility for a certain period of time, as well as 
have additional tests in that quarantine facility before they 
are allowed to move further into the U.S., into a State. That 
is in place for APHIS.
    Senator Allard. And then once that animal leaves that 
quarantine facility and let us say it heads for Colorado, does 
that quarantine facility then issue a health certificate so 
that when they are traveling with that animal, it gets them 
through the ports of entry and gets them into the State of 
destination? Is that what happens? Is there a veterinarian 
there that writes that?
    Dr. Clifford. There would be an international health 
certificate that arrives with the animals. Once they went 
through the quarantine, there is a document we have that 
releases them. It is not an actual health certificate, but it 
indicates that the animal is free of infectious diseases.
    Senator Allard. The animal is free of infectious diseases 
at the time it left; is that correct?
    Dr. Clifford. Yes. It was tested for these diseases and it 
is free of those. It would then be allowed to move to the State 
of destination.
    Senator Allard. So the Gambian rat, for example, when they 
came into the United States, it came into Dallas, I would 
assume.
    Is there a holding facility at Dallas for animals when they 
come in? How does it get through the Customs process?
    Mr. Jones. Mr. Chairman, I will start with that and then 
others can add. Let us talk about wildlife that has not already 
been identified under some ban of some kind, like the Gambian 
rats before the time of the HHS order. It is required that they 
come in through a designated port, which was designated by the 
Fish and Wildlife Service. Dallas is one of those. It is 
required that the shipment be declared as wildlife and that the 
documents be provided to the Fish and Wildlife Service. They 
are held in some kind of Customs warehouse or other bonded 
facility until they have passed all the clearances.
    Senator Allard. And there is Federal law requiring a 
quarantine period?
    Mr. Jones. For the requirements for a quarantine for birds. 
That is administered by the USDA, not for mammals, at least not 
for all mammals.
    Dr. Ostroff. There are for non-human primates.
    Senator Allard. For non-human primates there are also 
restrictions.
    Mr. Jones. But in the case of the Gambian rat, there was no 
quarantine requirement for that species. We do have species for 
which there are more restrictive requirements. But for your 
average wildlife species, like the Gambian rats prior to this 
order, they would be held at a secure location, a bonded 
location of some kind, until they had met all of the different 
Federal agency requirements.
    In the case of the Fish and Wildlife Service, we would 
review the documentation which came with them to make sure that 
we were confident that this was a legal export from the country 
of origin. A health certificate is required to accompany 
mammals and birds coming from other countries. That health 
certificate is part of our regulations primarily designed to 
protect the health and the safety of the animals themselves. We 
have a responsibility to ensure humane transport conditions.
    Animals which are pregnant, for example, and animals which 
are ill should not be put into shipment to begin with. We are 
looking for evidence that the exporter had the shipment cleared 
for health purposes in the country of origin.
    What I cannot say, Mr. Chairman, is the inspection that we 
give would in any way detect whether or not an animal is a 
carrier, for example, of monkeypox. We do not have that 
expertise. Although we want them to meet high standards, I am 
not sure that every other country in the world can have the 
capability to issue the kind of certificate that you are 
issuing with your background and your expertise when you were 
involved as a health officer.
    Senator Allard. Well, even with our system, you may have 
carriers out there. They may be asymptomatic.
    Mr. Jones. Absolutely. It is not completely foolproof. But 
for this particular disease, for example, it seems to me as 
though if they have been in somewhat of a holding period, there 
is more of a likelihood that we would have recognized that 
coming through. It sounds to me like that came through rather 
quickly and that we did not have any kind of a quarantine 
period.
    Senator Allard. Dr. Ostroff?
    Dr. Ostroff. Senator, I would like to mention one 
additional issue pertaining to this shipment. This importer 
actually traveled to Africa and participated in the trapping of 
these animals. He then came home and after these animals were 
held for some period of time in Ghana, he actually went back 
and accompanied the shipment itself to the United States. After 
they were released by Fish and Wildlife, basically he took them 
to his facility in suburban Dallas.
    Senator Allard. You do not know whether these rats were 
exposed in the holding facility in Ghana? Sometimes the 
condition of some of these foreign countries it is hard to know 
just how much science was applied in this process. He may very 
well have thought he was being very responsible since he 
personally went there and escorted them back. Obviously, 
somewhere along the way the rats were exposed and became 
carriers.
    It seems to me that once the animal leaves the holding 
facility or goes through Customs, there are States that may 
have regulations that would say, ``Well, if you are going to 
bring an animal into my State, they need to be accompanied by a 
health certificate.'' They are very specific in their rules and 
regulations. They say what specific animal. Sometimes they are 
not specific. Sometimes they just say any rodent, for example.
    What effort is made at Customs to make sure that that 
animal, when they are transported to the State of destination, 
are meeting the rules and regulations of that State?
    Mr. Jones. Senator, I will start. States have import 
prohibitions for all sorts of reasons. Some States do not allow 
something that they may consider to be an endangered species 
under a State law to come in, even though it is okay under a 
Federal law. We would deny clearance of a shipment if we know 
that it is going to some place where that would be illegal 
under the State law.
    However, I am not sure that our net is fine enough to 
always catch every species that may have some specific human 
health requirement imposed by a State. We would certainly look 
to our Federal partners to help advise us about what are the 
species that we should detain because there is a human health 
hazard.
    Senator Allard. As a practicing veterinarian, I had a book 
of State rules and regulations. I could look it up by State and 
see what all they required on limits. Some of them were on 
zoonotic diseases, for example, rabies. Do you have that kind 
of reference when it comes through Customs?
    Mr. Jones. We have references about State wildlife laws and 
other countries' laws, extensive references, because we want to 
make sure that this was a legal export out of whatever country 
it came from, and that it is a legal import. We have to consult 
further, Mr. Chairman, about how much information that we have 
at each of our 32 ports on all of the State health laws that 
may affect that. I suspect we do not have all the information 
complied easily and readily available.
    Senator Allard. I want to thank you all. I think it is 
important for the committee to understand the flow of system.
    I will yield to Senator Jeffords.
    Senator Jeffords. You have been very helpful. I appreciate 
your knowledge and experience in sharing it with us.
    I have a three-part question. I would like each of you to 
address this.
    Each of your agencies has a different responsibility in 
dealing with the impact of imported species in addition to 
disseminating warnings to the public. What is your agency doing 
to curtain the spread of these dangerous diseases?
    Do you think your agency needs additional authority to deal 
with the problems you see? If so, what do you want?
    Dr. Clifford?
    Dr. Clifford. Senator, in this case obviously APHIS does 
not have the authority to address the Gambian rat issue for 
prohibition into the U.S. because it does not affect animal 
livestock health. That is where our authorities lies, is the 
protection of livestock and our production in the U.S.
    As far as actions we take, we are always available. In this 
case we have done so as well to assist the other Federal 
agencies in any way we can to address this issue. That is what 
we have done here as well with the monkeypox issue as well as 
other diseases.
    We would address these issues appropriately where our 
authorities lie, for example, with Exotic Newcastle Disease, 
currently APHIS is in an eradication effort with that disease 
in California. So we have taken a very active ongoing approach 
for the eradication of Exotic Newcastle Disease, and do so with 
the introduction of any type of foreign animal disease into the 
U.S. that would affect livestock populations.
    As far as additional authorities needed, I think APHIS' 
position on that would be that we would need to go back and sit 
down with our other Federal agencies, look at gaps, and try to 
come up with a plan to address those together.
    Senator Jeffords. Is there any effort going on to do that 
now?
    Dr. Clifford. There has been some early discussions on 
getting together to have some discussions at the administrator 
level between the Federal agencies, yes.
    Senator Jeffords. Dr. Crawford?
    Dr. Crawford. As I mentioned earlier, we are taking efforts 
to contain these diseases by keeping the carrier animals out.
    There are a number of animals in addition to the Gambian 
rat. They are mainly rodent species from these particular areas 
of Africa.
    After the fact, Senator Jeffords, we did put in this order 
with CDC, which Dr. Ostroff will also mention I am sure. Right 
now you cannot bring them in legally. Also, if you have them, 
you cannot move them between States without consulting with us.
    We work directly with the State authorities to find out 
what the situation is there. Our program now, after the fact, 
is very strong.
    In terms of getting together and seeing whether or not we 
need new authority, I was not familiar with this National 
Invasive Species Council that I mentioned earlier, which was 
the subject of an Executive Order from the White House in 
February 1999. I now know why I am not familiar with it. Health 
and Human Services is not included.
    I think if we could get added, or at least have diplomatic 
relations with them, I believe we could sit down and probably 
figure out where the gaps are. It seems to me they would be a 
good organization, in the Executive Branch at least, to point 
us to where the gaps are and what we might need to do.
    I believe that we need to be more proactive. We need to 
know that when something like monkeypox is happening and some 
of the other diseases around the world, what species of exotic 
animals we ought to be keeping out. There is one in Malaysia, 
and maybe even in Singapore, now called Nipah virus which 
affects pigs. I think we probably ought to be looking into what 
sort of pet animals that are coming in that might also carry 
that, as well as a variety of others.
    Although we get the scientific information, it is not 
memorialized by any existing authority that I know of at the 
present time. This National Invasive Species Council has been 
meeting now for four years. I am sure they have some opinions.
    If we can get on their Council, we will see what we can do.
    Senator Jeffords. Mr. Jones?
    Mr. Jones. Thank you, Senator. I will talk about the Fish 
and Wildlife Service's responsibilities, and then a little more 
to add to what Dr. Crawford has said about the National 
Invasive Species Council.
    First of all, our first responsibility is to enforce 
prohibitions on wildlife, import, export, transport, sale, 
offer for sale. Any Federal law which affects wildlife, we are 
ready and willing to enforce. It is, however, Senator, a thin 
green line that we have with only 92 inspectors. They are 
backed up by a force of another 250 or so special agents. We 
cannot be everywhere and do everything that we would like to 
do.
    Thus, we have to prioritize our work. Clearly this is 
something that a few years ago was not even something we were 
very much aware of. Now it is becoming an increasing priority 
for us. But we are not staffed with either veterinarians or 
medical doctors. We have wildlife biologists and wildlife 
experts.
    When it comes to species that carry human diseases, or 
diseases which can spread to humans, we must rely on experts 
from the other agencies that are represented here, and State 
governments and others, to advise us on what the priority 
should be. Then we will do everything that we can to use the 
resources that we have to help back that up.
    Secondly, Senator, Dr. Crawford is very right to point out 
the National Invasive Species Council. The Secretary of the 
Interior is one of the co-chairs, along with the Secretary of 
Commerce, and the Secretary of Agriculture. There are a number 
of other departments and agencies who are involved with the 
Council. But the focus of the National Invasive Species Council 
to date has been on species that may get loose, and get into 
the natural environment and thus threaten either the natural 
environment or economic interests, for example, species like 
zebra mussels that are infecting the Great Lakes.
    Senator Jeffords. There is a problem in the Chesapeake Bay 
with that shellfish that has now come in and has caused serious 
destruction to the famous blue crab and the struggling effort 
to restore the oysters. That would be in the same category; 
would it not?
    Mr. Jones. That is correct, Senator.
    Animals that carry diseases which may spread to humans, if 
there has been any focus of the National Invasive Species 
Council, it has been not very much. The Department of the 
Interior provides the staff for the National Invasive Species 
Council. We certainly would be willing to work with our partner 
agencies to consider number one, how the Council could help 
with this, and number two, does the umbrella of the Council 
need to be expanded to include other agencies that have the 
expertise and the kind of issues we are talking about today.
    It is my understanding right now that the Council has been 
considering what else should be done, developing a strategic 
plan, and taking a look at the Executive Order to see if the 
order should be modified in some way.
    I think this is an opportune time, Senator, for all of us 
to work together to see how could we coordinate better to 
address all of these kinds of issues.
    Senator Jeffords. Dr. Ostroff?
    Dr. Ostroff. Thank you, Senator. As you know, we are 
primarily a human public health agency. The way that we work to 
curtail many of these diseases is by monitoring human public 
health. I will point out that the only animal disease that I am 
aware of that is reportable to human public health agencies is 
animal rabies. That has been a tradition in this country for a 
long period of time. Most of the testing for animal rabies that 
goes on in the United States is generally done in State public 
health laboratories.
    I will point out that under the Public Health Service Act 
the authorities that we have to take actions, such as the types 
that were taken for non-human primates, are quite broad. We 
certainly are in the process of taking a look at what actions 
may be appropriate to take under the Public Health Service Act 
to try to curtail these types of episodes from happening in the 
future.
    We were one of the ones, and since Senator Warner is here, 
I actually was one of the investigators of the Reston ebola 
outbreak in the late 1980s. I was there in that facility. I saw 
those animals and was well aware of what happened there.
    We were the agency that took the actions that related to 
non-human primates in 1975. Subsequent to that, we tightened 
those regulations. We required that the importers of non- human 
primates be registered with us. They were inspected by us, and 
they continue to be inspected by us. They have to report deaths 
that occur amongst those animals during the quarantine period.
    That is a requirement. That was a direct consequence of 
seeing a quantifiable and recognizable public health risk to 
both humans and animals.
    What I can say to you is that we are taking a look at this 
situation. We will do that from a scientific perspective as 
well as what the appropriate procedures would be to try to move 
on this particular issue.
    It is worth pointing out that there were a whole variety of 
animals in this particular shipment. I do not know what palm 
civets. I have to confess that I do not know what many of these 
animals are. I have never heard of them before. But the palm 
civets that are in the middle are the animals that at least in 
China were found to be found to harbor the SARS corona virus.
    This is a difficult and fairly pervasive problem. As I said 
in my oral statement, what we have to do is to try to balance 
what is appropriate in terms of public health with the 
magnitude of the trade in exotic animals. We are not primarily 
a veterinary health agency. If we do decide to expand what bans 
are currently in place, we would have to rely on the assistance 
of some of the other agencies in terms of enforcing it.
    Senator Jeffords. I know the Senator from Virginia has a 
great interest here. I will yield to you.
    Senator Allard. The Senator from Virginia is recognized.
    Senator Warner. I would thank my colleagues. I would just 
ask Mr. Jones a question.
    This hearing primarily is related to the human diseases. I 
do not know that this particular problem in the Chesapeake 
relates in that category. I wanted to express my concern, as I 
have done before on this committee, as to what we can do to 
prevent these sorts of things. Once we determine they have 
invaded and they are there, how do we get the invasion stopped 
or curtail it. It is an enormous loss of money to the economy 
of my State, and to the bordering States on the Chesapeake Bay. 
At the same time, the American taxpayers are pouring very 
significant sums of money to improve the quality of life in the 
Bay. The two forces are going against each other.
    Can you enlighten me at all about the problems in the Bay 
and how active the Federal Government is in working on that?
    Mr. Jones?
    Mr. Jones. Senator, I can give you some very general 
information. Then I think we would want to provide you with 
some additional details for the record. We would also be 
pleased to meet with you and your staff, and any other members 
who have an interest in this issue.
    We take these issues very seriously. The main authority 
that the Fish and Wildlife Service has to address injurious 
wildlife species is the Lacey Act, the injurious wildlife 
provisions. We do have a number of species and also broader 
groups that are listed now as injurious. That includes a number 
of mammals, like mongoose, that could get loose and threaten 
native birds and various birds that could threaten agriculture.
    It includes zebra mussels. It includes the mitten crabs, 
walking catfish, and most recently we listed the snakehead 
fish, which had been found in a pond in Maryland, in Florida, 
and in other places in the country.
    Senator Jeffords. What was that name again?
    Mr. Jones. Snakehead. It is a fish, but it has a big head 
with a big set of teeth. It is pretty fearsome looking. They 
are found in Asia. They can be very detrimental to native fish.
    Senator Warner. They are a vicious predator?
    Mr. Jones. There are even reports of humans being killed by 
some of the larger species.
    Senator Warner. I might add that it has the capability, 
albeit limited, to leave the water environment and walk across 
certain expanses of land, seeking, I presume, another water 
environment.
    Mr. Jones. That is correct, Senator.
    Senator Warner. In that way, I think the Fish and Wildlife 
did a very wonderful job in responding, like emergency 
responders, to this pond in Maryland. I have not heard that 
there is any spread of that problem now.
    Mr. Jones. I will give the credit to the State of Maryland 
for taking the lead for that. Our job was to help back up the 
States, in this case, by prohibiting imports. We listed all the 
snakehead fish. Then you have to deal with the ones that are 
already here. That is where State agencies have the lead. I 
think the State in this case did a marvelous job.
    We are aware of threats to ecosystems like the Chesapeake 
Bay from other species. However, the injurious wildlife 
provisions, work best before something has gotten here. Once 
something is here, unfortunately that is basically closing the 
barn door after the horse is out of sight.
    We are now involved in a number of reviews of other species 
to see whether they qualify for listing under the injurious 
wildlife statute. We have a deliberative process that does 
involve a lot of scientific study, and then a proposed rule and 
a final rule. It is a process that can take quite a bit of 
time, although we are willing to expedite it where there is a 
true emergency situation, as with the snakehead fish.
    We will work closely with the States of Maryland and 
Virginia in the case of the Chesapeake Bay, and do everything 
that we can to help that is first of all, a State 
responsibility to address the threat of exotic species in the 
Bay.
    Senator I would like to provide you with more details about 
what we are doing separately.
    Senator Allard. Without objection, so ordered.
    Senator Warner. Mr. Jones, we thank you for your courtesy 
and your work. You have one of the few jobs in Washington I 
would like to have.
    [Laughter.]
    Senator Warner. It would be wonderful to go around fish and 
wildlife and visit all the wonderful things we have in this 
great land of ours and not wake up every morning like we do in 
a world of national defense and there are six alligators in 
your bed trying to eat you alive.
    [Laughter.]
    Mr. Jones. Thank you, Senator.
    Senator Warner. You can resume your questions.
    Senator Jeffords. Thank you very much.
    I have another question here. Despite public health 
warnings about serious zoonotic diseases, the CDC continues to 
report dozens of cases of E. coli infections from casual 
contact with exotic animals every year. There are nearly 
100,000 reported cases of salmonella infections from reptiles 
every single year.
    How can we guarantee that the monkeypox and other zoonotic 
diseases will not continue to spread unless we ban the 
possession and movement of exotic animals, like prairie dogs 
and other pocket pets?
    Dr. Crawford?
    Dr. Crawford. Do you want all of us to answer?
    Senator Jeffords. Well, anybody who wants to talk can talk.
    Dr. Crawford. I think that is a CDC question.
    [Laughter.]
    Dr. Ostroff. I will start and then we can go in the other 
direction.
    Your point is very well taken, Senator. The focus of most 
of the questions have been related to importations. But we have 
a number of zoonotic diseases that are also domestic zoonotic 
diseases, at least some of which come from wild animals. It is 
important to point out that all the human cases here of 
monkeypox were related to the prairie dogs and not the imported 
animals themselves, although that is how the prairie dogs got 
it.
    Issues related to the appropriateness of prairie dogs as 
pets, as Senator Ensign mentioned, is a legitimate question and 
one that I think we seriously have to take a look at. As far as 
the diseases that you talked about, E. coli 015787, and 
salmonella, the lion's share of the burden of illness is 
related to food-borne infections that come from actually 
consuming a variety of different foods.
    A small percentage of them that we have been able to 
document in recent years have come from sources such as petting 
zoos, where people actually go and come in direct contact with 
these animals. One of our more infamous outbreaks that we 
investigated a couple of years ago was at the Denver zoo 
related to the exhibition of Komodo dragons which were carriers 
of salmonella and managed to infect a fair number of 
individuals.
    This is a definite problem. There is a huge trade, as was 
mentioned, in reptiles and amphibians. We know that a 
substantial proportion of those reptiles are potential carriers 
of salmonella. It is something that I think we have to 
seriously take a look at.
    Senator Jeffords. Mr. Jones?
    Mr. Jones. Senator, I will be very brief and then pass the 
ball on to my colleague. I will repeat the figures again. For 
2002, just for reptiles and amphibians, 2 million live 
reptiles, and 49 million live amphibians--that is 51 million--
were imported into the United States. That is just those two 
groups.
    In terms of possession of animals as pets, that is not the 
Fish and Wildlife Service's responsibility. We are certainly 
willing to back up whatever Federal laws, regulations, and 
orders there are which relate to wildlife. To the extent that 
we have the capability of doing that, we would look to our 
colleagues at CDC, FDA, and USDA to advise on what are the 
threats to either human health or to livestock that need to 
have additional Federal enforcement.
    Senator Jeffords. Mr. Crawford?
    Dr. Crawford. Yes, Senator, I would make a couple of 
comments.
    One, I agree with Dr. Ostroff that the main course of the 
particularly vicious E. coli, the 015787 is generally from 
domestic animal sources. Sometimes they get spread through 
sewage into salads and things like that. But that is not 
something that we believe comes from another country, although 
it did start in Canada before it got here. It wound up in 
Australia about the time it came here. It is a variant of the 
Escherichia E. coli that inhabits the intestines of all 
mammals. Eradicating it at this point does not seem to be a 
possibility.
    The salmonella that you mentioned that came from the pet 
turtles that we dealt with, probably could be carried by 
virtually any reptiles. So you comment of how can we deal with 
it without banning all importation of reptiles and the handling 
of reptiles across State lines is a salient one. I do not think 
we are ready for that.
    We also have to continue to get the word out that handling 
reptiles of any kind, you are going to have to wash your hands 
probably before and after in a serious kind of way. The best 
way we have of dealing with these food-borne and animal-borne 
disease is hygiene, both of the animals and also of ourselves. 
Handwashing will prevent an appreciable percentage of it.
    Senator Allard. And I might add, adequately prepared food.
    Dr. Crawford. Absolutely, yes. Eating food raw is like 
Russian roulette. Eventually it is going to hit you. We have a 
penchant for doing that in the United States, all of a sudden. 
I think it is something we have to continue to educate people 
about.
    The last thing I would mention is about the turtles.
    Recently we have had some pressure at FDA from a variety of 
sources to release that prohibition on the sale and interstate 
shipment of pet turtles. I would submit that is something we 
need to hold the line on because there really was a serious 
problem in the 1970s until we stopped it. These are the little 
small turtles that are less than four inches, as was mentioned 
earlier.
    Some years ago, I believe it was in 1985, my daughter was 
in school in France. My wife and I went there and took her on a 
little trip to Spain. She had had so much trouble learning 
French, we decided we would expose her to another language.
    When we were there, we had lunch at this outdoor restaurant 
where they had a big terrarium in the middle of it. Pet turtles 
were crawling around. The waitresses were coming up. They were 
showing you the pet turtles. My daughter looked younger than 
she was at the time. So they said, ``Do you want to hold the 
pet turtle?'' My wife held the pet turtle. Then they handed the 
pet turtle to me and I said, ``No, I do not want to hold the 
pet turtle because eating and holding pet turtles do not go 
together.'' They were sick for about a month-and-a-half after 
that. From personal experience, I think we should hold the line 
there.
    But I also want to seriously talk about being proactive 
about these things. When animal diseases that are clearly 
zoonotic pass from animals to man and back again, occurring 
anywhere in the world, we really need to get on top of that. I 
think, as Senator Allard said, with transportation being what 
it is between countries, the movement of people, and even the 
movement of livestock and animals that are at a greater rate 
than ever before in history, we just have to be more reactive.
    The great majority of shrimp that we consume in the United 
States today, for example, comes from a variety of other 
countries with little or no restrictions. We have to know what 
is going on in those countries. There are some international 
organizations that can help us with that. We need to be more 
active with it, and certainly more proactive.
    Thank you.
    Senator Jeffords. Dr. Clifford?
    Dr. Clifford. With regard to the prohibition of exotic 
species into the U.S. from other countries, I think one of the 
things that really needs to be looked at is not prohibiting 
species, but really the true risk of those species and how you 
mitigate those risks. We as human beings love our pets. As a 
veterinarian, that is a good thing that we have pets.
    But we also need to be very diligent and pertinent in the 
way we choose those pets. I think part of that comes in 
education of individuals and knowing the type of pets they are 
getting and knowing what type of risks that presents to them.
    But with regard to E. coli and salmonella, those are 
diseases that are very much a domestic issue. We do not have to 
import exotics to have those types of things and concerns 
within the U.S. Again, it comes to the things that have already 
been spoken here--good hygiene and knowing the type of pet you 
have and knowing that risk of that pet can present to you as a 
human being.
    Senator Jeffords. Thank you.
    Thank you, Mr. Chairman. This has been a wonderful panel. 
You have been very patient.
    Senator Allard. I want to give you plenty of opportunity.
    I wanted to follow up just a little bit. Just for the 
record, Dr. Clifford, you talked about quarantine. But you were 
talking about just the quarantine of livestock. You were not 
talking about quarantine of animals that are a vector of 
concern, or those that have been injected with a livestock 
disease; were you? Is that included in that quarantine 
provision?
    Dr. Clifford. It would vary. Birds are quarantined.
    Senator Allard. Any birds?
    Dr. Clifford. Avian species. Any psittacine-type birds that 
are imported into the U.S., would have to go through a 
quarantine facility.
    Senator Allard. So you and the Fish and Wildlife work on 
those quarantines?
    Dr. Clifford. Fish and Wildlife would definitely be a part 
of that, especially if it is a bird on their CITES list.
    Mr. Jones. But the USDA actually operates or licenses the 
quarantine facilities. We rely on their expertise. But we will 
not clear the shipments until we are sure that all the 
quarantine requirements are going to be met.
    Dr. Clifford. We look at particular risks in some of those 
species, such as the tenrecs, the hedge hogs, brush-tail 
possums from New Zealand that can transit TB, we prohibit the 
importation of those species. We do not allow them into the 
U.S.
    But the other species that you are talking about, it 
depends upon the animal, the diseases of concern as to the 
quarantine, and the length of the quarantine period.
    Senator Allard. Let me just make a couple of comments here.
    I would suggest that the Agency look at this quarantine 
period on certain species. Somehow or the other, there should 
be a reference available where you can look and know what 
diseases to watch out for from which countries. That is going 
to be available from literature. It is going to take a while to 
dig it out. But it is there.
    I want to compliment you on the way that this monkeypox 
outbreak was handled. I am looking here at a chart as was 
mentioned in your testimony. This thing was controlled in 30 
days. That is pretty phenomenal, I think. I think all the 
agencies need to be complemented on that. The first outbreak 
was on the 15th of May, and your last confirmed case was on the 
20th of June. So you basically have about a month there.
    I think that is very good work. It tells me that a lot of 
our rules and regulations are working. We just need to look at 
little more on the preventive side in order to address this. My 
original impression is that we need a lot more rules and 
regulations. It looks like you have a lot of rules and 
regulations. This Lacey Act is very far reaching, from what I 
understand.
    You federalized foreign law, as far as endangered species 
is concerned, I would assume. You also federalized State law, 
the way I understand it. If you take the most rigorous State 
rule and regulation out here and you try to apply it, the Lacey 
Act applies at the time of importation of that, the way I 
understand it. Is that correct, Mr. Jones?
    Mr. Jones. Yes, Senator, what I would ask is that we 
probably need to study a little bit more of what the range of 
State laws that would affect wildlife and how does that mesh 
with the Lacey Act. That probably will keep some lawyers busy. 
But we have already had that discussion with them we know that 
we will be asked to look at the frontiers of the Lacey Act. We 
began those discussions yesterday.
    Senator Allard. That is why I was amazed that you did not 
have some kind of a central reference on State law on that.
    Without objection, so ordered.
    Senator Allard. I want to thank you all for your time. I 
think it has been a very informative panel. Thank you for your 
expertise.
    We will call the third panel. Gabriela Chavarria, Ph.D., 
Policy Director, Wildlife Conservation, National Wildlife 
Federation, on behalf of the National Environmental Coalition 
on Invasive Species; Robert A. Cook, V.M.D., M.P.A., Adjunct 
Professor of Environmental Affairs, The School of International 
and Public Affairs, Columbia University; and N. Marshall 
Meyers, Executive Vice President and Counsel, Pet Industry 
Joint Advisory Council.
    Let us start off with Ms. Chavarria. Then we will call on 
Dr. Cook and Mr. Meyers.

  STATEMENT OF GABRIELA CHAVARRIA, POLICY DIRECTOR, WILDLIFE 
 CONSERVATION, NATIONAL WILDLIFE FEDERATION, ON BEHALF OF THE 
      NATIONAL ENVIRONMENTAL COALITION ON INVASIVE SPECIES

    Ms. Chavarria. Thank you, Mr. Chairman and Senator 
Jeffords. Thank you for the opportunity to address you today. I 
am testifying on behalf of the nine members of the National 
Environmental Coalition on Invasive Species, a group of 
environmental organizations working to promote the prevention, 
control, and eradication of invasive alien species, 
particularly through sound policy solutions at the State, 
Federal, and international levels.
    Invasions by exotic plants, animals, and pathogens into 
non-native environments pose one of the most significant but 
least addressed threats to human health, agriculture, and our 
natural ecosystems. Aside from the viral threats to human 
health, many imported invasive species present more direct 
threats to personal health and safety. Such concerns do not 
even touch upon the widespread environmental damage to native 
habitats and high mortality levels of invasive species that are 
transported legally and illegally across the borders.
    Significant efforts have been made to develop sanitary 
regulations to protect our livestock and agriculture. Yet, 
similar protections are lacking to protect humans from the 
range of threats presented by the import of exotic animals.
    Compounding the tremendous problems of a largely 
unregulated trading in invasive species, there is a particular 
lack of knowledge regarding the biology of many of them, 
particularly how they will affect a new environment.
    Congress needs to focus regulatory efforts on areas where 
the larger risks to human health, economies, and the 
environment outweigh the potential social and/or economic 
advantages. Such tactical decisions need to be taken 
proactively as prevention as the best means for conveying 
widespread human health and environmental impacts.
    Significant attention has recently been paid to 
unintentional or accidental aquatic introductions such as the 
National Aquatic Invasive Species Act whose passage could 
provide valuable guidance on the issue before us. However, 
similar legislative attention needs to be devoted to 
intentional import and introduction of exotic animal species 
into the United States.
    More specific recommendation for Congressional actions 
include: One, import restrictions are needed to deal with 
imports of exotic species that present significant threats to 
human health or the environment far beyond their ornamental 
value or other social benefits. The burden of proof that a 
species does not pose a significant threat to human health or 
the environment must be the responsibility of the importer and 
must be proven before importation.
    Number two, for areas and pathways where imports are 
permitted, authorities should develop supplementary screening 
approaches to evaluate the potential adverse impacts to human 
health and the environment. However, developing an effective 
screening protocols requires a significant investment in 
research because the invasiveness and the availability of 
diseases to jump species are difficult to predict. Further 
research is necessary regarding the environmental and health 
impact of invasive species, and decisions to allow imports 
should be based on thorough scientific assessments.
    Number three, prevention measures should focus on key 
pathways for the introduction of harmful exotic animals as 
opposed to the species-by-species approach. Pathways include 
various modes of transportation, imported animals, live food 
plants and animals.
    Number four, any new programs or legislation to control the 
import of exotic species must be placed within the context of 
existing regulations whether it is for protecting agricultural 
and plant health or for preventing the trade of endangered 
species.
    Number five, focusing on controlling alien species at the 
United States borders alone is inadequate to control trade and 
introductions. While pursuing domestic measures to prevent 
introductions, the U.S. also needs to engage with Canada and 
Mexico to ensure a consistent and coordinated regional approach 
to regulating and managing intentional introductions within 
North America.
    Number six, Congress needs to promote rules within the 
negotiation and implementation of regional and international 
trade and environmental agreements that will ensure appropriate 
sanitary levels, and means to protect human health and the 
environment.
    Number seven, and, appropriate mechanisms and incentives 
need to be put in place to ensure that those importing and/or 
housing species with potential adverse impacts assume financial 
and legal responsibility. Otherwise, public agencies and the 
taxpayers ultimately bear the burden.
    We appreciate the opportunity to testify today. I will be 
happy to entertain any questions, Mr. Chairman. I would ask 
that my complete testimony be included in the record in its 
entirety.
    Senator Allard. Without objection, so ordered. Thank you, 
Ms. Chavarria.
    Mr. Cook?

STATEMENT OF ROBERT A. COOK, ADJUNCT PROFESSOR OF ENVIRONMENTAL 
   AFFAIRS, THE SCHOOL OF INTERNATIONAL AND PUBLIC AFFAIRS, 
                      COLUMBIA UNIVERSITY

    Dr. Cook. Mr. Chairman, and Senator Jeffords, thank you for 
the opportunity to testify. My name is Dr. Robert Cook. I am 
the Chief Veterinarian and Vice President of the Wildlife 
Health Sciences for the Wildlife Conservation Society, and an 
Adjunct Professor of Environmental Affairs at Columbia 
University.
    In addition, I chair the Animal Health Committee of the 
American Zoo and Aquarium Association. I am chair of the 
Captive Wildlife Committee of the United States Animal Health 
Association.
    The Wildlife Conservation Society is a science-based 
organization which conserves wildlife throughout the world and 
manages the Bronx Zoo and four other living institutions in New 
York City. We provide critical veterinary support to the care 
of 23,000 wild animals in our New York parks, as well as to 
over 300 international field conservation projects in 53 
nations. In 1989 we began the first field veterinary program 
and we were deeply involved in the health surveillance of 
animals around the world.
    I have been specifically asked to speak on the health 
threats posed by the global movements of exotic animals and 
their products, including the bushmeat trade in three specific 
areas:
    Exotic animals that are carriers of disease; the types of 
diseases, and the risks to human health.
    Unfortunately, while these are the areas of greatest 
concern, they are also the areas that we know the least about.
    If we hope to generate solutions to these disease issues, 
we must start to think about the health of people, domestic 
animals, and wildlife in a more holistic way.
    As we better understand the complexity of our 
interrelationships, we can and must devise solutions to these 
problems that are proactive and not reactive. A wide range of 
domestic and non-domestic animals carry diseases that can 
threaten the health of people. Scientists at the University of 
Edinburgh noted in the journal Science that ``humanity is 
currently plagued by 1,709 known pathogens.'' They concluded 
that almost half of those are zoonotic. diseases that pass 
between animals and people.
    While what we know about emerging diseases is instructive, 
it is what we do not know that may threaten us the most. For 
example, rodents carry many zoonotic diseases, like the plague 
and hantavirus, and while it is known that monkeypox could be 
spread by rodents in Central Africa, until the crisis of a few 
weeks ago, no one was really looking.
    We need to act sooner and more effectively on a global 
scale. In addition, we must also be prepared to handle diseases 
that make the jump to infect new species. The corona virus 
which causes SARS, appears to have moved from animals in the 
wildlife markets of China to people. The WHO recently listed 
the total number of SARS deaths at 813.
    We must not limit ourselves strictly to those diseases that 
can spread between animals and people. We must also look at 
emerging diseases that threaten domestic livestock and 
wildlife, for here, too, humanity is at risk either through the 
loss of wild species or agricultural losses such as those being 
experienced in the recent outbreak of Enzootic Newcastle 
Disease in the Southwest U.S. where almost four million 
domestic birds have been depopulated.
    We must consider both the legal and illegal exotic pet 
trade. More must be done to halt the illegal movement of exotic 
pets believed to be worth tens of billions of dollars a year, a 
tremendous threat to the health of animals and people. The 
legal pet trade must also be more strictly regulated, 
especially as it affects the movement of wild animals that are 
caught in wild environments. Tighter regulations would lessen 
the threat these animals pose to our health, and would also 
help save species in the wild.
    What can be done now? We must be more proactive, not only 
within our borders but in countries around the world. We must 
do it in a holistic way and not with an eye to eliminate one or 
another species that is believed to be a threat. Such piecemeal 
approaches will trap us in a never-ending cycle of reaction.
    To be proactive, we must one, maintain high-quality 
quarantine protocols such as those used by the institutions of 
the American Zoo and Aquarium Association. These protocols 
require that any animal entering their collections be examined 
and maintained in a secured facility under veterinary 
supervision with a quarantine period.
    Second, expand range-country and homeland surveillance 
systems. The ebola virus has ravaged the great ape and human 
populations of central Africa. Field vets of the Wildlife 
Conservation Society are working with international teams to 
collect samples from wild animals to try to determine the 
vectors of the disease and understand how to contain it.
    The West Nile virus entered the U.S. in the late summer of 
1999. The first connections made between this deadly disease of 
animals and people came from the Wildlife Conservation 
Society's Veterinary Pathology Department. By simply performing 
standard surveillance protocols, and by expecting the 
unexpected, the lesions were discovered and the alarm was 
sounded.
    Third, restrict the trade--legal or illegal--in exotic 
wildlife that is taken from the wild for the pet or bushmeat 
trade. Wildlife destined for food markets and the pet trade is 
often transported over enormous distances with animals and 
consumers from different ecosystems coming into contact. The 
lack of natural immunity to new pathogens makes humans and 
animals alike fertile uncontrolled laboratories for mutation 
and species jumps.
    What we known right now is that many different species of 
animals have the ability to carry infectious agents that can 
threaten human and animal health. It will not be enough to 
isolate specific species after an outbreak occurs, or worse, to 
attempt to eradicate each implicated species when an emerging 
disease is diagnosed.
    If we limit ourselves to this view, we will miss the big 
picture. The proactive measures, including long-term 
surveillance, effective quarantine protocols, and limits on the 
global trade of exotic animals, will best protect the public 
health, help ensure the quality of our food supply, and improve 
the prospects for the conservation of wildlife worldwide.
    Mr. Chairman and Senator Jeffords, as you formulate 
legislation to address the issues of importation of exotic 
species and the impact on public health and safety, I strongly 
encourage you and your staff to call upon the informational 
resources and expertise of the Wildlife Conservation Society, 
and the American Zoo and Aquarium Association. These resources 
can assist the committee in developing effective common-sense 
measures that can help protect wildlife and humans both here 
and abroad.
    I would be happy to answer any questions that you may have.
    I would ask that my complete testimony be included in the 
record in its entirety. Thank you.
    Senator Allard. Without objection, so ordered. Thank you 
for your testimony, Dr. Cook.
    Mr. Meyers?

 STATEMENT OF N. MARSHALL MEYERS, EXECUTIVE VICE PRESIDENT AND 
          COUNSEL, PET INDUSTRY JOINT ADVISORY COUNCIL

    Mr. Meyers. Mr. Chairman and Senator Jeffords, my name is 
Marshall Meyers. I am Executive Vice President and General 
Counsel of the Pet Industry Joint Advisory Council, known as 
PIJAC.
    Also in my practice I have worked with biomedical research 
facilities and the zoo community in dealing with legislative 
and regulatory issues, permits, and everything else, 
internationally, domestically, at the Federal and State level.
    PIJAC has worked with Federal and State governments on 
behalf of the pet trade for some three decades to ensure a 
responsible pet industry to promote the public health and 
safety of the public as well as the animals in trade. Companion 
animals are an integral part of our society. Sixty- two 
percent, or 64 million households, own companion pets. 
Approximately 20 million of those households maintain at least 
one exotic.
    When examining the role of exotics and human health, one 
must place in perspective relative to other vectors, including 
humans and animals in our global economy. The number of human 
health related instances involving traditional as well as 
nontraditional pets is extremely small. There is no activity 
that is without some element of risk.
    That being said, the industry recognizes its responsibility 
to partner with government to take various steps to minimize 
risk. This could be achieved through a variety of screening, 
quarantining, isolation measures, monitoring, health 
certification, and last but not least, education.
    First of all, there is the problem of using the term 
``exotic.'' It is overly broad. Parakeets, goldfish, gerbils, 
hamsters, guinea pigs, reptiles, and most other pets are 
technically ``exotics.'' In fact, for a purist, if a dog and a 
cat was introduced into this continent it would be an exotic.
    The dialogue should focus on what we characterize as 
``nontraditional pets'' or those animals that are not normally 
found in the regular pet trade. Prairie dogs, sugar gliders, 
Gambian rats, flying squirrels, non-human primates, skunks, 
minks, wolf, wolf-crosses are not traditional pets. We do not 
recommend that they be part of the trade.
    But in dealing with nontraditional pets, we have a double-
edged sword. Outright bans engender increased interest in 
demand, followed by an unregulated underground market where 
there is little to no change to protect the public health and 
safety.
    We have been longtime advocates, especially at the State 
and local level, for regulations that will allow a permit 
system if, and only if, that nontraditional pet owner has 
adequate facilities to protect the public health and safety, 
and can demonstrate adequate facilities for the safety and 
human care of the animals.
    Our industry has long been concerned about the human health 
efforts. In fact, PIJAC was founded some 30 years ago because 
of the importation of fish. We discovered in that research done 
at the University of Georgia that the fish being imported were 
actually farm-raised primarily in Asia. Their water and their 
fish were in better shape than those being raised in Florida.
    We have been concerned for many years. We worked with APHIS 
in establishing the Avian Quarantine Program to keep Exotic 
Newcastle Disease out of the United States. With reptile-
associated salmonella, we worked with CDC in the production of 
a poster attached to my testimony, which is an educational 
poster dealing with the basic things one has to do on the 
sanitation, proper husbandry, and keeping them out of the 
kitchen.
    Recently because of the threat of heartwater coming into 
the United States, meetings with the USDA, APHIS, and with the 
State of Florida, we formed what is called the National Reptile 
Improvement program, a voluntary accreditation program which 
has a very unique element. Anybody who is part of the program 
gives USDA and the States department of agriculture the 
automatic right to inspect the facility as if they were a 
regulated facility.
    The person who would be overseeing the operation of those 
facilities would be licensed veterinarians in the State where 
the facilities are located.
    We have worked on psittacosis and educational programs 
which incorporated biosecurity measures in our husbandry 
protocols. We also include sanitation, nutrition, disease 
prevention, and preventative medicine.
    With the outbreak of any zoonotic disease from a pet, or 
even a significant risk, is a serious concern. We have worked 
closely with the CDC and the State veterinarians in 
disseminating information to the entire industry, both to our 
members and nonmembers alike. A sample is attached to my 
testimony.
    What is needed is a review of existing regulatory 
mechanisms, both Federal and State, to ensure that appropriate 
safeguards are in place to minimize the risk of the 
introduction and spread of zoonotic diseases. We recommend that 
USDA revisit this regulatory mechanism governing the 
importation of mammals and work with us to establish 
appropriate isolation and health protocols.
    We cannot overemphasize the need to maintain a balanced 
perspective in undertaking this process, and that the resulting 
standards are risk-based and should be supported by verifiable 
data and science. Quick fixes are not automatically curative.
    Some 50 years ago a famous journalist and social critic, 
talking about governance, commented that for every complex 
problem there is a solution that is simple, neat, and wrong.
    Calls for bans by activist groups in the media are overly 
simplistic. They do not automatically and sometimes really 
address the issue or fix the problem. In fact, they may 
exacerbate it.
    The demand for nontraditional pets has probably increased a 
hundredfold as a result of this outbreak and attendant 
publicity.
    Hopefully this hearing will lead to USDA's convening a task 
force that can deal with this issue. I am a member of the 
Invasive Species Advisory Committee. Human Health and Services 
is a member of that committee. What they really need is not 
diplomacy but some general persuasion to become more active in 
that process.
    We appreciate the opportunity to contribute to the review 
of this issue. Please know that we stand ready to make our 
resources available to the Committee in dealing with this 
issue.
    Thank you. I would ask that my complete testimony be 
included in the record in its entirety.
    Senator Allard. Without objection, so ordered. Thank you, 
Mr. Meyers.
    Thank all of you for your testimony.
    I would like to have all of you comment a little bit about 
the current regulatory requirement in general. Do you think it 
is adequate or inadequate. Specifically state where we perhaps 
need to make any changes.
    Do any of you have any comments?
    Mr. Meyers?
    Mr. Meyers. Mr. Chairman, I believe that it is abundantly 
clear that the USDA issue regarding mammals is a gap that needs 
to be addressed. I think it may be able to be done by 
interagency memorandums of understanding and protocols. It may 
require an amendment to their overall authority.
    I think that birds are well covered because of the Avian 
Import Program. I think that we are working with the State 
veterinarians. We made the presentation on the National Reptile 
Improvement Plan. It includes amphibians. We presented it to 
the Southeastern United States Animal Health Association 
meeting.
    I think that will become a Federal-State coalition to work 
with reptiles and amphibians.
    I think the real gap is in mammals. Quite honestly, I had 
to call some 50 people before I found the first people who had 
ever heard of a Gambian rat. They are not part of the 
traditional pet industry, but I think it is clearly an area 
where we need to look at the regulatory structure.
    Senator Allard. I would just point out for the record that 
the Newcastle Disease outbreak that you referred to in your 
statement was introduced by illegal birds coming in. They were 
cockfighting birds. I carried some legislation to restrict that 
movement. They were illegal and they got in.
    Dr. Cook?
    Dr. Cook. I think each of the agencies in the area that 
they are tasked with does an excellent job. Quarantine by the 
USDA is very thorough but it is limited. The CDC has taken 
steps to regulate the importation of non-human primates. It is 
very thorough. The problem is the gaps.
    The problem is really looking at it in a different way. We 
need to look at our surveillance and quarantine systems 
overall.
    It cannot just be in this country. We need to know what is 
out there. So as we look at surveillance and quarantine, we 
say, ``Well, internationally we need a good surveillance 
system.''
    Whatever agency would be tasked with that, could then 
partner with organizations such as the Wildlife Conservation 
Society where we already have the infrastructure. Our field 
veterinarians are working in countries all over the world to 
try to ascertain what diseases, what threats there are both to 
people and to wildlife. It is there. It just needs to work a 
little differently than it does right now. There needs to be 
more partnership.
    Senator Allard. Good comment, Dr. Cook.
    Ms. Chavarria?
    Ms. Chavarria. Again, I will second the previous answers.
    We need to expand the regulations in some of these 
agencies.
    Already some of these agencies are doing good things. They 
have good programs that can be expanded to wild animals. For 
example, the Fish and Wildlife Service has a really good 
program, the Form 3177 Importation and Exportation Declaration.
    This applies to every single scientist in the United States 
that bring specimens, plans and animals, into the United 
States.
    Most of these specimens are dead. But each scientist, 
before they come into the country, have to have a list of what 
they have. Sometimes they do not even know what they have. They 
already need to provide a list.
    The Fish and Wildlife Service has a list, a book, where 
they keep track of all the scientific material that is coming 
in. So it is a process that has worked. I know it involves a 
lot of work for the scientific community, but it is something 
that could be implemented for wild animals.
    Senator Allard. Mr. Meyers?
    Mr. Meyers. Senator, if I could add to that, the Form 3177
    Declaration does apply to all wildlife shipments into the 
United States of live animals, parts, and derivatives thereof. 
They all of that data on wildlife imports. The data are there. 
It is a compilation issue. I think it is a resource issue on 
their part.
    I know the CITES information goes into a database. I think 
some of the non-CITES species you have to manually pull it 
together.
    Senator Allard. Senator Jeffords?
    Senator Jeffords. Dr. Cook, in order to be proactive, you 
recommend maintaining high quality quarantine protocols. Can 
you tell us how the protocols work within the zoo and the 
aquarium industry and how they could be adopted to the exotic 
pet industry?
    Dr. Cook. I think there are two parts. One is how they work 
is this. Each of the 212 accredited zoos of the American Zoo 
and Aquarium Association have adopted together protocols that 
the veterinarians within their institutions oversee. They are 
secure facilities. Every animal that comes into our collection, 
whether it comes from some other part of the country, or comes 
from outside of the country, goes through a quarantine period 
of a minimum of 30 days.
    During that time we investigate those animals for the 
diseases that we know to look for, both by government 
regulation and beyond that. Our concerns are with wildlife and 
wildlife disease. We are trained to look more broadly.
    How we would do this on a national level is simply through 
partnership. Because we have good relationships, we work on 
surveillance programs with the USDA on things like 
tuberculosis, and with the CDC on West Nile virus right now as 
a national organization. We simply need to expand our 
capabilities.
    This would need some sort of resource ramp up in order for 
us to partner together to say, ``Okay. Let us not look at 
program species. Let us look at the complete range of wildlife 
out there and better understand what the risks are.''
    Senator Jeffords. What value is there in the eradication of 
individual species that may carry one of these zoonotic 
diseases?
    Dr. Cook?
    Dr. Cook. Well, while we can eradicate a single species, or 
at least try do--I do not know how easy it would be to 
eradicate a rodent species or another species quite honestly -- 
that is really not addressing the bigger picture. The bigger 
picture is understanding the ecosystem and how these animals 
play in that ecosystem, and work together in order to maintain 
biodiversity.
    An example, and one that we were very concerned about, was 
the Nipah virus in Malaysia. This outbreak occurred in 1999.
    One hundred and five people died of the disease. One 
million pigs were euthanized because they were amplifier 
species. Then it was believed--and in some works suggested--
that fruit bats carried the disease. We did not know whether 
fruit bats were the only animal that carried the disease. But 
there was a movement afoot then to eradicate the fruit bat.
    That would have been a very short-sighted decision if it 
had actually played out. Fruit bats are significant pollinators 
in the forest. We would lose the diversity of the forest. We 
would lose the forest of Asia, not just by the means that are 
occurring right now, but these additional means.
    To eradicate a single species has great implications to 
diversity beyond that species, and ultimately to all of our 
survival.
    Senator Jeffords. Ms. Chavarria, one of your 
recommendations for dealing with this problem is to put the 
burden of proof on the importer to demonstrate that a species 
does not pose a threat to human health or the environment.
    Could you elaborate on how this might work by giving us an 
example of this?
    Ms. Chavarria. One of the things that is that if the 
importer is the one interested in bringing a lot of the species 
from abroad. They should be in consultation with the scientific 
community in the country where they are working to learn more 
about the biology of a lot of these species.
    Before they can bring anything into the country, they know 
the biology and how that animal will behave. It can be Gambian 
rats or it can be anything. So we know in advance the potential 
that a lot of these species are already carriers of diseases.
    They should be the responsible ones. They are the ones that 
are bringing these species for economical reasons.
    Senator Jeffords. One of the recommendations you made to us 
is to develop screening protocols. Are you familiar with the 
protocols Dr. Cook has talked about?
    Ms. Chavarria. Yes, we are.
    Senator Jeffords. In your opinion, would those protocols be 
effective in dealing with the exotic species we are importing?
    Ms. Chavarria. It would be a good start, definitely a good 
start. But again, I stress the voice in the partnership. We 
need to start working together.
    Senator Jeffords. Are there any comments you would like to 
make before we close up?
    Mr. Meyers?
    Mr. Meyers. I just think that on the screening and on the 
type of isolation protocols, that is something that is being 
discussed, not only within the Agencies but also with pending 
legislation. We, as an industry, are not opposed to those types 
of protocols and procedures. We think they should be science-
based and supported by good data.
    There is the issue about species that are already in trade 
versus new introductions on a new species that has never been 
brought here. I agree with the comments that you have to have 
good biological information. We have to know something about 
them. For those species in trade, we may need a different 
mechanism for monitoring, screening, and doing isolation and 
testing.
    It is a complex issue. We are dealing with it with the 
Invasive Species Advisory Committee and to the Council, and 
also with legislation that is pending before the Congress.
    Senator Jeffords. Thank you, Mr. Chairman.
    Senator Allard. Senator Jeffords, I do not have any more 
questions either.
    I want to thank the panel for their testimony. I thought 
that we stayed pretty much on schedule. We got through our 
panels. I know the Chairman was hoping that we would get out of 
here at 11:30. We are right on the button.
    Senator Jeffords. That is pretty good. Sixty seconds is not 
bad, right?
    [Laughter.]
    Senator Allard. We will go ahead and adjourn the committee.
    [Whereupon, at 11:30 a.m., the committee was adjourned, to 
reconvene at the call of the Chair.]
    [Additional statements submitted for the record follow:]
  Statement of Hon. Max Baucus, U.S. Senator from the State of Montana
    Thank you, Mr. Chairman and Members of the committee. I am pleased 
that this committee has taken the opportunity to learn more about 
exotic species, their impacts on human health, and the most efficient 
means of regulation. This is an important issue that must be addressed 
if we are to avoid future harms.
    The threat of zoonotic diseases is one of deep significance to 
Montana, where wildlife is an important part of our culture and 
heritage. However, as the line between traditional and non- traditional 
animals blur, zoonotic diseases become a more important issue. For 
example, in my home State of Montana, prairie dogs call over 90,000 
acres of land home and their population rivals our human population in 
number. We need to take the threat of zoonotic diseases, like the 
recent outbreak of monkeypox, seriously in order to ensure the safety 
of the American people.
    Measured responses to these diseases must be addressed, whether 
such diseases originate through exotic species importation or from 
native species at home.
    Montana has had its own struggle with exotic species, most notably 
noxious weeds. Of course, Montanans are not yet keeping noxious weeds 
as exotic pets. Nevertheless, these weeds continue to plague many 
valuable landscapes and remain a detriment to native species. As a 
result, I am pleased that we are taking steps to help ensure that 
exotic species have measured and desirable impacts. We need to forge 
strong connections between local, State, and Federal groups and 
agencies to ensure that we have the tools to adequately respond to 
threats. I hope that we can find a balanced way to efficiently handle 
problems with exotic species and I strongly support efforts to that 
end.
    Thank you again Mr. Chairman, and I thank the witnesses for being 
here today.

                               __________
  Statement of Hon. John Ensign, U.S. Senator from the State of Nevada

    Mr. Chairman, thank you for allowing me to participate in this 
important hearing on the importation of exotic species and the impact 
on public health and safety. As a veterinarian who operated a small 
animal practice, I have dealt first-hand with exotic animals, and it is 
a subject I have passionate feelings about.
    As you know, Senator Jeffords and I introduced the Captive Wildlife 
Safety Act, S. 269, earlier this year in order to combat the interstate 
movement of big cats for use in the pet trade. Keeping lions, tigers, 
and other big cats as pets is a prescription for trouble for both 
animals and people.
    Wild animals belong in the wild. Only certain types of domesticated 
animals belong in the home. Wild animals are not behaviorally suited 
for pet-keeping. They often have very specific needs that cannot be met 
by housing them in a tank, in the basement, or in a cage in the 
backyard. Many people quickly give up these animals because they cannot 
adequately deal with them and their often destructive and dangerous 
behaviors. They have few disposal options, all bad: kill the animal, 
release the animal, or turn it over to already overburdened sanctuaries 
and humane societies, which then must bear the long-term financial cost 
of an irresponsible and often impulsive decision to acquire a wild 
animal as a pet.
    The House Resources Committee earlier this week reported the House 
companion bill to the floor, and we hope this committee moves S. 269 in 
an expeditious manner. Senator Jeffords and I would be delighted to see 
the President sign the legislation into law before the year ends.
    While I am here to respectfully request your support for the 
Captive Wildlife Safety Act, I also appear to applaud your effort to 
take a broader review of the exotic wild animal trade.
    While big cats and other predators pose a threat to public safety 
and protection from violent attacks is a primary rationale for S. 269--
the pathogens that many other animals can carry and transmit to people 
pose an even graver threat to the health of Americans. This is why 
Senator Jeffords and I together requested this hearing.
    We have long known that animals transmit zoonotic diseases to 
humans. These diseases include E. coli, rabies, salmonella, 
trichinosis, yellow fever, malaria, botulism, streptococcus, and 
influenza. The Centers for Disease Control and Prevention reports that 
there are more than 90,000 cases a year of salmonella infection 
stemming from pet reptiles, which have salmonella in their intestinal 
tract.
    In more recent times, so-called ``emerging diseases'' have 
increasingly jumped from animals to humans. These include Hepatitis B, 
the hemorrhagic Ebola and Marburg viruses, Lyme disease, hantavirus, 
West Nile virus, the respiratory killer SARS, and now monkeypox.
    Scientists present evidence that suggests that even HIV-AIDS and 
mad cow disease are zoonotic diseases.
    We are playing Russian roulette with the American public by 
allowing the free-flow of exotic wild animals into this country for the 
pet trade. The risks far outweigh the rewards, and a public policy 
response is heavily warranted and long overdue.
    There are other costs to society. An unrestricted flow of wild 
animals into this country puts native wildlife, forests, and 
agriculture at risk. My home State of Nevada recently experienced an 
outbreak of Exotic Newcastle Disease, a deadly avian contagion. It 
appears that parakeets or fighting cocks were illegally transported 
into California from Mexico. Some of these birds were infected with 
Newcastle Disease and an outbreak in Los Angeles County spread 
throughout all of southern California and into Arizona, Nevada, and 
Texas. To contain the spread of the disease, USDA spent more than $110 
million in its containment and compensation efforts. Government 
authorities had to kill more than 3.7 million birds, disrupting egg and 
poultry production and other poultry-related industries.
    Currently the ownership of and traffic of wild or exotic pets is 
largely unregulated. On the State level, only 12 States prohibit owning 
dangerous animals. The Convention on International Trade in Endangered 
Species, (CITES) restricts ownership and trade only in endangered 
wildlife. With scant Federal regulation, virtually any non-endangered 
wild animal to be brought into the U.S. to be sold, bred, and kept as 
pets.
    With thousands of exotic pet outlets ranging from exotic animal 
auctions, flea markets, online sales and other effective distribution 
channels, the potential for similar events involving much more 
dangerous pathogens is a very real threat to public health and safety.
    In light of the recent outbreaks of SARS, monkeypox and Newcastle 
Disease, Federal response is absolutely necessary. Because many Federal 
agencies including the Center for Diseases, Department of Agriculture, 
the Food and Drug Administration regulate animal import, I suggest the 
need for cooperative effort to:
    1. First, identify policy suggestions that would prevent outbreaks 
similar to the SARS and monkeypox outbreaks.
    2. Second, recommend policy suggestions that better prepares 
agencies to react in the event that another outbreak occurs.
    As the Congressional Research Service suggests, ``development of a 
systematic method for using disease outbreak response to evaluate 
public health system preparedness could assist in identifying areas for 
improvement in the system and a metric for measuring improvement.''
    Mr. Chairman, wild animals belong in the wild where they are less 
likely to transmit zoonotic diseases posing risk to public health. That 
is the principle that should guide our actions in the Congress.
    Thank you this opportunity to speak on this issue. I look forward 
to reviewing the findings of this hearing.

                               __________
    Statement of Dr. John Clifford, Associate Deputy Administrator 
Veterinary Services, Animal and Plant Health Inspection Service, United 
                    States Department of Agriculture

    Mr. Chairman and Members of the committee, thank you for this 
opportunity to speak with you on behalf of the U.S. Department of 
Agriculture (USDA) about the importation of exotic animals. My name is 
Dr. John Clifford and I am the Associate Deputy Administrator for 
Veterinary Services with the Animal and Plant Health Inspection Service 
(APHIS).
    As we all know, the recent incidence of monkeypox in the United 
States has highlighted how Federal, State, and local agencies must work 
together to prevent and respond to outbreaks of zoonotic diseases.
    APHIS' mission is to safeguard American agriculture. One of the 
ways we accomplish this mission is to regulate the importation of 
certain animals and animal products. Under the Animal Health Protection 
Act, or AHPA, USDA has the authority to take action in order to prevent 
a disease of livestock from entering into or spreading within the 
United States.
    In carrying out this authority, USDA regulates the importation and 
interstate movement of animals used for agricultural purposes, such as 
cattle, sheep, goats, swine, and poultry. We also regulate the 
importation and interstate movement of certain products made from these 
animals.
    In general, animals not used for agricultural purposes - such as 
prairie dogs, rats, mice, squirrels, and other rodents - are not 
subject to our regulations, because they do not usually carry diseases 
that threaten agricultural health. There are two exceptions: if the 
animal has been inoculated with a disease of agricultural concern for a 
scientific study or the animal is a vector of a disease of agricultural 
concern. For example, USDA prohibits the importation of tenrecs, an 
exotic animal sold as a pet, from Madagascar, because these animals are 
vectors for foot and mouth disease, a very serious disease of 
livestock.
    In the case of monkeypox, there is no clear scientific evidence 
that this disease affects livestock. Therefore, our authorities and 
regulations do not apply to import of animals that may be vectors of 
this disease. Instead, USDA supported the actions of the Department of 
Health and Human Services' Food and Drug Administration (FDA), the 
Centers for Disease Control and Prevention (CDC) and the Department of 
Interior's Fish and Wildlife Service in their effort to shut down 
imports of animals that could carry the disease.
    Our supporting role varied. For example, USDA is also charged with 
enforcing the provisions of the Animal Welfare Act or AWA. The AWA 
requires that certain individuals be licensed or registered with USDA 
and provide their animals with care that meets certain minimum 
standards. Licensees must also maintain records regarding the 
veterinary care, purchases, and sales of exotic animals. Under the AWA, 
all wholesale animal dealers, retail pet stores selling exotic or wild 
animals, and individuals, including owners, selling exotic animals are 
required to be licensed with USDA. USDA conducts periodic inspections 
of licensed facilities to ensure compliance with the AWA.
    Because of our relationship with these licensed facilities, USDA 
was able to assist FDA by locating licensed dealers of exotic animals 
and assisting in the tracebacks of these animals.
    USDA also worked with the FDA to distribute information about the 
ban on the importation, movement, and sale of animals and to conduct a 
survey on the health of animals in these locations. Our personnel also 
assisted CDC in the confiscation of animals that were possibly 
infected. We fielded hundreds of calls from licensees, answering their 
questions about monkeypox and ensuring the licensees were in touch with 
CDC and FDA about issues related to the ban.
    USDA has also offered to provide follow-up surveillance support to 
the States. Under the Animal Damage Control Act, USDA is authorized to 
conduct activities to control wild mammals and bird species that are 
reservoirs for zoonotic diseases. Under this authority, USDA provides 
assistance to States and local governments, private individuals, and 
other organizations in managing wildlife-human conflict. Our experience 
in this area has enabled us to offer to assist the State of Illinois by 
collecting samples from rodent and mammal populations around several 
sites, including landfills and garbage transfer stations. These animals 
can be tested to see if monkeypox has spread into wild populations. A 
similar service has been offered to the State of Wisconsin.
    So, as you can see, USDA has been able to lend valuable assistance 
to the effort. We are committed to working with other State and Federal 
agencies to prevent similar situations in the future.
    Thank you again for the opportunity to speak with you today. I'll 
be happy to answer any of your questions.

                               __________
 Statement of Lester M. Crawford, Deputy Director, U.S. Food and Drug 
        Administration, Department of Health and Human Services

                              INTRODUCTION

    Mr. Chairman and members of the Subcommittee, I am Dr. Lester 
Crawford, Deputy Commissioner of Food and Drugs. Thank you for the 
opportunity to participate in today's hearing examining the importation 
of exotic animal species into the United States and the related 
potential impact on public health and safety. Today, I will discuss the 
Food and Drug Administration's (FDA or the Agency) role in the national 
response to an emerging zoonotic disease or other secondary transmitted 
infectious disease that may potentially occur in the U.S. A zoonotic 
disease is one that can be transmitted from animals to humans under 
natural conditions.
    As we have learned too well, non-native animal species can create 
serious public health problems when they introduce a new disease to the 
native animal and human populations. Once introduced into the U.S., the 
sale or other distribution of an infected animal, or its release into 
the environment, can result in the rapid spread of disease to other 
animal species and to humans. A single uncontrolled case of a new 
disease has the potential to trigger an epidemic. As we know from our 
experience with West Nile virus, it may be extremely difficult, if not 
impossible, to eradicate a disease once it becomes established.
    FDA's potential response to the threat of an emerging zoonotic 
disease would be coordinated with other government agencies, industry 
and academia and would be expected to include, but not necessarily be 
limited to:
    <bullet>  Facilitate the development of reliable diagnostic tools;
    <bullet>  Facilitate the development of safe and effective 
treatments for patients suffering from infectious disease;
    <bullet>  Facilitate the development of a safe and effective human 
vaccine to prevent the disease; and
    <bullet>  Help safeguard regulated products against the possible 
transmission of an infectious agent to a consumer of the regulated 
product e.g. blood and food products.
    In describing FDA's role in responding to this type of threat, let 
me first elaborate on these specific Agency measures to facilitate the 
development of products for diagnosis, treatment, and prevention of an 
emerging zoonotic disease, as well as additional measures to help 
ensure the safety of regulated products against the possible 
transmission of an infectious agent. Then, I will briefly describe some 
of FDA's activities in responding to the recent monkeypox outbreak.

  FDA'S ROLE IN FACILITATING THE DEVELOPMENT OF EFFECTIVE PRODUCTS TO 
   DIAGNOSE, TREAT, OR PREVENT AN EMERGING INFECTIOUS DISEASE AND IN 
   PROTECTING CONSUMERS FROM POTENTIALLY INFECTIVE REGULATED PRODUCTS

    Depending on a particular disease threat from an exotic animal 
species, FDA's response could be expected to involve, but not 
necessarily be limited to, several key activities:
Facilitate the development of reliable diagnostic tools
    The mission of FDA's Center for Devices and Radiological Health 
(CDRH) includes working to ensure the safety and reliability of 
diagnostic tools that will allow the identification of infectious 
agents that are a threat to public health. An emerging infectious 
disease may have no or minor symptoms, such as in the case of West Nile 
Virus, or have more easily clinically identifiable symptoms, such as 
smallpox or monkeypox. It is critical in being able to manage each 
disease and the range of diseases to have accurate and sensitive 
diagnostic tools. FDA routinely works closely and proactively with 
other government agencies such as Centers for Disease Control (CDC) and 
National Institutes of Health (NIH), as well as with the private 
sector, to foster the development of reliable diagnostic tools for 
emerging infectious diseases.
    I am pleased to tell you that on July 9, 2003, FDA cleared the 
first test or use as an aid in the clinical laboratory diagnosis of 
West Nile infection. The new test for West Nile virus infection works 
by detecting the levels of a particular type of antibody, IgM, to the 
disease in a patient's serum. IgM antibodies can be detected within the 
first few days of the onset of illness and can assist in diagnosis. FDA 
was committed to the rapid review of this test, and its approval 
provides a useful tool just in time for the start of the West Nile 
season.

Facilitate the development of safe and effective treatments for the 
        infection
    FDA works to facilitate the development of safe and effective 
treatments for patients suffering from emerging infectious diseases. 
FDA's Center for Drug Evaluation and Research (CDER) and Center for 
Biologics Evaluation and Research (CBER) both respond to this need by 
identifying drugs and other therapeutic products that may be effective 
in combating an infectious agent or modifying the course of the 
disease. FDA's Centers may work cooperatively with CDC and NIH to 
design and implement both emergency protocols and protocols for 
properly controlled clinical trials for using products to treat 
patients who meet certain medical criteria for inclusion in the 
clinical trials. This collaboration allows the U.S. to be better 
prepared to quickly respond to an escalation in the number of disease 
cases and to help patients and practitioners around the world further 
their understanding of the best ways to treat an infectious disease.

Facilitate development of safe and effective vaccines
    FDA's CBER regulates vaccine products for humans and USDA's 
Veterinary Services (VS) for animals. Vaccines, as with most products 
regulated by FDA, undergo a rigorous review of laboratory and clinical 
data to ensure the safety, efficacy, purity and potency of these 
products. Vaccines approved for marketing may also be required to 
undergo additional studies to further evaluate the vaccine and often to 
address specific questions about the vaccine's safety, effectiveness, 
or possible side effects.
    Vaccines are an important tool in preventing and treating emerging 
infectious diseases. In some cases, vaccine development may potentially 
be the most viable strategy to address a specific public health threat. 
FDA facilitates the development of vaccines by conducting intramural 
research, as well as working cooperatively with CDC, NIH, and the 
private sector.
    In the case of monkeypox, experience in Africa showed a reduced 
risk of monkeypox for individuals who had previously been vaccinated 
against smallpox. CDC recommends and is offering smallpox vaccination 
under Investigational New Drug (IND) to people who have been exposed to 
monkeypox or who are likely to become exposed. Persons can be 
vaccinated up to 14 days after exposure.

Helping safeguard the blood supply.
    The FDA is responsible for ensuring the safety of our blood supply. 
The Center for Biologics Evaluation and Research (CBER) regulates the 
collection of blood and blood components. The FDA has taken tremendous 
steps in recent years to greatly enhance the safety of our blood 
supply. While we continue to face new challenges, the American public 
can be assured that FDA is vigilant in its efforts to keep blood as 
safe as possible.
    One of the challenges of safeguarding and promoting the blood 
supply is responding to infectious disease outbreaks. It is a challenge 
that FDA is well prepared to face. FDA works closely with other parts 
of PHS to identify and respond to potential threats to blood safety, to 
develop safety and technical standards, to monitor blood supplies and 
to help industry promote an adequate supply of blood and blood 
products.
    Over a period of years, FDA has progressively strengthened 
overlapping safeguards that protect patients from unsuitable blood and 
blood products. FDA's blood-safety system includes the following five 
measures, all of which are relevant as we address the threat of 
emerging infectious diseases from exotic animal species:
    <bullet>  Donor screening: Donors are provided educational 
materials and asked specific questions by trained personnel about their 
health and medical history. Potential donors whose blood may pose a 
health hazard are asked to exclude themselves. Donors also undergo 
medical screening to ensure that they are in good health at the time of 
donation.
    <bullet>  Blood testing: After donation, each unit of donated blood 
undergoes a series of tests for blood-borne agents such as HIV-1, HIV-
2, HBV (hepatitis B virus), HCV (hepatitis C virus), HTLV-1 and HTLV-II 
(Human T-Cell Lymphotropic Viruses), and the agent of syphilis.
    <bullet>  Donor lists: Blood establishments must keep current a 
list of individuals who have been deferred as blood or plasma donors 
and check all potential donors against that list to prevent use of 
units from deferred donors.
    <bullet>  Quarantine: Donated blood must be quarantined until it is 
thoroughly tested and the donation records have been verified.
    <bullet>  Problems and deficiencies: Blood establishments must 
investigate any failures of these safeguards, and correct system 
deficiencies that are found by the firms or through FDA inspection. 
Firms must report to FDA any manufacturing problems, e.g., biological 
product deviations that may affect the safety, purity, or potency of 
products that were distributed.
    Providing industry and consumers information regarding emerging 
infectious diseases and blood safety issues is another critically 
important function. For example, on June 13, 2003, FDA published a 
notice providing information regarding the monkeypox virus and blood 
and plasma donors. Individuals with monkeypox usually have clear 
clinical symptoms and will be deferred from blood donation. FDA also 
recommends blood and plasma donor deferrals for people who have 
recently received the smallpox vaccine, which may include individuals 
exposed to monkeypox.

Ensure the safety of the food supply, including both animals imported 
        for slaughter and imported food products
    FDA has lead responsibility within HHS for ensuring the safety of 
food products and has the authority to remove a food from the market 
(or sanction those marketing the food) if the food poses a risk to 
public health. Exotic animal species may be imported to be slaughtered 
for food or slaughtered exotic animals or parts of animals may be 
offered for importation into the U.S.
    Globalization of the food supply regulated by FDA presents 
significant challenges to the Agency. FDA, the U.S. Fish and Wildlife 
Service (FWS), and USDA's Food Safety and Inspection Service (FSIS) and 
the Animal and Plant Health Inspection Service (APHIS) work in close 
cooperation with the Department of Homeland Security's Bureau of 
Customs and Border Protection (BCBP) on items related to imports. FDA 
issues Import Alerts and Import Bulletins regarding problems or 
potential problems with imported products under FDA's jurisdiction. FDA 
coordinates its Import Alerts and Bulletins closely with BCBP and other 
appropriate Federal agencies. FDA has also established procedures to 
enhance interagency coordination and to efficiently use Customs' civil 
monetary penalties procedures against importers who attempt to enter 
food into the U.S. by means of a material false statement, act, or 
omission.
    To further enhance safety of imported food products, FDA has led a 
series of food safety workshops around the world in Central America, 
South America, the Southern Pacific region, Asia, and Africa. These 
workshops educate foreign governments and food producers on the food 
safety standards needed to meet U.S. requirements.

             EMERGING INFECTIOUS DISEASES AND BIOTERRORISM

    The President's plan to combat bioterrorism is comprised of a 
number of essential elements in which FDA plays an integral role, many 
of which are the same essential elements that are involved in 
responding to an emerging infectious disease outbreak. One such element 
is the expeditious development and licensing of products to diagnose, 
treat or prevent outbreaks from exposure to pathogens that have been 
identified as bioterrorist agents.
    These products must be reviewed and approved prior to the large-
scale distribution necessary to create and maintain a stockpile. FDA 
scientists must guide the products through the development and 
marketing application review processes, which includes review of the 
manufacturing process, pre-clinical testing, clinical trials, and the 
licensing and approval process. This process is extremely complex and 
early involvement of expert FDA scientists is crucial to the success of 
the expedited development and review process. FDA's involvement in 
bioterrorism preparedness and the expertise we have gained in rapid 
response and proactive approaches to product development have been and 
will in the future be helpful as we respond to emerging infectious 
diseases.
    Conversely, how we respond to emerging infectious diseases can 
serve as a model for preparedness and response to a bioterrorism event 
in that we are dealing with a previously unfamiliar infectious agent 
that has proven rapid worldwide diffusion and secondary transmission.

                    RESPONDING TO MONKEYPOX OUTBREAK

    Monkeypox, a rare, zoonotic, viral disease that occurs primarily in 
the rain forest countries in central and west Africa, is the most 
recent emerging infectious disease threat to public health in the 
United States. Unlike the West Nile Virus, for which we will probably 
never know the original source of its introduction in the U.S., the 
epidemiological and animal tracing investigations have determined that 
all 35 lab-confirmed cases of monkeypox were associated with prairie 
dogs that appear to have been infected though contact with Gambian 
giant rats and dormice that originated in Ghana.
    As one of my colleagues from CDC is testifying here today on the 
disease aspects of monkeypox and the epidemiological investigation, I 
will focus the remainder of my testimony on specific DHHS and FDA 
actions to control and prevent the spread of the disease.

       THE DEPARTMENT OF HEALTH AND HUMAN SERVICE'S COORDINATION

    Section 361 of the Public Health Service (PHS) Act (42 USC 264), 
gives the Secretary of Health and Human Services the authority to make 
and enforce regulations to prevent the introduction into and the spread 
of communicable disease within the United States. Under this authority, 
the Secretary promulgated regulations (42 CFR 70.2 and 21 CFR 1240.30) 
giving the Director of CDC and the Commissioner of Food and Drugs the 
authority to take actions they believe are reasonably necessary to 
present the spread of communicable diseases. HHS determined that the 
current monkeypox outbreak, which is not confined by State borders and 
which, as shown by the presence of the monkeypox virus in prairie dogs, 
may affect multiple animal species, is a problem that requires the use 
of this Federal authority. It was imperative that the Department act 
quickly to establish restrictions on the transport, offer to transport, 
sale, offer to sell, distribution, offer for commercial or public 
distribution, release, and importation of various rodent species to 
prevent the monkeypox virus from spreading and becoming established in 
the United States.
    On June 11, 2003, the Director of CDC and the Commissioner of Food 
and Drugs, pursuant to 42 CFR 70.2 and 21 CFR 1240.30, respectively, 
issued a joint order prohibiting, until further notice, the 
transportation or offering for transportation in interstate commerce, 
or the sale, offering for sale, or offering for any other type of 
commercial or public distribution, including release into the 
environment, of: prairie dogs, tree squirrels, rope squirrels, dormice, 
Gambian giant pouched rats, brush-tailed porcupines, and striped mice.
    The June 11, 2003, order did not apply to the transport of listed 
animals to veterinarians or animal control officials or other entities 
pursuant to guidance or instructions issued by Federal, State, or local 
government authorities. In addition, pursuant to 42 CFR 71.32(b), CDC 
implemented an immediate embargo on the importation of all rodents from 
Africa (order Rodentia).
    FDA has previously invoked Section 361 of the PHS Act to prevent 
the transmission of communicable disease through shellfish, turtles, 
certain birds, and human tissue intended for transplantation [see 21 
CFR 1240.60 (molluscan shellfish), 1240.62 (turtles), 1240.65 
(psittacine birds), and 1270.1 through 1270.43 (human tissue)]. CDC 
likewise has invoked section 361 of the PHS Act for various purposes.
FDA Actions to Implement the CDC/FDA Joint Order
    FDA has taken several steps to quickly implement the Joint Order, 
closely coordinating activities, as appropriate, with CDC, APHIS, 
USFWS, CBP, and State and local government counterparts. FDA 
participated in an Inter-agency conference call held on June 11, 2003, 
to discuss roles and responsibilities regarding the CDC/FDA Joint 
Order. In addition, FDA hosted an inter-agency meeting on June 24 with 
CDC, APHIS, USFWS, and CBP to discuss legal authorities, resources and 
programs, and cooperation strategies relating to the control of 
monkeypox relating to the following areas: imports; intra/inter state 
movements; inspection of dealers, breeders, pet stores, and zoos; 
quarantine authority; euthanasia and disposition; surveillance of wild 
animals; exports; and re-exports.
    To implement the ban on the domestic transportation of affected 
animals, FDA:
    <bullet>  Sent the Joint Order to all State Agriculture and Health 
Agencies, including State and Public Health Veterinarians and State 
Fish and Wildlife officials, as well as to the Department of 
Transportation for distribution to rail, airline, and trucking 
establishments.
    <bullet>  On June 13, 2003, initiated a series of regular 
conference calls with all 50 States and other Federal agencies to 
discuss the outbreak and the status of implementation and enforcement 
of the Joint Order.
    <bullet>  Obtained from APHIS a list of dealers licensed to sell 
exotic animals and issued a priority assignment to FDA District Offices 
to work with State counterparts (Departments of Health and State 
agricultural veterinarians), APHIS, and USFWS to contact and inspect 
the exotic animal dealers. When dealers are contacted, they are 
provided with the CDC/FDA Joint Order, the related Federal Register 
Notice, guidance documents for safe handling of the animals, as well as 
copies of 21 CFR 1240.30. Dealers with sick animals are identified and 
referred to the State authorities and CDC to determine what further 
actions need to be taken.
    <bullet>  Issued on June 27, 2003, (revised July 11) a ``Dear 
Government Authority Letter'' (to other Federal, State, and local 
government authorities) that describes the restrictions on wild-to-wild 
translocation/transportation of prairie dogs. All interstate 
translocation/transportation requests, as well as requests for movement 
within implicated States, are to be referred to FDA for consideration 
by FDA and CDC.

                               CONCLUSION

    Our recent experiences with emerging infectious diseases, such as 
Severe Acute Respiratory Syndrome (SARs), West Nile virus, and 
monkeypox virus, have reinforced the need for strong public health 
systems, robust health service infrastructures, and expertise that can 
be mobilized quickly across national boundaries to mirror disease 
movements. These experiences have highlighted the need for on-going 
coordination and communications among international public health 
organizations, counterpart public health organizations in other 
countries, U.S. Federal, State and local governments, the public health 
and medical infrastructures throughout the U.S., and with private 
industry.
    The growing experience and expertise of government agencies at all 
levels in responding to emerging infectious diseases has been 
particularly clear in the case of monkeypox. Many program officials in 
Federal, State, and local government agencies worked exhaustively to 
bring authorities to bear to fight the outbreak and prevent further 
spread of the monkeypox virus. The level of communication and 
coordination has been extremely demanding. People at all levels of 
government have acted decisively, quickly, and in coordination. The 
forcefulness, persuasiveness, and competence of government actions 
helped to ensure a high degree of cooperation from the public.
    In closing, let me assure you that FDA, and I am sure every 
Federal, State, and local agency, realizes the need to be vigilant and 
to continue to evolve and improve our public health infrastructure and 
other capabilities to be able to respond to the possible nature of 
future infectious disease threats to public health. FDA looks forward 
to continuing to work cooperatively with your committee and others in 
Congress in preparing for the public health challenges that lie ahead.
    At this time I would be happy to answer any questions.

                               __________
 Statement of Marshall Jones, Deputy Director, United States Fish and 
              Wildlife Service, Department of the Interior

    Mr. Chairman, thank you for this opportunity to testify regarding 
the linkage between wildlife trade and the risks to human health and 
domestic wildlife and the laws and regulations that now govern the 
importation of exotic wildlife. I am Marshall Jones, Deputy Director of 
the U.S. Fish and Wildlife Service (Service). The Service is the 
principal Federal agency responsible for enforcing U.S. wildlife 
protection laws and treaties, including those that regulate 
international wildlife trade.
    The importation of exotic species was for many years viewed by the 
Service in the context of possible threats to U.S. wildlife resources 
through such species being becoming invasive, as with zebra mussels or 
snakehead fish, or by introducing new diseases among wildlife 
populations. Recent events demonstrate clearly they can also represent 
a threat to human health. The Service has broad authority to inspect 
all wildlife imports. Through this, and other authority, we will 
actively assist those Federal agencies that have the expertise and 
authority to identify and address human health risks associated with 
wildlife trade. We are committed to using our authority to help protect 
the American people from exotic diseases transmitted through wildlife 
imports.

                          U.S. WILDLIFE TRADE

    U.S. wildlife trade has grown over the past decade, heightening 
concerns about species conservation, the introduction of injurious 
animals and plants, and potential risks to human health and domestic 
wildlife. In particular, the demand for live wildlife has escalated, 
driven in part by the increasing popularity of exotic pets in the 
United States.
    The ease of travel, transport, and transaction (including e-
commerce) has removed barriers to wildlife trade. Wildlife importers 
have access to ample financing, the latest computer and communications 
technology, and overnight air cargo shipping services from virtually 
anyplace in the world. The economic boom of the 1990s spurred 
international travel, giving Americans new opportunities to visit 
exotic locales and acquire exotic wildlife.
    From 1992 through 2002, the number of species regulated under the 
Convention on International Trade in Endangered Species of Wild Fauna 
and Flora (CITES) the international treaty which regulates trade in 
species that are endangered or threatened, or that are otherwise 
vulnerable to the effects of trade increased 75 percent, and the number 
of CITES member nations rose from 115 to 162. U.S. trade in wildlife 
and wildlife products grew 62 percent, with declared shipments jumping 
from 74,620 to more than 121,000. The number of different species in 
trade increased 75 percent, jumping from some 200,000 in 1992 to more 
than 352,000 a decade later. Overall, in 2002, over 38,000 live 
mammals, 365,000 live birds, two million live reptiles, 49 million live 
amphibians, and 216 million live fish were imported into the United 
States.

        AUTHORITIES TO ADDRESS THE INTERNATIONAL WILDLIFE TRADE

    The Service enforces nine wildlife conservation statutes that 
include provisions governing international trade: the African Elephant 
Conservation Act, the Antarctic Conservation Act, the Bald and Golden 
Eagle Protection Act, the Endangered Species Act, the Lacey Act, the 
Marine Mammal Protection Act, the Migratory Bird Treaty Act, the 
Rhinoceros and Tiger Conservation Act, and the Wild Bird Conservation 
Act. The Service also implements the Convention on International Trade 
in Endangered Species of Wild Fauna and Flora (CITES).
    The Lacey Act and the Endangered Species Act give the Service broad 
authority to detain and inspect any international shipment, mail 
parcel, vehicle, or passenger baggage and all accompanying documents, 
whether or not wildlife has been formally declared. These two statutes 
define import to include landing on, or introduction to, any place 
subject to U.S. jurisdiction whether or not such activity is considered 
an import under customs laws. This definition allows the Service to 
address illegal wildlife moving through duty-free areas, free trade 
zones, or in-transit through the United States.
    In addition, the Endangered Species Act and Service regulations 
require wildlife to be imported and exported through specific ports to 
facilitate both enforcement of wildlife laws and clearance of 
legitimate shipments. Commercial importers and exporters of wildlife 
must be licensed by the Service and must pay applicable user fees. In 
addition, they must file declarations with the Service detailing the 
contents of their shipments in order to receive Service clearance 
before the Bureau of Customs and Border Protection (BCBP) inspectors 
can release a shipment for import or they can load it for export. 
Declaration and clearance requirements also apply to non-commercial and 
personal wildlife imports and exports.
    The Service also addresses wildlife trade under the Lacey Act. This 
statute makes it unlawful to import, export, transport, sell, receive, 
acquire, or purchase any fish or wildlife already taken, possessed, 
transported, or sold in violation of State, Federal, Indian tribal, or 
foreign wildlife laws or regulations. The Lacey Act also requires that 
contents of wildlife shipments moving in interstate or foreign commerce 
be accurately marked and labeled on the shipping containers. Under this 
statute, it is also unlawful to make a false record or identification 
of any wildlife transported in interstate or foreign commerce.
    The injurious wildlife provisions of the Lacey Act under Title 18 
restrict the importation and interstate transportation of wildlife 
deemed ``injurious'' or potentially injurious to human beings, to the 
interests of agriculture, horticulture, and forestry, or to wildlife or 
wildlife resources of the United States. The statute only applies to 
wild mammals, birds, fish, amphibians, reptiles, mollusks, and 
crustaceans. The Service cannot regulate insects, spiders, plants, or 
other organisms under the injurious wildlife provisions of the Lacey 
Act.
    There are currently 12 genera of mammals, four species of birds, 
three families of fishes, one species of crustacean, one species of 
mollusk, and one reptile species listed as injurious under the Lacey 
Act. The Service has received petitions for listing the black carp, 
bighead carp, silver carp, and the remaining 27 species of snakes in 
the genus Boiga related to the brown tree snake as injurious wildlife. 
The Service is actively engaged in the administrative steps required to 
process each of these petitions.
    Several general criminal laws also help the Service address 
international wildlife trade. Section 545 of Title 18 prohibits 
smuggling which includes knowingly importing any merchandise contrary 
to law. It also addresses subsequent transactions involving smuggled 
goods. Section 1001 of Title 18, which outlaws false statements, is 
useful when importers or exporters deliberately file false declarations 
or other required information.
    The African Elephant Conservation Act, the Antarctic Conservation 
Act, the Bald and Golden Eagle Protection Act, the Endangered Species 
Act, the Marine Mammal Protection Act, the Migratory Bird Treaty Act, 
the Rhinoceros and Tiger Conservation Act, and the Wild Bird 
Conservation Act all have conservation-related prohibitions on the 
import and/or export of certain wildlife species.
    CITES requires party countries to use a system of permits to 
regulate trade of listed animal and plant species. The Endangered 
Species Act, which implements the treaty in the United States, 
prohibits any trade contrary to CITES or the possession of any 
specimens traded contrary to CITES. While CITES regulates over 3,000 
animal species, the vast majority of wildlife in trade is not listed on 
its appendices.
    CITES requires that live specimens be transported to minimize risk 
of injury or damage to the health of the animal. Shipments that travel 
by air must comply with the International Air Transport Association 
(IATA) guidelines for humane transport.
    IATA guidelines require the shipper to certify that animals are in 
good health and condition. In addition, for reptiles and amphibians, 
the shipper must certify that the animals are free of external 
parasites and any readily recognizable diseases. Shippers must also 
provide health declarations and permits required under any national 
authority. Service humane transport regulations for importing mammals 
and birds (including CITES species) reflect the IATA guidelines and 
require veterinary health certificates stating that the mammal or bird 
is healthy and appears to be free of any communicable disease.

                      POLICING U.S. WILDLIFE TRADE

    The Service's wildlife inspection program provides the Nation's 
front-line defense against illegal wildlife trafficking while 
facilitating legitimate trade. At present, 92 wildlife inspectors are 
stationed at 32 major U.S. airports, ocean ports, and border crossings, 
where they monitor imports and exports to ensure compliance with our 
laws and regulations. In addition, the President's fiscal year 2004 
budget request seeks funding for 9 additional inspectors to meet 
immediate needs for additional staffing along the Nation's northern and 
southern borders.
    Wildlife inspectors focus on detecting and deterring illegal trade 
in protected species and preventing the introduction of injurious 
wildlife. The training and expertise required for this specialized 
field of import/export control include an in-depth grasp of both U.S. 
and foreign wildlife statutes; wide-ranging species identification 
skills for recognizing live specimens, parts, and products; knowledge 
of humane transport requirements; and use of protective clothing and 
equipment.
    Service wildlife inspectors are an integral part of the Federal 
inspection team responsible for policing the people, goods, and 
vehicles entering the United States. They work closely with BCBP 
inspectors in the newly formed Department of Homeland Security, as well 
as with the Department of Agriculture's Veterinary Services (APHIS-VS), 
the Food and Drug Administration (FDA), and the Centers for Disease 
Control and Prevention (CDC).
    Wildlife inspectors, however, are the only Federal officers at 
ports of entry who focus exclusively on wildlife trade. The information 
they collect through the wildlife declaration process is valuable to 
Federal agencies, U.S. and international conservation organizations, 
wildlife trade industries, educational institutions, researchers, and 
other groups. In recent years, for example, the Service has used these 
records extensively to help CDC identify possible health risks 
associated with exotic wildlife trade.

        DISEASES ASSOCIATED WITH WILDLIFE IN INTERNATIONAL TRADE

    The Service recognizes that disease, contamination, or injury are 
possible risks to wildlife inspectors. Inspectors are trained to follow 
safety guidelines and use protective equipment when they handle 
shipments of concern, which include raw hunting trophies treated with 
pesticides, live non-human primates, live venomous snakes and insects, 
bushmeat, and carcasses or other raw wildlife parts. Inspectors are 
not, however, trained in the detection of disease.
    Live wildlife presents the highest risk for introduction of 
diseases that may be transmitted to humans or animals. Live mammals 
have been associated with rabies, brucellosis, herpes-B, hantavirus, 
ebola, plague, tularemia and several other diseases that are 
transmissible to humans. According to CDC, 70,000 people get 
salmonellosis from live reptiles each year, and live birds have been 
responsible for transmitting avian chlamydiosis.
    The import of exotic wildlife parts, including meat, also poses the 
risk of introducing diseases. Contact with non-human primates in 
Central Africa is believed to be the source of HIV/AIDS in humans, and 
it has been suggested that the recent outbreak of Severe Acute 
Respiratory Syndrome (SARS) is linked to an Asian palm civet.

 SERVICE ENFORCEMENT COORDINATION WITH AGENCIES RESPONSIBLE FOR HEALTH 
                                 ISSUES

    Service wildlife inspectors routinely inspect and take enforcement 
action on wildlife shipments that are known to pose a disease risk. 
Inspectors regularly coordinate with CDC on physical inspections of 
non-human primates, under-sized turtles and tortoises, and bats all of 
which are subject to CDC import restrictions based on human health 
concerns.
    Inspectors also coordinate with USDA-VS on wildlife importations 
that are prohibited due to livestock health issues, such as hedgehogs 
that can transmit hoof and mouth disease and tortoises carrying ticks 
infected with heartwater disease and to quarantine exotic birds seized 
at our borders.

                  SERVICE EFFORTS RELATED TO MONKEYPOX

    Before the Department of Health and Human Services (HHS) issued its 
joint order addressing African rodents, CDC consulted the Service about 
possible enforcement assistance with trade embargos and other 
prohibitions that might be needed to prevent the introduction and 
additional spread of monkeypox. The Service also analyzed trade records 
collected through the declaration process to provide CDC, FDA, State 
wildlife and agriculture officials, and local health officials with 
information on potential businesses associated with, and the extent of, 
the live African rodent trade.
    When HHS announced its African rodent trade embargo, the Service 
alerted wildlife inspectors to begin immediate enforcement of the new 
import/export bans and issued a public bulletin explaining our 
enforcement actions. We published this bulletin on the web, posted it 
at staffed wildlife ports of entry, shared it with our Federal 
inspection partners including CPB, CDC, and FDA, and provided it to our 
licensed commercial dealers and to the National Customs Brokers 
Association, which circulated it to their members. Wildlife inspectors 
have also reached out to the trade community, airlines, and Federal 
inspection counterparts at the local level to ensure awareness of, and 
compliance with, the trade embargo.
    The Service is actively involved in an interagency working group at 
the national level and is coordinating with CDC on importations. Our 
wildlife inspectors have worked closely with other Federal inspection 
agencies to identify and address shipments from Africa that may contain 
rodents.
    At New York's John F. Kennedy International Airport, for example, 
Service inspectors conducting routine physical inspections of caviar in 
a refrigerated warehouse spotted shipments from Ghana manifested as 
fish for human consumption that actually contained rodent bushmeat from 
Africa. In addition, Service inspectors, who are equipped with 
protective masks and suits and are intensively trained in their use, 
provided such protective gear to other Federal inspection agencies 
involved in monkeypox enforcement efforts at the airport.
    After receiving information from CDC about the possible shift in 
bushmeat shipments from New York to Baltimore due to enhanced 
enforcement at JFK, Service inspectors and agents in Maryland began to 
target African flights for inspection. At the port of Chicago, wildlife 
inspectors invited local CDC and FDA inspectors to view physical 
inspections of hunting trophies and bushmeat from Africa that had the 
potential to contain rodents. Several shipments are now being held 
there for final disposition by CDC. Other wildlife ports have 
encountered both bushmeat and hunting trophies that contain prohibited 
rodents and are coordinating with CDC on their disposition.
    We have also reviewed our authority to address wildlife-linked 
threats to human health under the injurious species provisions of the 
Lacey Act. Because the Lacey Act requires the Service to first make an 
injurious finding before listing a species a finding which includes the 
opportunity for public comment and is somewhat limited in scope, it is 
not as well suited as other vehicles to rapidly respond to such 
threats. For example, the HHS joint order imposing a trade and 
interstate transport embargo on African rodents was far more 
encompassing and enacted more rapidly than any action that the Service 
could take under the injurious wildlife provisions of the Lacey Act.

                               CONCLUSION

    In closing, I want to assure the committee that the Service is 
prepared to continue assisting those Federal agencies that have the 
expertise and authority to identify and address human health risks and 
risks to domestic wildlife associated with wildlife trade. We are 
committed to providing whatever help we can by collecting and analyzing 
trade data and by using our inspectors and special agents at ports of 
entry for enforcement of any wildlife trade restrictions that are 
introduced to protect the American people from wildlife-transmitted 
disease.
    We share the committee's concerns about the possible introduction 
of such diseases and appreciate this opportunity to review our 
authorities and role in regulating the import and export of exotic 
wildlife. This concludes my testimony and I would be happy to answer 
the committee's questions.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

   Responses of Marshall P. Jones, Jr. to Additional Questions from 
                             Senator Crapo

    Question 1. What is the risk that State wildlife management 
agencies may be forced to manage rainbow trout as an aquatic nuisance 
species?
    Response. The proposed legislation would not interfere with the 
State's primary authority to manage resident species; therefore, this 
bill will not force State wildlife agencies to manage rainbow trout as 
an aquatic nuisance species. S. 525 reauthorizes the incentive-based 
program under the Nonindigenous Aquatic Nuisance Prevention and Control 
Act of 1990 that offers federal cost-share dollars for States to 
implement ANS Task Force-approved State Aquatic Nuisance Species 
Management Plans. These management plans are developed under the 
leadership of the State and reflect the State's priorities. The federal 
government's role in the development of State management plans is to 
provide technical assistance.
    Some States have recognized that the introduction of non-native 
rainbow trout can potentially impact the surrounding ecosystem. For 
example, Montana's State ANS Management Plan identifies rainbow trout 
as a species that is introduced from outside of its natural range and 
has the potential to spread and impact native species. The State 
actively manages rainbow trout to prevent dispersal and avoid 
intentional introduction of the species to water bodies where it is not 
yet established. Several other States, including Arizona, take 
management action to ensure that non-native rainbow trout are not 
stocked in areas where activities to recover threatened or endangered 
trout species (i.e., Gila trout) are taking place.
    Question 2. Define ``native species'' that might be potential 
candidates for listing under the Endangered Species Act, and 
``nuisance'' and ``invasive'' species that might be addressed under 
this proposed legislation. What is the chance that one species might 
end up being managed under both laws?
    Response. The typical differences between imperiled species and 
invasive species as well as the flexibility that exists in the 
Endangered Species Act make it unlikely that a species would be managed 
under both laws.
    As defined under 5. 525, ``invasive species'' are non-native to the 
ecosystem under consideration; however, listed species under the 
Endangered Species Act are defined as those species ``throughout all or 
a significant portion of its range'' that are in danger of extinction 
or likely to become extinct in the future. Invasive species are 
successful competitors for resources, adaptable to a variety of 
habitats, and generally expanding rapidly in population.

   Responses of Marshall P. Jones, Jr. to Additional Questions from 
                           Senator Voinovich

    Question 1. Although prevention should be our number one goal, 
response - a very rapid response - is extremely important. How do you 
envision a successful rapid response to a new aquatic invasive species? 
Do you think that the rapid response provisions in S.525 are adequate?
    Response. A successful rapid response action will be one that has 
been well thought out and well planned in the future - before the 
infestation occurs. Much of our experience has shown us that we have a 
very limited window of opportunity to eradicate a newly established 
invasive species successfully. We must develop a rapid response plan in 
advance and be prepared to implement the plan immediately after an 
invasive species is detected. The rapid response planning process must 
also include criteria to evaluate the infestation and make the critical 
decision about whether to undertake the effort, and it must identify 
the goals we expect to meet with regard to eradication. The rapid 
response provisions in S.525 clearly emphasize the planning process and 
have mandates to require States to develop rapid response contingency 
plans as part of their State ANS Management Plans. We believe these 
provisions will move us forward in being better prepared to respond 
rapidly to new invasions. We also believe that more emphasis is needed 
on the development of control methods to ensure that we have adequate 
tools to implement control actions when deemed necessary.
    Recognizing the importance of advance planning, the Aquatic 
Nuisance Species Task Force has already requested each of its Regional 
Panels to prepare rapid response plans. The rapid response plan for the 
Western Regional Panel has been completed. The other panels are in 
various phases of development of their plans, with the exception of the 
Mid-Atlantic Regional panel, which was just approved by the Task Force 
in November and is in the early stages of formation.

   Responses of Marshall P. Jones, Jr. to Additional Questions from 
                             Senator Allard

    Question 1. The National Oceanic and Atmospheric Administration has 
expressed some concern about S. 525. Their first general concern is 
that the bill requires 31 separate actions each with deadlines that 
must be completed by members of the Aquatic Nuisance Species Task Force 
within 18 months of passage. NOAA has stated that it will be difficult 
to simultaneously give all of these actions the level of attention they 
deserve in the time allowed. In some instances, the Task Force has 
already initiated action and the deadlines are reasonable. In other 
cases, it will be necessary to develop capacity to implement the 
activities. NOAA has recommended that the Committee assess the priority 
level of each of these actions and allow for additional time for lower 
level priority activities. How are these concerns to be addressed?
    Response. The Service agrees with the comments submitted by NOAA 
regarding the prioritization of the mandates outlined in S. 525. We 
share NOAA's concern that the sheer magnitude of actions required in a 
short period of time will not allow these actions to be adequately 
addressed. As stated in our testimony, we believe that prevention is 
the most important component to address. It is also an area that S. 525 
provides significant direction. In addition, control, early detection 
and rapid response planning are critical areas that are needed to 
address those species that do invade and become established. We also 
agree with NOAA in that some of the deadlines should be extended to 
allow for adequate time to complete higher priority level actions. One 
possible way to address this concern and assist in the prioritization 
of these required actions would be for the Committee to compare the 
list of priorities drafted by the National Invasive Species Council 
with the list of actions in S. 525.
    Question 2. Some people are concerned about an apparent 
multiplicity of reporting requirements. These people allege that each 
report will require a significant commitment of resources that could 
actually inhibit implementation activities. NOAA recommends that there 
be a single reporting requirement and the Committee identify the 
elements to be included in the report. How are these concerns to be 
addressed?
    Response. The Service is also concerned about the multiplicity of 
reporting requirements and agrees with the statement that each report 
will require a significant amount of resources to complete. As we 
stated in our testimony, we hope to have the opportunity to work with 
you and your staff to try to consolidate some of these reporting 
requirements to ensure that we can implement the activities outlined in 
the Act aggressively, but also that the timeframes established are 
meaningful and manageable.
    Question 3. This legislation requires that each State have a rapid 
response contingency plan. If the federal government requires such a 
plan, how do we ensure that all ships that discharge ballast waters are 
aware of each State's plan?
    Response. The Service agrees that each State should have a rapid 
response contingency plan as required in Section 1211. However, the 
Service does not believe that each vessel should be required to have 
knowledge of every State's plan. Rather each vessel's ballast water 
management plan should include a requirement to report unplanned 
ballast water discharges to the State of jurisdiction. In addition, the 
discharging vessel should be required to assist the State in 
implementing its rapid response contingency plan if the State requests 
its assistance. The Service has submitted technical comments to 
Committee staff, suggesting that 1 101(a)(1)(C)(ix) be deleted from the 
ballast water provisions. Procedures guiding vessels actions in the 
event of an unplanned ballast water discharge should be part of the 
overall ballast water management plan, but they should not necessarily 
be linked to the rapid response contingency plan that will now be 
required to be a component of each State ANS Management Plan (Section 
1211).

                               __________
 Statement of Dr. Stephen M. Ostroff, Deputy Director, National Center 
  for Infectious Diseases, Centers for Disease Control, Department of 
                       Health and Human Services

    Good morning, Mister Chairman and other Members of the committee. I 
am Dr. Stephen Ostroff, Deputy Director of the National Center for 
Infectious Diseases, Centers for Disease Control and Prevention. I 
would like to thank you for the invitation to participate in this 
hearing on the important public health issues raised by exotic animal 
importation and distribution in the United States. Today I will discuss 
the role of zoonotic diseases in public health and CDC's involvement in 
the investigation and control of the recent outbreak of monkeypox 
infections in the Midwest which prompted this hearing.
    As highlighted in a report released by the Institute of Medicine 
earlier this year entitled Microbial Threats to Health: Emergence, 
Detection, and Response (copy provided), at the beginning of the 21st 
century, we live in an era of emerging infectious diseases. Over the 
last several decades, dozens of newly recognized infectious diseases 
have been identified, many of which pose significant threats to public 
health and safety. In only the last year, we have seen three major 
emerging infectious disease threats. Last summer's West Nile virus 
outbreak was unprecedented in scale and scope, with more than 4,000 
human illnesses in 44 States and Washington D.C. Earlier this year, 
severe acute respiratory syndrome, or SARS, rapidly spread throughout 
the world from an initial focus in southern China with extraordinary 
public health, economic, and political consequences. And now for the 
first time, we have seen the emergence of monkeypox infections outside 
of the natural range of the virus in rural areas of west and central 
Africa.
    More than half of these newly recognized emerging infectious 
diseases have their origins in animals, either via direct transfer from 
animals to humans (known as zoonotic diseases) or through an 
intermediate vector (known as vectorborne diseases). Examples of the 
former include hantavirus pulmonary syndrome from domestic rodents, 
human immunodeficiency virus from non-human primates, salmonellosis 
from reptiles, variant Creutzfeldt Jacob disease (or human BSE) from 
cattle, and probably the SARS coronavirus. Examples of the latter are 
Lyme disease (from deer via ticks) and West Nile virus (from birds via 
mosquitoes). The emergence of a number of these diseases has been 
facilitated by the ever increasing global movement of people, products, 
and animals. West Nile virus was unknown in North America before 1999, 
and although we do not know how it was introduced into New York City, 
the leading hypothesis remains via an infected bird, either imported or 
migratory. These phenomena highlight the fact that U.S. health and 
global health are inextricably linked and that fulfilling CDC's 
domestic mission to protect the health of the U.S. population- requires 
global awareness and collaboration with domestic and international 
partners to prevent the emergence and spread of infectious diseases.

                              THE OUTBREAK

    In early June, CDC received reports from several Midwestern States 
of persons with fever and rash illness who had recently had close 
contact with prairie dogs. The Marshfield Clinic in Wisconsin 
identified a virus that was consistent with a poxvirus in tissue 
samples from a patient and an ill prairie dog. Additional testing at 
CDC indicated that the causative agent was monkeypox, a virus first 
identified in the 1950s that belongs to the family of orthopox viruses 
which also includes smallpox. Monkeypox and smallpox share many 
clinical features, but monkeypox has a known animal reservoir in 
rodents, is less transmissible in humans, and is less virulent than 
smallpox.
    In response, CDC initiated extensive investigations (many of which 
continue today) to determine the scope and scale or the outbreak in 
humans and animals, and initiated prevention and control measures to 
limit the impact of the disease on the public's health and welfare.
    As of July 15th, a total of 72 human cases of monkeypox have been 
reported to CDC from Wisconsin, Illinois, Indiana, Missouri, Kansas, 
and Ohio. In 37 of these cases the diagnosis of monkeypox has been 
laboratory confirmed, while the remainder are considered suspected or 
probable cases. Eighteen of these persons were hospitalized, and two 
children were severely ill but are now recovering. Fortunately, there 
have been no fatalities associated with this outbreak.

                             THE TRACEBACK

    In partnership with our other Federal, State, and local partners, 
traceback investigations were conducted to identify how monkeypox virus 
was introduced into the United States. Results of this traceback effort 
are summarized in graphic A and in CDC's Morbidity and Mortality Weekly 
Report (MMWR) of July 11th, 2003.
    The prairie dog associated with the index patient in Wisconsin was 
obtained from a Milwaukee-area distributor (distributor A) that had 
obtained the animals from a vender in suburban Chicago (distributor B). 
At distributor B, the prairie dogs had been housed with Gambian giant 
rats, a rodent species found in areas of Africa known to be endemic for 
monkeypox virus. So far, all confirmed cases of human monkeypox are 
associated with prairie dogs that are known or suspected to have come 
from distributor B.
    Further investigation revealed the Gambian giant rats had been 
legally imported from Ghana into Texas in early April, sold to an Iowa 
distributor, who then sold them to the Chicago distributor. These 
animals were part of a larger shipment of approximately 800 animals of 
nine different species, including six genera of African rodents which 
could serve as potential hosts for monkeypox (graphic B). These animals 
were then widely distributed within the United States and some were 
even re-exported to Japan. Subsequent testing of some of these animals 
at CDC has identified monkeypox virus in a Gambian giant rat in 
addition to dormice and rope squirrels.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                    PREVENTION AND CONTROL MEASURES

    In addition to issuing guidance on infection control, therapeutics, 
and use of smallpox vaccine for pre- or post-exposure prophylaxis, on 
June 11, 2003, the Director of CDC and the Commissioner of Food and 
Drugs, pursuant to 42 CFR 70.2 and 21 CFR 1240.30, respectively, issued 
a joint order prohibiting, until further notice, the transportation or 
offering for transportation in interstate commerce, or the sale, 
offering for sale, or offering for any other type of commercial or 
public distribution, including release into the environment, of prairie 
dogs, tree squirrels, rope squirrels, dormice, Gambian giant pouched 
rats, brush-tailed porcupines, and striped mice.
    The June 11, 2003, order did not apply to the transport of listed 
animals to veterinarians or animal control officials or other entities 
pursuant to guidance or instructions issued by Federal, State, or local 
government authorities. In addition, pursuant to 42 CFR 71.32(b), CDC 
implemented an immediate embargo on the importation of all rodents from 
Africa (order Rodentia). These actions have been enhanced by 
recommendations regarding euthanasia of prairie dogs linked to the 
Illinois distributor and the rodents from the original shipment, and 
quarantine of other mammals in contact with the implicated animals.

                  ANIMAL IMPORTATION AND HUMAN HEALTH
 
   Introduction of exotic species, such as rodents from Africa, can 
pose a significant threat to human public health, to domesticated 
animals and agriculture, and to indigenous wildlife through the 
introduction of non-native pathogens. As noted in last week's MMWR and 
in a recent editorial in Lancet Infectious Diseases (copy provided), 
importation of exotic animals and the movement in commerce of 
indigenous, wild animals harvested for the commercial pet trade have 
been associated with previous outbreaks of infectious diseases in 
humans. Examples include salmonellosis associated with reptiles and 
tularemia associated with prairie dogs.
    West Nile virus may be another such example. Prairie dogs are also 
known to harbor the bacterium responsible for plague. In the monkeypox 
outbreak, the rapid and widespread distribution of infected and 
potentially infected wild animals to distributors and potential buyers 
in numerous settings enabled the spread of this virus through multiple 
States before the problem was even recognized and effective 
interventions could be implemented. Fortunately, the June 11th joint 
order appears to have been highly effective in reducing further 
transmission, as few human illnesses have been recognized due to 
exposures that occurred since that time.
    The development of long-term strategies is needed to coordinate and 
control the importation, exportation, re-exportation, interstate trade, 
and intrastate sale and distribution of exotic and native wild animals. 
However, there are a number of complex issues and questions which must 
be addressed regarding the sale and trade of exotic and native wild 
animals. Such a position was recently adopted by the Council of State 
and Terroritorial Epidemiologists and the National Association of State 
Public Health Veterinarians (position statement provided). Accredited 
zoological parks and bona fide research facilities mandate specialized 
training for handlers and enforce strict protocols concerning 
prevention of zoonotic diseases and injury hazards with captive 
animals. In contrast, well intentioned pet dealers, breeders, and 
private owners often lack the expertise and resources to maintain 
exotic and native wildlife safely.
    In conclusion, the recent experience with monkeypox highlights the 
continued threat of emerging infectious diseases and the importance of 
global disease surveillance, to have prompt disease reporting, and to 
strengthen the linkages and interactions between human and veterinary 
clinical and public health practitioners.
    While we have made progress in building domestic and global 
capacity to address intentional and naturally- occurring threats to 
human public health, our job is far from complete and much more remains 
to be done. CDC looks forward to working with Congress, and our 
Federal, State, local, public, and private partners, to address the 
infectious disease threats of the present and the future.
    Thank you for allowing us to participate in today's hearing. I 
would be happy to answer any questions that you may have.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________
  Statement of Gabriela Chavarria, Policy Director, National Wildlife 
                               Federation

  ON BEHALF OF NATIONAL ENVIRONMENTAL COALITION ON INVASIVE SPECIES, 
     AMERICAN LANDS, DEFENDERS OF WILDLIFE, ENVIRONMENTAL DEFENSE, 
 ENVIRONMENTAL LAW INSTITUTE, GREAT LAKES UNITED, INTERNATIONAL CENTER 
   FOR TECHNOLOGY ASSESSMENT, NATIONAL WILDLIFE FEDERATION, NATIONAL 
          WILDLIFE REFUGE ASSOCIATION, THE NATURE CONSERVANCY

    Mr. Chairman and members of the committee, my name is Gabriela 
Chavarria, Policy Director for Wildlife Conservation at the National 
Wildlife Federation. I would like to thank you for the opportunity to 
address you today on the important issue of the importation of exotic 
species and their impact on public health and safety. I am testifying 
on behalf of nine members of the National Environmental Coalition on 
Invasive Species (NECIS), which is a group of environmental 
organizations working to promote the prevention, control and 
eradication of invasive alien species, particularly through sound 
policy solutions at the State, Federal and international levels. 
Together, our organizations have nearly six million individual members 
and supporters, and span a broad range of experience including: 
management and protection of private preserves; work with community 
groups, hunters, anglers and labor unions; and scientific, economic, 
and legal expertise on the issue of alien invasive species.
    Invasions by exotic plants, animals, and pathogens into non-native 
environments pose one of the most significant, but least addressed, 
threats to human health, agriculture and our natural ecosystems. Monkey 
pox, SARS and West Nile virus are the new buzzwords of public health, 
as communicable diseases increasingly leap hosts from animals to 
humans. In the United States, in 2002 alone, West Nile virus claimed 
more than 60 lives among constituencies represented by this committee 
and sickened more than a 1,000 people. Deliberate animal imports (legal 
or illegal) are thought to be one of the most likely ways that WNV got 
to New York City in 1999.
    For agriculture, current estimates put the cost of exotic livestock 
diseases at $10 billion per year, and the total cost of agricultural 
pests, including invasive insects, weeds and livestock diseases, 
amounts to $90 billion (Pimentel 2000). Invasive species also represent 
a primary threat to approximately 50% of endangered species in the 
U.S., and are well established in more than half of the U.S. National 
Wildlife Refuges and National Parks. In the past weeks alone, media 
attention has focused on invasive rats decimating auklet and other sea 
bird populations in the Aleutian islands, and the impacts of the mute 
swan on the Chesapeake Bay. These merely add to the long list of other 
exotic invaders, including kudzu in the southeast, Dutch Elm disease, 
the Asian longhorned beetle, the Northern snakehead, Asian carp, the 
zebra mussel and nutria.
    While all invasive species are of central concern for 
environmental, agricultural and economic reasons, our testimony today 
will concentrate on intentional imports of species and the related 
aspects of public health and safety.
Invasive Species and Concerns for Public Health and Safety
    As noted above, the import of alien and invasive species can 
present severe threats to human and environmental health. The recent 
spate of animal related diseases has highlighted the increasing 
opportunity for viral diseases to jump from animals to humans thereby 
presenting significant concerns for public health safety. SARS, monkey 
pox, West Nile virus and AIDS are but a few examples of such 
communicable diseases. Additionally, imported reptiles can convey 
salmonella, wild parrots may carry psittacosis a form of Chlamydia, and 
rodents are infamous for carrying a range of diseases.
    One particularly telling example is the class of paramyxoviruses, 
fifteen of which have been discovered over the last four decades. This 
class of viruses, which is related to measles and mumps, as well as 
Exotic Newcastle disease (a particularly deadly virus affecting 
poultry) uses a wide range of animal hosts, including rats, bats, pigs, 
dolphins, seals, snakes and horses, and have jumped from animal species 
to animal species as well as to humans. In 1999, in Malaysia, an 
outbreak of the Nipah virus, listed as a potential viral bioagent by 
the U.S. Centers for Disease Control and Prevention caused more than a 
hundred deaths almost half the population of the local village. The 
virus was communicated from bats to pigs to humans. Outbreaks of 
paramyxoviruses have also occurred in recent years in Singapore and 
Australia, and scientists are investigating SARS as a potential member 
of that class of disease. The wide range of potential hosts, combined 
with the speed and rapidity at which SARS spread, reveal the 
significant threat posed by imports of animal host species as well as 
by and to the people who handle these animals.
    Other vectors for disease include ticks, entering the country on 
imported turtles or other animals, which caused a rash of fatal bovine 
heart disease in the late 1990s. Medical research indicates that such 
heart disease could feasibly be communicated to humans as well.
    There are over 100 known arboviruses, including West Nile virus and 
St. Louis encephalitis, which are carried by an array of mammals and 
birds. Finally, with more than 2,000 species, rodents are infamous as 
carriers of disease, including monkey pox, hantavirus, murine typhus, 
and pneumonic and bubonic plagues. In many cases, there are known 
diseases, such as four European varieties of the pathogenic hantavirus, 
which have yet to arrive.
    In addition to being transferred from exotic plant and animal 
trade, pathogens and disease may also be transferred directly from 
ballast water discharges. For example, the Great Lakes Panel on Aquatic 
Nuisance Species notes the potential for communication of ballast 
water-mediated pathogens and diseases, such as cholera and 
cryptosporidium. Additionally, the outbreak of disease within animal 
populations could pose public safety concerns. The recent invasion of 
the Great Lakes by the zebra mussel, quagga mussel and round goby is 
now being linked to the rash of Botulism outbreaks in fish and bird 
populations in Lake Erie.
    The public hazard associated with these outbreaks needs to be 
clarified, particularly for those species which are commonly consumed 
by humans.
    Aside from the viral threats to human health, many imported 
invasive species present more direct threats to personal health and 
safety. Exotic carnivores and primates can be a physical threat to 
families, particularly children, in ill-conceived attempts at 
domestication.
    Such concerns don't even touch upon the widespread environmental 
damage to native habitats and high mortality levels of invasive species 
that are transported legally and illegally across borders.
Inadequacy of Present Measures
    While there have been major advances in modern medicine and 
hygiene, such progress has not been sufficient to prevent outbreaks of 
viral diseases, particularly in a globalized era of international 
travel, intensive livestock production, and increasing population 
density and growth. Significant efforts have been made to develop 
sanitary and phytosanitary regulations to protect our livestock and 
agriculture, yet similar protections are lacking to protect humans from 
the range of threats presented by the import of exotic animals.
    Compounding the tremendous problem of a largely unregulated trade 
in invasive species, there is a particular lack of knowledge regarding 
the biology of many invasive species, particularly how they will affect 
a new environment. While pre-screening has been used in some cases, 
there are still difficulties in evaluating species for the complete 
range of environmental, human and animal health threats they may pose. 
Finally, there is no guarantee that end users those who purchase exotic 
animals have sufficient knowledge to address animal or human health 
issues. There are numerous examples from the Northern snakehead to 
larger exotic cats of animal owners discarding or letting these animals 
loose with a wide range of potentially adverse impacts.
Recommendations
    Congress needs to focus regulatory efforts on areas where the 
larger risks to human health, economies and the environment outweigh 
the potential social and/or economic advantages. Such tactical 
decisions need to be taken proactively as prevention is the best means 
for combating widespread human health and environmental impacts. 
Significant attention has recently been paid to unintentional or 
accidental aquatic introductions, such as the National Aquatic Invasive 
Species Act whose passage could provide valuable guidance on the issue 
before us. However, similar legislative attention needs to be devoted 
to intentional imports and introductions of exotic animal species into 
the U.S. More specific recommendations for Congressional action on the 
issue include:
    <bullet>  Imposing import restrictions where risks outweigh 
benefits. As highlighted above, import restrictions are needed to deal 
with imports of exotic species that present significant threats to 
human health or the environment far beyond their ornamental value or 
other social benefits. The burden of proof that a species does not pose 
significant threat to human health or the environment must be the 
responsibility of the importer, and must be proven before importation. 
Prevention should be the focus, particularly in areas of high risk or 
potential scientific uncertainty about the impacts of a particular 
species. For example, this could include restrictions on new imports of 
species known to host a virus or disease that is closely related to a 
known human pathogen. Also, determinations of harm should be made for 
invasive species already permitted in the U.S.
    <bullet>  Controlling key pathways for introduction. Prevention 
measures should focus on key pathways for the introduction of harmful 
exotic animals, as opposed to the more laborious species by species 
approach. Pathways can include various modes of transportation as well 
as imported animals, live food products and plants.
    <bullet>  Developing screening approaches. For areas and pathways 
where imports are permitted, authorities should develop supplementary 
screening approaches to evaluate potential adverse impacts to human 
health and the environment. However, developing effective screening 
protocols requires significant investment in research, because the 
qualities of invasiveness and the ability of diseases to jump species 
are difficult to predict. Further research is necessary regarding the 
environmental and health impacts of invasive species, and decisions to 
allow imports should be based on thorough scientific assessments.
    <bullet>  Coordinating control efforts domestically. Any new 
programs or legislation to control the import of exotic species must be 
placed within the context of existing regulations, whether it is for 
protecting agriculture and plant health or for preventing trade in 
endangered species.
    <bullet>  Coordinating control measures regionally. Focusing on 
controlling alien species at U.S. borders by themselves is inadequate 
to control trade and introductions. While pursuing domestic measures to 
prevent introductions, the U.S. also needs to engage with Canada and 
Mexico to ensure a consistent and coordinated regional approach to 
regulating and managing intentional introductions within North America.
    <bullet>  Advocating strong international rules. Congress and U.S. 
representatives need to promote rules within the negotiation and 
implementation of regional and international trade and environmental 
agreements that will ensure appropriate sanitary levels and means to 
protect human health and the environment.
    <bullet>  Ensuring financial responsibility for impacts. 
Appropriate mechanisms and incentives need to be put in place to ensure 
that those importing and/or housing species with potential adverse 
impacts assume financial and legal responsibility for adverse impacts. 
Otherwise, public agencies and the taxpayer ultimately bear the burden.
    We appreciate the opportunity to appear before this committee to 
discuss the issue of the importation of exotic species and their impact 
on public health and safety.

   Statement of Robert A. Cook, V.M.D., M.P.A., Adjunct Professor of 
 Environmental Affairs, Columbia University, School of International & 
                             Public Affairs

    Mr. Chairman, members of the committee, thank you for the 
opportunity to testify concerning the critical issues surrounding the 
importation of exotic species and its impact on public health and 
safety. Before I begin, I would like to request that this written 
testimony be entered in the hearing record.
    My name is Dr. Robert Cook, I am the Chief Veterinarian and Vice 
President of Wildlife Health Sciences for the Wildlife Conservation 
Society and an Adjunct Professor of Environmental Affairs at Columbia 
University in the School of International and Public Affairs. In 
addition I am chair of the Animal Health Committee of the American Zoo 
and Aquarium Association as well as Chair of the Captive Wildlife and 
Alternative Livestock Committee of the United States Animal Health 
Association. The Wildlife Conservation Society is a science based 
membership organization, founded in 1895 to conserve wildlife and wild 
lands throughout the world and manage the Bronx Zoo and other living 
institutions in New York City. Our Health Sciences Division provides 
critical veterinary support to the care of 23,000 wild animals in our 
New York zoos and aquarium as well to over 300 international field 
conservation projects in 53 nations. In 1989 we began the first Field 
Veterinary Program of any conservation organization and are deeply 
involved in health surveillance programs in key wildlife habitats. At 
Columbia University I work with students in the Masters in Public 
Administration program in Environmental Science and Policy examining 
national and global health and conservation issues.
    I have been specifically asked to speak on the health threats posed 
by the global movement of exotic animals and their products, including 
the bush meat trade, in three specific areas:
    <bullet>  Exotic animals that are carriers of disease
    <bullet>  The types of diseases
    <bullet>  The risks to human health
    I regret to inform you that while these are the areas of greatest 
concern, they are also the areas that we know the least about. If we 
hope to generate solutions to these disease issues we must start to 
think about the health of people, domestic animals and wildlife in a 
more holistic way. A way that addresses the reality that the 
environment, human activities, movements of animals out of their native 
habitats and human health are obviously interrelated. As we better 
understand the complexity of these interrelationships we can--and 
must--devise solutions that are proactive and not reactive: solutions 
that address the realities of ONE HEALTH for our planet's people, 
domestic animals and wildlife.
    A wide range of domestic and non-domestic animals carry diseases 
that can threaten the health of people. Pet dogs can contract rabies if 
not vaccinated. They can also become infected and spread other zoonotic 
diseases (those transmissible between animals and people) such as 
tularemia, leptospirosis, visceral larva migrans, trichinosis, plague, 
scabies and salmonellosis. But if domestic dogs are properly managed 
with sound veterinary care, they are safe and wonderful additions to 
the American household.
    Dr. Mark Woolhouse and his colleagues at University of Edinburgh 
noted in the journal SCIENCE that ``humanity is currently plagued by 
1709 known pathogens (from viruses and bacteria to fungi, protozoa and 
worms)''. They concluded that 49% of those are zoonotic and further it 
was noted that zoonoses are three times more likely to be emerging 
diseases than non-zoonotic diseases.\1\
---------------------------------------------------------------------------
    \1\SCIENCE Vol 289, 28 July 2000. News: Emerging Diseases, 
Malaysian Researchers Trace Nipah Virus to Bats.
---------------------------------------------------------------------------
    While what we know about emerging diseases is instructive- it is 
what we don't know that may threaten us the most. For example, rodents 
carry a plethora of diseases that move between people and animals. 
Leptospirosis, listeriosis, plague, streptobacillosis, lymphocytic 
choriomeningitis, hanta virus, ringworm, tapeworm, lassa fever and 
pneumocystis carinii to name a few. These are the major diseases that 
professionals routinely look for, but even though it was possible for 
Monkey Pox to be spread by rodents, until the crisis of a few weeks ago 
no one was looking for that one. It is only once the threat has 
realized itself by causing disease close to home that we institute 
control measures. We need to act sooner and more effectively on a 
global scale. But even at that, diseases such as Monkey Pox or West 
Nile Virus have been described elsewhere in the world before entering 
our country, we must also be prepared to handle diseases that make the 
jump to infect new species, including humans. The coronavirus which 
causes SARS appears to have moved from animals in the wildlife markets 
to people .and the prion disease, bovine spongiform encephalopathy 
(BSE) or ``Mad Cow'' made the jump from cattle to people. Both have had 
a devastating impact on human lives and the economy of nations. The 
World Health Organization listed the cumulative number of probable SARS 
cases in people as of 11 July 2003 at 8,437 with 813 deaths.\2\ The 
World Organisation for Animal Health (OIE) lists over 182,745 cases of 
BSE in United Kingdom cattle alone between 1988 and 2002.\3\ The 
University of Edinburgh reports 132 human deaths attributed to definite 
or probable vCJD, Creutzfeldt Jacob disease, the human prion variant 
linked to BSE.\4\
---------------------------------------------------------------------------
    \2\World Health Organization Communicable Disease Surveillance & 
Response: Cumulative Number of Reported Probable Cases of SARS. 
www.who.int/csr/sars/country/2003--07--11/en/
    \3\World Organisation for Animal Health (OIE): Number of cases of 
BSE reported in the United Kingdom. www.oie.int/eng/info/en--esbru.htm
    \4\University of Edinburgh, The UK Creutzfeldt-Jakob Disease 
Surveillance Unit. CJD Statistics. www.cjd.ed.ac.uk/figures.htm
---------------------------------------------------------------------------
    We must not limit ourselves strictly to those zoonotic diseases 
that can spread between animals and people. We must also look at 
emerging diseases that threaten domestic livestock and wildlife as 
well- for here too humanity is threatened, either through the loss of 
wild species or agricultural losses, such as those experienced in the 
2001 Foot and Mouth disease outbreak in Great Britain or most recently 
the Enzootic Newcastle Disease (END) outbreak in the Southwest U.S. On 
July 2, 2003 Dr. Thomas Walton of the United States Department of 
Agriculture reported in the ProMed Digest that 3,928,281 domestic birds 
had been depopulated due to the END disease concerns.\5\
---------------------------------------------------------------------------
    \5\ProMed-Ahead Digest V200312: Emergency Management Warning 
105:Exotic Newcastles Disease in the United States www.promed.org
---------------------------------------------------------------------------
    And we must consider both the legal and illegal exotic pet trade. 
According to most estimates, the illegal global trade in exotic pets is 
worth tens of billions of dollars a year.
    More must be done to halt this movement, not only for the sake of 
the wildlife taken from their natural environments but for the health 
of people, domestic animals and native wildlife- all threatened by the 
introduction of novel pathogens to a naive population.
    While I started with the illegal trade, it must be noted that there 
is a multi-billion dollar legal trade as well which needs to be 
addressed. Stricter regulations governing the movement of wild caught 
animals destined for the United States pet trade would not only bolster 
efforts to maintain intact landscapes but also would lessen the threat 
these animals pose to our health. For example, millions of reptiles and 
amphibians are transported around the globe as both pets and bushmeat. 
Few controls exist to stem this flow. We know that these animals can 
carry diseases such as salmonellosis, camplyobacteriosis, 
mycobacteriosis, Q fever and pentastosomiasis. At the Annual Meeting of 
the United States Animal Health Association in 1995, Dr. Stephanie 
Ostrowski of the Centers for Disease Control and Prevention reported on 
the work of Clark and Doten who studied ticks on imported reptiles 
coming into Miami International Airport. Between November 1994 and 
January 1995, United States Department of Agriculture's Animal Plant 
Health Inspection Service personnel inspected 349 reptile import 
shipments with a total of 117,690 animals originating from 22 
countries. Ticks were removed from one or more animals in each of 97 
shipments. Infested shipments included 54,376 animals in total.6 Ticks 
are a disease vector species that can potentially carry a number of 
pathogens present in the United States as well as many other diseases 
from around the globe that threaten animal agriculture and human health 
within our borders.
    Lastly we must also consider the broader scope of injurious 
invasive species of flora and fauna that have and will enter our air, 
land and waterways by chance or by purpose.
    More must be done to regulate conveyances and movement if we are to 
control these threats to our native environment and our health.
    So what can be done now? We must be more proactive. And to be 
proactive we must be looking for those things we know little about- not 
only within our borders but in range countries around the world. We 
must do it in a way that respects the role that animals and people play 
in the perpetuation of a healthy ecosystem and not with an eye to 
eliminate one or another species that is believed to carry a particular 
disease. Such piece meal approaches will trap us in a never-ending 
cycle of reaction. To be proactive we must:
    <bullet>  Maintain high-quality quarantine protocols: Quarantine 
protocols such as those used by the 212 accredited institutions of the 
American Zoo and Aquarium Association. These procedures require that 
any animal entering their collections be examined and maintained in a 
secure facility for the quarantine period to ensure that disease 
threats can be controlled. Protocols are in place to quarantine all new 
arrivals under veterinary supervision, whether they come from across 
the country or across the world. These procedures include veterinary 
exams, diagnostic testing as well as pathology examinations in the 
event of an animal death.
    <bullet>   Expand range-country and homeland surveillance systems: 
Right now Ebola virus is ravaging the great ape and human populations 
of central Africa. Field veterinarians of the Wildlife Conservation 
Society are on the ground, working with a multi-disciplinary team of 
scientists and local peoples to collect samples from wild animals to 
not only determine the vectors of disease but to work towards 
understanding how to contain the disease within the forest. It was 
through these collaborative international efforts that we discovered 
gorillas also die of the disease and it is through the samples 
collected by trained field staff that eventually the vector will be 
identified--an important missing link that will allow the scientific 
community to begin to formulate sound control measures.
    The West Nile virus entered the United States in the late summer of 
1999. The first connections made between this deadly disease of birds 
and the illnesses in people came from the Wildlife Conservation 
Society's Veterinary Pathology Department. The then head pathologist, 
Dr. Tracey McNamara, was performing standard surveillance protocols 
looking at wild crows that had died and whose disease could affect the 
health of the animals in the zoos collections. By expecting the 
unexpected, one of the hallmarks of a thorough surveillance system, the 
lesions were described and the alarm was sounded. While today we know 
that the isolate is identical to that found in a goose during the 1998 
outbreak in the Middle East, we may never know how it breached our 
borders. However it arrived, the results are clear and ominous. Dr. Roy 
Campbell of The Centers for Disease Control and Prevention reported in 
February 2003 that the results from 2002 included 4,161 human cases 
with 277 fatalities. Thousands of horses were affected as well.
    <bullet>  Restrict the trade (legal or illegal) in exotic wildlife 
that is taken from the wild for the pet or bushmeat trade: In today's 
global marketplace, wildlife is just another commodity. Wildlife 
destined for food markets and the pet trade is often transported over 
enormous distances. For example, animals found in the markets in 
Guangshou, Guangdong Province, China include soft-shelled turtles 
captured in Sumatra, pangolins from Vietnam and Thailand, pythons from 
Myanmar and red-eared sliders from Florida. The result is a dangerous 
concatenation of circumstances, with animals and would be consumers 
from different ecosystems coming into contact. The lack of resistance 
to new pathogens makes humans and animals alike, fertile, uncontrolled 
laboratories for these organisms to adapt and rapidly mutate. The 
staggering numbers of animals and people coming into contact with each 
other change the one-in-a-million odds of disease spillover into almost 
a daily possibility. Even under the most hygienic conditions, this pool 
of viruses, bacteria, and other pathogens creates an optimal breeding 
ground for diseases to multiply rapidly and jump between species 
enabling them to exploit new hosts.
    What we know right now is that many different species of animals 
have the ability to carry infectious agents that can threaten human and 
animal health. These vectors of disease tell us not only what threatens 
us today but are especially instructive in showing us what is at stake 
when the balance of nature is tampered with. The Nipah virus emerged in 
Malaysia in 1999 and killed 105 people. One theory is that fruit bats 
were carrying the pathogen that infected domestic pigs that then became 
the ``amplifying'' hosts for the human outbreak.\6\ The bat ``fear 
factor'' amongst people prompted calls to annihilate the species- a 
major pollinator of the forests in that region. If this eradication had 
been successful the implications to the future of healthy forests, the 
food supply and ultimately human health would have been dramatic. It 
will not be enough to isolate specific species after an outbreak occurs 
or worse, to attempt to eradicate each implicated species when an 
emerging disease is diagnosed. If we limit ourselves to this view we 
will miss the big picture- that proactive measures including long term 
surveillance, effective quarantine protocols and limits on the global 
trade of exotic animals will best protect the public health, help 
ensure the quality of our food supply and improve the prospects for the 
conservation of wildlife worldwide.
---------------------------------------------------------------------------
    \6\United States Animal Health Association. Proceedings of the 
Ninety-Ninth Annual Meeting, October 28-November 3, 1995. Report of the 
Committee on Public Health and Environmental Quality. Pages 471-480.
---------------------------------------------------------------------------
    Mr. Chairman, as you formulate legislation to address the issue of 
importation of exotic species and the impact on public health and 
safety, I strongly encourage you and your staff to call upon the 
informational resources and expertise of the Wildlife Conservation 
Society and the American Zoo and Aquarium Association. These resources 
can assist the committee in developing effective, common sense measures 
that can help protect wildlife and human resources both here and 
abroad. I would be happy to answer any questions that you may have.

                               __________
  Statement of Marshall Meyers, Executive Vice President and General 
              Counsel, Pet Industry Joint Advisory Council

    Mr. Chairman and members of the committee, my name is Marshall 
Meyers. I am the Executive Vice President and General Counsel of the 
Pet Industry Joint Advisory Council (PIJAC), the largest pet industry 
trade association in the world. PIJAC represents all segments of the 
pet industry consisting of companion animal breeders, importers, 
exporters, product wholesale distributors, manufacturers, and 
retailers.
    PIJAC has worked with the Federal and State governments on behalf 
of the pet trade for three decades to ensure a responsible pet industry 
that promotes the health and safety of the public and of animals in 
trade. We remain committed to acting proactively in response to current 
health concerns, while not over-reacting in a way that threatens the 
right to keep pets supported by the vast majority of Americans.
    Companion animals are an integral part of American society. 62% of 
US households - or 64 million homes - currently own companion animals. 
Approximately 20 million households maintain one or more ``exotics.'' 
Studies indicate that the pet population in the United States is larger 
than our human population.
    Historically, the US pet industry breeds and/or imports millions of 
specimens annually of numerous species of aquatic organisms, reptiles, 
amphibians, and birds that come from various parts of the world. In 
many instances, these animals are captive-bred and reared in Europe, 
Asia, Africa and South America, as well as in the United States.
    When examining the role of ``exotics'' and human health, one must 
place it in perspective relative to other vectors (including humans) in 
our global economy. The actual number of human health related incidents 
involving traditional, as well as non-traditional, pets is really 
extremely small compared to the numbers of animals maintained as pets. 
The risk is also relatively low compared to diseases associated with 
the import and trade of non- pet animals for other industries.
    Needless to say, there is no activity that is without some element 
of risk, but the benefits derived from pet ownership far outweigh the 
negative consequences actually experienced by the US population. That 
being said, the pet industry recognizes its responsibility to partner 
with government to take a variety of steps that minimize risks to human 
health and safety. This is achieved in many ways including, but not 
limited to, a variety of screening/quarantining/isolation measures, 
monitoring, health certification, and last, but not least, education.
    An initial issue that needs to be addressed is the overly-broad use 
of the term ``exotics'' to describe a broad range of animals in the pet 
trade. The term ``exotic'' is quite misleading it can include virtually 
every companion animal other than a dog or cat that is captive-bred, 
wild harvested, native or non-native. For some purists, dogs and cats 
are ``exotics'' because they were not indigenous to America prior to 
man's introduction of them centuries ago. Parakeets, goldfish, gerbils, 
hamsters, guinea pigs, reptiles, and most other pets and aquatic 
organisms are classified as ``exotics.'' When discussing those wildlife 
species, mainly mammals, that pose a human health threat, we believe 
the dialogue should focus on non-traditional pets or those animals not 
normally found in regular retail channels.\1\
---------------------------------------------------------------------------
    \1\Companion pets are sold through a wide variety of retail 
channels: private breeders, retail pet stores, superstores, mass 
merchandisers, animal shelters, garden centers, farm/feed stores, and 
the Internet.
---------------------------------------------------------------------------
    Man's interest in owning a wide diversity of wildlife species 
(animals and plants alike) is traceable to his fascination with nature. 
A number of species found in homes across America are non-traditional 
pets -- Prairie Dogs, Sugar Gliders, Gambian Rats, Flying Squirrels, 
Non-human Primates\2\ -- pets that our industry would not consider 
mainstream pets. And some animals viewed by their owners as ``pets'' 
such as large cats and venomous reptiles are clearly non-traditional 
pets and should be treated differently from companion animals handled 
through traditional retail channels.
---------------------------------------------------------------------------
    \2\PIJAC historically has recommended that a number of wildlife 
animals are non-traditional pets and should not be sold through pet 
stores: e.g., Bears, Coyotes, Flying squirrels, Foxes, Game animals, 
Kinkajous, Mink, Non-human primates, Non-Domestic Cats (i.e., lions, 
tigers), Crocodilians, Raccoons, Skunks, Venomous reptiles, Wolves, 
Wolf Crosses.
---------------------------------------------------------------------------
    In dealing with non-traditional pets or non-pet wildlife species 
that pose threats to public safety and human health, we are confronted 
with a double-edged sword. Outright bans engender increased interest 
and demand followed by an unregulated, underground market where there 
is little to no chance to protect the public health and safety.\3\ That 
is why PIJAC has been a long-time advocate of State or local regulatory 
mechanisms that permit possession pursuant to a permit system if, and 
only if, the owner of non-traditional pets that been documented to pose 
a threat to public health and safety demonstrate that their facilities 
and handling protocols protect the public health and safety and provide 
a humane and safe environment for the animal.
---------------------------------------------------------------------------
    \3\Reports of increased demand for Prairie dogs is clearly 
attributable to media exposure received in recent weeks and as a result 
of State and local calls for bans. PIJAC has received reports that 
people are offering between $500 and $750 for Prairie dogs that 
previously sold, if one could find them, for approximately $125 each.
---------------------------------------------------------------------------
    Our industry has long been concerned about the possibility of 
introduction of diseases that are harmful to animals as well as humans. 
Some 30 years ago, PIJAC funded research at the University of Georgia 
to ascertain whether imported ornamental fish shipments posed a danger 
to humans or the environment. That research demonstrated that imported 
aquarium fish shipments did not represent a threat.
    Over the past 30 years PIJAC has worked closely with Federal and 
State agencies to minimize the risk of importing injurious diseases.
    <bullet>  Exotic Newcastle's Disease - Industry worked with USDA-
APHIS in the establishment of an avian quarantine system that remains 
in place today. Industry participated in educational programs on how to 
comply with import laws.
    <bullet>  Reptile-associated Salmonella - PIJAC and the Centers for 
Disease Control (CDC) joined together on a public outreach education 
program to minimize the risk of Reptile-associated salmonella. Industry 
has also been funding research at Louisiana State University on ways to 
avoid the potential for spread from reptiles to humans. Copies of the 
educational materials are attached as exhibits 1 and 2.
    <bullet>  National Reptile Improvement Plan (NRIP) - In response to 
the possibility of Bont ticks transmitting heartwater disease into the 
United States, PIJAC and the reptile community, in conjunction with 
APHIS and the Florida Department of Agriculture, designed a voluntary 
accreditation program that contains Best Management Practices covering 
isolation, screening, disease prevention, humane care standards, and a 
host of related concerns. While the program is voluntary, USDA and 
State departments of agriculture have access to the accredited facility 
just as they would under a government-regulated program.
    <bullet>  Psittacosis - Industry funded research over the years on 
improving diagnostics and treatments at the University of California, 
Davis; North Carolina State University; and, Louisiana State 
University.
    <bullet>  PIJAC's educational activities are directed within the 
pet trade and to the broader community alike. They include widely 
acclaimed certification programs that inform persons in the commercial 
pet industry, as well as those in animal shelters and others dealing 
with pets, as to appropriate care standards for pet animals; and public 
information campaigns through media such as posters that are made 
available to retailers, schools, shelters and other pertinent outlets. 
These materials emphasize the need to incorporate bio-security measures 
in husbandry protocols. Other aspects of good husbandry include 
sanitation, nutrition, disease prevention, proper housing, isolation 
and quarantine facilities, preventative medicine, etc.
    The outbreak of any zoonotic disease from a pet, or even 
significant risk of such an outbreak, is of serious concern to the pet 
trade. The seriousness of the Monkeypox outbreak drew an immediate 
response from the pet industry. Despite the fact that the vast majority 
of pet stores do not sell Prairie dogs, Gambian rats or any of several 
other species of African rats, the industry's rapid response mechanism 
immediately notified pet stores, animal importers and breeders, 
veterinarians, rescue groups and shelters of the outbreak and the 
precautionary steps that should be implemented according to CDC 
guidelines as well as State recommendations.
    PIJAC, in coordination with the Centers for Disease Control and a 
number of State veterinarians, acted as an information center and 
clearing house for disseminating information to the pet industry on the 
Monkeypox outbreak and steps to contain the outbreak. As individual 
States issued guidelines, regulations or other measures, PIJAC posted 
the materials on its website and arranged to have member distributors 
forward such information to all of their customers whether or not they 
were PIJAC members.
    PIJAC's Emergency Alert Network members forwarded copies of the 
PIJAC PetAlert, the CDC/FDA Order banning movement, as well as state 
specific information to their customers. The PetAlert contained a 
summary of Federal and State rules, copies of which could also be found 
on PIJAC's website.\4\
---------------------------------------------------------------------------
    \4\``Breaking News'' www.pijac.org. See Exhibit 3.
---------------------------------------------------------------------------
    The Pet Industry is committed to improving the relationship and 
quality of life between humans and animals, while striving to minimize 
related health risks. While PIJAC supports the industry's ongoing 
captive breeding initiatives, PIJAC is also cognizant of the importance 
of appropriate and regulated utilization of renewable resources by 
developing countries and the need to ensure that such natural resources 
do not become devalued. Irrespective of whether animals are imported 
from captive breeding facilities or from the wild, the pet industry 
recognizes the need for appropriate health protocols governing 
importation, especially mammals. These protocols may include a variety 
of mechanisms such as quarantine, screening, testing as deemed 
appropriate for the species.
    What is needed is a review of existing regulatory mechanisms, both 
Federal and State, to ensure that appropriate safeguards are in place 
to minimize the risk of introduction and spread of zoonotic diseases. 
We believe there is always the potential to improve any system. Our 
industry recommends that USDA-APHIS revisit its regulatory mechanism 
governing importation of mammals and work with industry to establish 
appropriate isolation and health protocols to minimize the likelihood 
of a repeat of a Monkeypox or similar zoonotic outbreak.
    We cannot overemphasize the need to maintain a balanced perspective 
in undertaking this process; that the resulting standards are risk-
based, and that they should be supported by verifiable data and 
science.
    As I earlier suggested, outright bans are counter productive, will 
drive demand, and will vitiate the apparatus critically needed to 
ensure protection against future potential risks. Nor are quick fixes 
automatically curative. Some 50 years ago, a famous social critic and 
journalist, H. L. Mencken, commented on governance when he observed, 
``For every complex problem, there is a solution that is simple, neat 
and wrong.'' Calls for bans by activist groups and the media are overly 
simplistic; they don't really address the issue or fix the problem. In 
fact, they may exacerbate it. The demand for such non-traditional pets 
has probably increased a hundred fold as a result of this outbreak and 
its attendant publicity.
    Hopefully this hearing will lead to USDA's convening a Task Force 
of interested stakeholders to devise a solution that is neat, simple, 
and meets our common objective of minimizing the likelihood of the 
introduction of foreign zoonotic diseases into the United States. Most 
importantly, let's design it so it works. Our industry remains 
committed, as we have over the past 30 years, to assist in achieving 
these goals.
    We appreciate the opportunity to contribute to the review of this 
issue.
    Thank you Mr. Chairman, and please know that I stand ready to make 
PIJAC's resources available to further the good work of this committee. 
Do not hesitate to call on me as necessary. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                               __________
Statement of Nicole G. Paquette, Esq., Director of Legal and Government 
        Affairs and General Counsel, Animal Protection Institute

    On behalf of the Animal Protection Institute (API), a national non-
profit animal advocacy organization with over 85,000 members and 
supporters, I am pleased to offer testimony regarding the importation 
of exotic species and the impact these species have on public health 
and safety. I wish to thank the Committee on Environment and Public 
Works for holding a public hearing on this very important issue.
    For several years, API has been studying the issue of exotic 
animals held in private hands. We have tracked incidents across the 
country involving attacks, escapes, and transmission of communicable 
diseases, and have analyzed all of the State laws that govern these 
issues, including caging requirements and standards. API has worked on 
legislation in North Dakota, Ohio, Oregon, South Carolina, and 
Washington State that would prohibit the private possession and 
breeding of exotic animals. Several cities have also passed API's model 
legislation restricting the possession and breeding of exotic animals. 
In addition, we operate the API Primate Sanctuary, which is home to 
approximately 350 non-human primates, many of whom were rescued from 
private possession.
    The trade in exotic animals is a multi-billion-dollar-a-year 
industry. People are breeding captive wild animals in large numbers. 
Every year, thousands of animals enter the captive wild animal trade 
from a variety of sources. These animals are either ``surplus'' from 
various roadside menageries and zoos; are captured from their native 
habitat; are sold at auctions, pet stores, or over the Internet; or 
come from backyard breeders. These animals are then sold on the open 
market and freely moved via interstate commerce. For example, a primate 
bred in Kentucky can be shipped with ease to an individual in Texas in 
a matter of days.
    Exotic animals, such as lions, tigers, servals, monkeys, bears, 
snakes, iguanas, wolves, prairie dogs, and binturongs are being 
privately possessed as ``pets'' across the country. These animals pose 
public safety and health risks to their possessors and to the community 
at large. By their very nature, these animals are wild and inherently 
dangerous and, as such, do not adjust well to a captive environment. 
The American Veterinary Medical Association (AVMA), the United State 
Department of Agriculture (USDA), the Centers for Disease Control and 
Prevention (CDC), and the American Zoo and Aquarium Association (AZA) 
have all opposed private possession of certain exotic animals.
    Across the country, many privately held captive wild animals have 
attacked humans and other animals, or have escaped from their 
enclosures to freely roam the community. In many instances, children 
and adults have been mauled by tigers, bitten by monkeys, and 
asphyxiated by snakes. For example, monkeys are the most common non-
human primates to be privately kept. After the age of two, monkeys tend 
to exhibit unpredictable behavior. Males often become aggressive, and 
both males and females bite to defend themselves and to establish 
dominance. There have been numerous reported monkey bites since 1990 
resulting in serious injury to the individual involved who was either 
the possessor, a neighbor, or a stranger on the street.
    Further, many exotic animals are carriers of zoonotic diseases, 
such as salmonella, Herpes B, rabies, and monkeypox, all of which are 
communicable to humans. For example, ninety percent of all reptiles 
carry and shed salmonella in their feces. Iguanas, snakes, lizards, and 
turtles are common carriers of the bacteria. Reptiles that carry 
salmonella do not show any symptoms, thus there is no simple way to 
tell which reptiles play host to the microbe and which do not. 
Salmonellosis associated with exotic pets has been described as one of 
the most important public health diseases, affecting more people and 
animals than any other single disease. The CDC estimates that 93,000 
salmonella cases caused by exposure to reptiles are reported each year 
in the United States.
    Eighty to 90 percent of all macaque monkeys are infected with 
Herpes B-virus or Simian B, a virus that is harmless to monkeys but 
fatal to 70 percent of humans who contract it. Monkeys shed the virus 
intermittently in saliva or genital secretions, which generally occurs 
when the monkey is ill, under stress, or during breeding season. At any 
given time, about two percent of infected macaque monkeys are shedding 
the virus. A person who is bitten, scratched, sneezed on, or spit upon 
by a shedding macaque runs the risk of contracting the disease.
    Also, there are no known rabies vaccinations licensed by the Food 
and Drug Administration for exotic animals. Exotic animals that are not 
completely excluded from all contact with rabies vectors can become 
infected. As such, animals that are kept outside in cages can be 
infected from wild animals in the area. Therefore, all exotic animals 
that are capable of contracting rabies, such as lions, tigers, bears, 
etc., are potential carriers.
    Moreover, according to the CDC, as of July 8, 2003, there have been 
a total of 71 cases of monkeypox reported to the CDC from Wisconsin 
(39), Indiana (16), Illinois (12), Missouri (two), Kansas (one), and 
Ohio (one) as a result from exposure to ``pet'' prairie dogs. This 
recent outbreak of monkeypox clearly demonstrates that it is extremely 
difficult to predict what other communicable diseases are out there 
waiting to jump from animals to humans.
    The only way to stop the proliferation of the exotic animal trade 
and the public safety and health risks that possession of exotic 
animals causes is to stop the breeding, bartering, transporting, 
trading, and selling of exotic animals on the open market for profit 
and amusement, and by educating the public to understand that wild 
animals belong in the wild, not in our homes.
    There is very little Federal oversight on the exotic animal 
industry. The Federal laws that do exist outline minimal care and 
treatment standards for specific animals according to the Animal 
Welfare Act, regulate threatened and endangered species, or regulate 
the interstate transport of specific animals that may spread 
communicable diseases.
    Pursuant to 42 USC Sec. 264, the ``Surgeon General, with the 
approval of the Administrator [Secretary], is authorized to make and 
enforce such regulations as in his judgment are necessary to prevent 
the introduction, transmission, or spread of communicable diseases from 
foreign countries into the States or possessions, or from one State or 
possession into any other State or possession'' (emphasis added). 
Regulations implementing this section have prohibited the importation 
of all non-human primates into the United States, as well as restricted 
the number of turtles, tortoises, and terrapins that may be imported. 
Please see 42 CFR Sec. 71.52 - Sec. 71.55.
    Clearly, 42 USC Sec. 264 gives Congress the authority to prohibit 
transport of exotic animals between foreign countries and States, as 
well as prohibit outright the possession of designated species of 
animals. Considering this broad authority, Congress can and should 
prohibit the interstate transport and possession of additional exotic 
animals that have the potential to spread communicable diseases.
    With this in mind, API recommends that, at the very least, Congress 
acts under its authority and instructs the Director of the Centers for 
Disease Control and Prevention, Public Health Service, and/or the 
Department of Health and Human Services to adopt regulations that will 
prohibit the interstate transport and possession of all exotic animals 
that have the potential to spread a communicable diseases. The 
following is a partial list of exotic animals that are known to be 
possible carriers of zoonotic diseases transmittable to humans:
    <bullet>  Non-human primates--Herpes B with respect to macaque 
monkeys, ebola, and monkeypox
    <bullet>  Reptiles--Salmonella
    <bullet>  Prairie dogs--Monkeypox
    <bullet>  Exotic rodents (e.g. Gambian rats)--Monkeypox
    <bullet>  Bears--Rabies
    <bullet>  Exotic felines (e.g. lions, tigers, ocelots, servals, 
etc.) -- Rabies
    <bullet>  Wolves--Rabies
    In addition, API encourages Congress to devise an Advisory 
Committee, which would meet to discuss other exotic animals that should 
be considered as a potential health risk if privately possessed.
    Currently, the Captive Wildlife Safety Act (H.R. 1006 and S. 269) 
is moving through Congress. These bills amend the Lacey Act to ban the 
interstate movement of lions, tigers, leopards, cheetahs, jaguars, and 
cougars for private use as ``pets.'' A hearing was held on H.R. 1006 in 
which the bill was well received. This important bill attempts to 
address the exotic animal trade; however, stronger restrictions must be 
put into place that will protect the American public from the exotic 
animals that are in private hands.
    There is a critical need for the Federal government to step-in and 
regulate the exotic animal trade. API strongly asserts that the means 
to address this issue is to amend 42 USC Sec. 264 to prohibit the 
interstate transport and possession of all exotic animals that have the 
potential to transmit communicable disease to humans.
    Thank you for your consideration of this statement on behalf of the 
Animal Protection Institute.

                               __________
 Statement of Wayne Pacelle, Senior Vice-President, Communications and 
        Government Affairs, Humane Society of the United States

    On behalf of the Humane Society of the United States and its 7.7 
million members and constituents, I would like to thank the Chairman 
for conducting a hearing on the critical issue of exotic animals 
imported into the United States for the pet trade, and the concomitant 
dangers they pose to public health, native wildlife, and the 
environment.
    At the root of the government's recent scramble to contain the 
outbreak of monkeypox lies a simple fact. Anyone arriving in the United 
States carrying a meat product, a piece of fruit or a potted plant from 
any foreign destination is subject to a thorough inspection and 
confiscation of the item to make sure it isn't harboring diseases or 
parasites.
    But an importer of live exotic animals, say Gambian giant pouched 
rats that are blamed for introducing the monkeypox virus into the 
United States from Africa and passing it on to humans via pet prairie 
dogs, faces no such check. Gambian rats, and hundreds of other exotic 
wildlife species, have a far easier time entering the United States 
than dogs, cats, livestock, horses and people.
    This latest outbreak of yet another alien disease is the direct 
result of the government's failure to regulate the flow of tens of 
millions of wild creatures into this country for the pet trade. A 
veritable Noah's Ark of exotic wildlife carrying viruses, bacteria and 
parasites that can transmit endemic foreign contagions to humans and to 
native wildlife, are being imported into the United States with scant 
Federal regulation, restriction, or precaution.
    America's craze for exotic pets has created a freewheeling, 
virtually unregulated wildlife import industry that may account for 
close to half of the roughly $30 billion market for pets and pet 
products in this country. The industry is in serious need of controls. 
Everything from dangerous carnivores to omnivorous fish to venomous 
reptiles and amphibians are sold in pet stores, on the Internet, by 
mail order catalogue, at regional auctions, and in local swap meets.
    As monkeypox vividly illustrates, the virtually unrestricted flow 
of exotics into the U.S. poses a serious disease threat. Animals have 
long been known to transmit zoonotic illnesses to humans. They include 
E.coli, rabies, salmonella, trichinosis, yellow fever, malaria, 
botulism, streptococcus, and influenza. The Spanish flu pandemic of 
1918-19 that killed some 20 million people worldwide, is believed to 
have originated either with swine or waterfowl.
    In recent times, so-called ``emerging diseases'' have increasingly 
jumped from animals to humans as contact with exotic creatures has 
increased and opportunistic infectious agents have found new hosts. 
These diseases include HIV-AIDS, Hepatitis B, the hemorrhagic Ebola and 
Marburg viruses, Lyme disease, hantavirus, mad cow disease, West Nile 
virus, the respiratory killer SARS, and now monkeypox. This virus, 
never before seen in North America, spreads between humans and kills 
about 10 per cent of its victims in Africa.
    Experts believe this animal-human crossover could spawn dangerous 
new pathogens and increase the chances for another deadly disease 
outbreak. Robert Webster, a leading virologist at St. Jude's Children's 
Research Hospital in Memphis, has warned: ``There are probably 
hundreds, if not thousands - maybe even millions - of viruses out 
there. We don't even know they're there until we disturb them. SARS is 
probably just a gentle breeze of what one of these big ones is going to 
do someday.''
    The Humane Society of the United States began campaigning against 
exotic animal imports three decades ago when it supported a successful 
petition to the U.S. Food and Drug Administration to ban the import and 
sale of small turtles that carry salmonella. Since then, we have 
continued to battle this growing public passion for unusual pets and 
have tracked with alarm the deleterious consequences for both people 
and wildlife.
    In 1975, the government banned imports of all primates for the pet 
trade because they carry several dangerous diseases. Later, it 
prohibited the import of three species of African tortoise that can 
transmit a disease deadly to livestock. In the wake of the monkeypox 
outbreak, the government recently banned the import, sale and 
distribution of Gambian rats and other African rodents.
    Trade was also halted in native American prairie dogs which 
vectored monkeypox to humans and are known to carry bubonic plague and 
tularemia. The government's practice of targeting wildlife after a 
disease outbreak illustrates a major flaw in public health protection -
- the classic approach of closing the barn door after the horse has 
bolted.
    Washington has failed to stiffen the nation's public health 
defenses sufficiently even as the threat to public health has increased 
dramatically. Four years ago, for example, the HSUS petitioned the FDA 
for an import ban on all pet reptiles in response to the soaring 
incidence of salmonellosis. We are still awaiting the agency's 
response.
    According to the Centers for Disease Control and Prevention, there 
are nine million pet reptiles--snakes, iguanas, lizards and turtles--in 
the U.S. and they are responsible for some 90,000 cases of salmonella 
poisoning annually. The disease causes severe diarrhea, fever, 
vomiting, even death - with children and the elderly the most 
vulnerable.
    Government defenses against the exotic animal disease threat are 
fragmented between several Federal agencies. The CDC, for example, 
regulates imports of cats, dogs, and pet-trade primates because they 
are known vectors of disease to humans. The Fish and Wildlife Service 
checks a wide variety of wildlife shipments - alive and dead - looking 
for endangered species, but its inspectors are not trained to detect 
diseases.
    Along with meat and produce, the Department of Agriculture inspects 
horses, livestock and birds which are subject to quarantine and a raft 
of other screening procedures. Everything else gets waved through. Says 
a USDA spokesman: ``We don't regulate importation of fish, reptiles, 
lions, tigers, bears, foxes, monkeys, endangered species, guinea pigs, 
hamsters, gerbils, mice, rats, chinchillas, squirrels, mongooses, 
chipmunks, ferrets and other rodents.''
    The HSUS has warned for years that exotics can also wreak 
ecological and financial havoc by introducing diseases to domestic 
wildlife, livestock, poultry, and fish populations which have no 
natural resistance to them. In 2000, the government clamped an 
emergency ban on three species of African tortoise that carry ticks 
capable of transmitting heartwater disease to ungulates. Had it become 
established here, the contagion could have wiped out half the nation's 
cattle, sheep, goats, antelope and deer.
    Exotic Newcastle Disease, carried into California this year by 
smuggled Mexican parakeets and initially spread to four other States by 
illegal cockfighters whose game fowl became infected, has forced the 
government to destroy 3.5 million chickens and turkeys and has cost 
taxpayers over $100 million.
    Fanciers of unconventional pets eager to obtain the latest fad 
animal for personal amusement, public recognition, or bragging rights, 
rarely stop to consider the true costs of the exotics trade. All forms 
of wildlife suffer extreme cruelties and high death rates during 
capture and transportation. Mortality among tropical birds, for 
example, runs as high as 80 percent.
    When millions of surplus cats and dogs are euthanized every year 
because homes cannot be found for them, there is no good reason to take 
wild animals from their natural habitats and confine them to a tiny 
cage or a small enclosure for the rest of their lives. Before the 
monkeypox outbreak, tens of thousands of prairie dogs were captured out 
west and sold into the pet trade. In their natural habitat, these 
gregarious animals live in large social groups: as solitary caged pets, 
they are condemned to a miserable and lonely existence.
    Properly caring for exotic pets, particularly large predators like 
big cats, is difficult at best as owners often try to change the nature 
of the animal rather than accommodate its normal behavior. The HSUS 
estimates that Americans now own anywhere up to 12,000 pet tigers, 
lions, cougars and other big cats. These magnificent carnivores - 
particularly easy-to-breed tigers - have become the nation's hottest 
new exotic pet, animal status symbol, advertising gimmick, and roadside 
attraction.
    They are imprisoned in tiny wire mesh cages, tethered or chained in 
basements and barns, displayed outside gas stations and convenience 
stores to attract customers, used as guard animals by drug dealers, and 
held in squalid, unaccredited roadside zoos. Astonishingly, they are 
also carted around to schools and shopping malls to be photographed and 
petted.
    They may appear to be tame and friendly, but the reality of recent 
attacks -- many on children -- reinforces the omnipresent danger to 
their owners, or to anyone who comes into close contact. Big cats are 
hard-wired to kill, and in the past five years, at least 9 people have 
been mauled to death by tigers, scores have been attacked, and many 
have suffered grievous injuries. Twice as many people die each year 
from dog bites but with 50 million dogs, the threat from tigers is far 
greater.
    Tigers kept as pets or held in roadside zoos suffer from abuse, 
ignorance, poor diet, lack of veterinary care, and painful physical 
ailments from random inbreeding. A few lucky ones end up in accredited 
sanctuaries. Most are dumped into pseudo-shelters that operate like 
puppy mills. They breed the big cats to churn out cubs for sale on the 
internet or at exotic animal auctions. They cost as little as $300 - 
the price of a pure-bred puppy.
    Many tigers end up being dumped on local animal shelters that are 
ill-equipped to care for them. Humane officers report a catalogue of 
misery suffered by the animals from untreatable ailments requiring 
euthanasia, to cats mutilated and crippled by ignorant owners who try 
to declaw their pets with garden shears.
    This growing threat to the American public, the widespread abuse of 
these animals, and the patchwork of State and local exotic animal laws, 
underscores the need for Federal action. Twelve States (Alaska, Calif., 
Colo., Ga., Hi., Mass., N.H., N.M., Tenn., Utah, Vt., and Wyo.,) 
prohibit the private possession of exotic animals. Seven States (Conn., 
Fla., Ill., Md., Mich., Nev., Va.,) have a partial ban. Fifteen States 
(Ariz., Del., Ind., Maine, Miss., Mont., N.J., N.Y., N.D., Okla., Ore., 
Pa., R.I., S.D. and Tex.,) require a license or permit to possess them.
    However, enforcement is spotty, loopholes are wide, and local 
ordinances are a regulatory patchwork. From the squalid backyard 
menagerie to the seedy roadside zoo, it's time for Congress to step in 
and begin policing the big cat underground. It is also time to stem the 
tide of millions of exotic animals imported for the pet trade.
    Consumers should consider the health risks and the humane issues 
associated with any species of wild animal - exotic or native - 
obtained as a pet. Any time a wild creature is brought into the home, 
it can bring with it every bacteria, virus, or parasite it has been 
exposed to. Even with a lengthy quarantine, there is no way to assure 
that these animals are healthy, or will not pass on disease-causing 
pathogens to humans. The risks far outweigh the novelty and fascination 
of owning the animal.
    The Humane Society of the United States believes Congress and the 
Federal government have several available options for decisive action 
to regulate these unrestricted wildlife imports and protect public 
health.
    <bullet>  Enact the Captive Wildlife Safety Act [HR 1006 and S.269] 
now before the House and Senate that would prohibit the interstate 
transportation of big cats and other dangerous predators for sale and 
commerce in the private pet trade.
    <bullet>  Form an advisory committee within the Department of 
Health and Human Services to determine which species pose a health 
threat, and recommend their placement on the U.S. Fish and Wildlife 
Service list of injurious species.
    <bullet>  Expand the injurious species list immediately to include 
exotic reptiles and rodents, thus preventing their importation and 
interstate transportation under the Lacey Act.
    <bullet>  Consider new legislation to establish a fund to assist in 
the confiscation and placement of captive wild animals in the U.S. and 
improve their quality of care in accredited animal shelters and 
sanctuaries.
    Until a sound system to protect public health is in place, 
Washington should prohibit imports of all exotic mammals, reptiles, 
amphibians and birds - wild caught or captive bred - destined for the 
pet trade.
    Thank you again for conducting this important hearing.

                                 <all>

</pre></body></html>
